<html>
<title> - ELECTRONIC WASTE: CAN THE NATION MANAGE MODERN REFUSE IN THE DIGITAL AGE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    ELECTRONIC WASTE: CAN THE NATION 
                      MANAGE MODERN REFUSE IN THE 
                              DIGITAL AGE? 

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2008

                               __________

                           Serial No. 110-98

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ---------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-901 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio

































                            C O N T E N T S

                             April 30, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     8

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by the Hon. Mike Thompson (D-CA), Chairman, E-
  Waste Caucus...................................................    58

                               Witnesses:

Mr. Eric D. Williams, Assistant Professor, Department of Civil 
  and Environmental Engineering and School of Sustainability, 
  Arizona State University
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    17

Mr. Gerardo N. Castro, Director of Environmental Services and 
  Contracts, Goodwill Industries of Southern California
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    22

Ms. Renee St. Denis, Director of Americas Product Take-Back and 
  Recycling, Hewlett-Packard Company
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    28

Mr. Eric Harris, Associate Counsel/Director of Government and 
  International Affairs, Institute of Scrap Recycling Industries
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    35

Mr. Ted Smith, Chair, Electronics TakeBack Coalition
    Oral Statement...............................................    35
    Written Statement............................................    38
    Biography....................................................    50

Mr. Michael T. Williams, Executive Vice President and General 
  Counsel, Sony Electronics Inc.
    Oral Statement...............................................    50
    Written Statement............................................    51
    Biography....................................................    54

Discussion.......................................................    54

             Appendix 1: Answers to Post-Hearing Questions

Mr. Eric D. Williams, Assistant Professor, Department of Civil 
  and Environmental Engineering and School of Sustainability, 
  Arizona State University.......................................    62

Mr. Gerardo N. Castro, Director of Environmental Services and 
  Contracts, Goodwill Industries of Southern California..........    69

Ms. Renee St. Denis, Director of Americas Product Take-Back and 
  Recycling, Hewlett-Packard Company.............................    72

Mr. Eric Harris, Associate Counsel/Director of Government and 
  International Affairs, Institute of Scrap Recycling Industries.    79

Mr. Ted Smith, Chair, Electronics TakeBack Coalition.............    85

Mr. Michael T. Williams, Executive Vice President and General 
  Counsel, Sony Electronics Inc..................................    97

             Appendix 2: Additional Material for the Record

Statement of Parker E. Brugge, Vice President, Environmental 
  Affairs and Corporate Sustainability, The Consumer Electronics 
  Association....................................................   104

Statement of Meggan L. Ehret, Senior Counsel and Secretary, 
  Thomson Inc....................................................   107

Statement of the Office of Solid Waste and Emergency Response, 
  U.S. Environmental Protection Agency...........................   109

Follow-up Questions for Written Submission by the Environmental 
  Protection Agency (EPA)........................................   115


 ELECTRONIC WASTE: CAN THE NATION MANAGE MODERN REFUSE IN THE DIGITAL 
                                  AGE?

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Electronic Waste: Can the Nation

                      Manage Modern Refuse in the

                              Digital Age?

                       wednesday, april 30, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On April 30, 2008 the Committee on Science and Technology will hold 
a hearing on the management of waste electronic equipment (e-waste) in 
the United States. Witnesses will discuss industry practices for 
recycling, refurbishment, re-sale and disposal of electronic products 
and the challenges associated with end-of-life management of electronic 
products.
    The hearing will also examine the potential of research and 
development in green design efforts to make recycling easier and 
decrease the amount of toxic material used in electronic products, as 
well as in creating frameworks for understanding the economic and 
environmental impacts of reuse and recycling.
    The Committee will hear testimony from six witnesses offering 
perspectives from the electronics manufacturing sector, the recycling 
industry, a non-profit service provider and academic research and 
development.

Witnesses

        <bullet>  Mr. Gerardo Castro is the Director of Contracts and 
        Environmental Services, Goodwill Industries of Southern 
        California, Los Angeles, California. Mr. Castro will discuss 
        the scope and magnitude of e-waste in this country, as well as 
        the volume of electronic products received by Goodwill 
        Industries annually and their product recycling, refurbishing, 
        and re-sale operations.

        <bullet>  Ms. Renee St. Denis is the Director of America's 
        Product Take-Back and Recycling for Hewlett-Packard Company. 
        Ms. St. Denis will discuss the origin and history of HP's take-
        back and recycling program and how it has influenced product 
        design. She will also discuss, from HP's perspective, the types 
        of innovations that are needed to promote electronic product 
        recyclability and the increased use of recycled materials.

        <bullet>  Mr. Eric Harris is the Associate Counsel and Director 
        of Government and International Affairs for the Institute of 
        Scrap Recycling Industries (ISRI). Mr. Harris directs ISRI's 
        waste policy operations and will discuss the challenges faced 
        by e-waste recyclers as well as recycling best-practices. He 
        will also discuss the amount of e-waste that is recycled in the 
        U.S. versus the amount that is exported.

        <bullet>  Mr. Ted Smith is the Chair of the Electronics Take-
        Back Coalition. Mr. Smith will discuss the evolution of the e-
        waste problem, the advantages and disadvantages to product 
        reuse, and the type of research and development initiative 
        needed to foster more environmentally-friendly electronic 
        products.

        <bullet>  Mr. Michael Williams is the Executive Vice President 
        and General Counsel for Sony Electronics Incorporated. Mr. 
        Williams will discuss Sony's approach to the electronic waste 
        issue and whether their efforts in end-of-life management have 
        influenced product design. Mr. Williams will also discuss, from 
        Sony's perspective, the types of innovation needed to promote 
        electronic product recyclability and increased use of recycled 
        materials.

        <bullet>  Dr. Eric Williams is an Assistant Professor of Civil 
        and Environmental Engineering at Arizona State University. His 
        research focus is industrial ecology, life cycle assessment, 
        and macro assessment of supply and demand. Dr. Williams will 
        discuss the environmental impacts associated with the 
        manufacturing of electronic products, the challenge in tracking 
        the reuse and recycling industry, and options for reducing the 
        environmental impacts of this industry.

Background

    Electronic waste (e-waste) is the term used to describe electronic 
products at the end of their useful lives. This includes: computers, 
televisions, VCRs, stereos, printers, cell phones, fax machines, 
copiers, and other commonly used electronic products. The use and 
production of these products is integral to the digital age and our 
economy. However, due to product failure or the desire to purchase more 
advanced technology, the number of discarded electronic products is 
rapidly increasing. Indeed the lifespan of some of this equipment is as 
short as 18 to 24 months. The National Safety Council\1\ estimated that 
over 499 million personal computers became obsolete between 1997 and 
2004 and the Government Accountability Office estimates that 100 
million televisions, computers, and monitors become obsolete each 
year.\2\ With the fast rate of technology improvement and the rate that 
many industrializing countries will soon also be discarding large 
numbers of used electronics, the volume of e-waste globally stands to 
grow substantially.
---------------------------------------------------------------------------
    \1\ National Safety Council, Electronic Product Recovery and 
Recycling Baseline Report: Recycling of Selected Electronic Products in 
the United States, Stanford Resources, Inc. (1999).
    \2\ Government Accountability Office, Electronic Waste: 
Strengthening the Role of the Federal Government in Encouraging 
Recycling and Reuse, November (2005).
---------------------------------------------------------------------------
    There currently is no specific federal law or regulation governing 
the disposal of consumer electronic products in the United States. In 
2000, the National Electronic Products Stewardship Initiative (NEPSI) 
brought stakeholders together in an effort to create a consensus on the 
shape of a national e-waste management framework. This process stalled 
in 2004 when stakeholders could not agree on a financing mechanism for 
a product take-back system. Due to the presence of toxic materials like 
lead and mercury, several states now mandate end-of-life electronic 
product management. The patchwork of State laws has many in industry 
now turning to the Federal Government for a national framework that 
will harmonize the different State laws.
    Thirteen states have e-waste laws. California implemented a program 
in 2005. Maine, Washington and Minnesota implemented e-waste programs 
in 2007, and other states with legislatively mandated programs will 
bring those programs online in the near future. Many electronics 
producers and retailers now offer some type of product take-back 
service. Despite this progress, the EPA estimates that at most only 15 
percent of products at the end of their useful lives reach a recycling 
or reuse program. Cell phone producers, who have one of the most 
established take-back programs and whose product is easy for the 
consumer to return, only recapture a fraction of the phones they sell. 
According to the EPA, about two million tons of unwanted electronics 
end up in landfills or incinerators on average, while only 345,000 tons 
were ``recycled.'' \3\ Many producers, recyclers, and experts site 
consumer behavior and the logistics of gathering large volumes of waste 
as a major hurdle to cost-effective recycling.
---------------------------------------------------------------------------
    \3\ Environmental Protection Agency, Management of Electronic 
Wastes in the United States, November 2007. http://www.epa.gov/
ecycling/

Waste Management Issues

    When properly handled, used electronic products can be a valuable 
source for reusable equipment or secondary feedstock. However, when not 
properly handled, studies show that the components of these items can 
be sources of toxins and carcinogens. Cathode ray tubes (CRTs), the 
glass picture tubes found in some televisions and computer monitors, 
contain approximately five to eight pounds of lead, chromium, nickel, 
and zinc. Circuit boards also contain considerable quantities of lead-
tin solders and are likely to leach into groundwater or be emitted in 
gaseous form if destroyed in an incinerator. Up to thirty-eight 
separate chemical elements are incorporated into electronic waste 
items.
    In addition to concerns about pollution and volume regarding 
disposal of these products in landfills, electronic equipment also 
contains valuable resources. The U.S. Geological Survey estimates that 
scrap electronics contain significantly higher concentrations of 
copper, gold, and other metals than an equivalent weight of a typical 
ore. The recovery of the metals in e-waste decreases the need for 
virgin materials and lessens the impact on the environment that 
extraction of those materials represents.
    It is also important to consider that even with an increased 
content of recovered materials, the production of electronic products 
carries a significant environmental footprint. Rapidly changing 
production methods and a scarcity of current data make accurately 
assessing product life cycle difficult. Microchip fabrication, circuit 
board and component manufacturing, and the production of plastics, 
metals, glass, and the specialized chemicals used in the electronics 
industry have high energy and water requirements and require the use of 
chemicals that are harmful to human health and the environment. Many 
producers have made strides in increasing the efficiency and lessening 
the impact of manufacturing, but the entire life cycle of electronics 
still has a significant environmental footprint.
    Obsolete devices from industrialized countries can find their way 
to developing countries, where old computers and cell phones are often 
used for a few more years or processed for disposal. High disposal 
costs and landfill fees in the developed world have conspired with low 
labor costs and lenient health and environmental regulations in the 
developing world to create an incentive to export used electronic 
products to nations like China and Nigeria. Some of these products are 
received for legitimate refurbishment and reuse, but an overwhelming 
quantity has no reuse value and is improperly and unsafely recycled or 
landfilled. Primitive recycling creates health hazards for the laborers 
and environmental problems for their communities. According to the 
Basel Action Network (BAN), approximately 80 percent of the e-waste 
directed to recycling in the U.S. is not recycled, and instead finds 
its way overseas. There is no universally accepted standard to qualify 
a product for reuse.
    Many recyclers are environmentally responsible and health and 
safety conscious, but there are still numerous ``sham'' recycling 
operations that engage in harmful practices, particularly with regards 
to export. Stakeholders are working with the EPA to create a set of 
best practices for environmental management in electronics recycling, 
but there currently is no one universally accepted standard for 
electronics recycling. Electronics ``recycling'' can also be a 
misleading characterization of practices, since most of the material 
recovered from the product, in particular the plastics and the glass, 
is not reused directly in the electronics industry, and much is fated 
for incineration (i.e., fuel for smelters and furnaces).
    The U.S. is behind many other countries in confronting the e-waste 
challenge. The European Union (EU) took action in 2000 by passing the 
Waste Electrical and Electronic Equipment Directive (WEEE), which bans 
the disposal of e-waste in landfills and requires electronics producers 
to take back their used products. The WEEE Directive imposes the 
responsibility for the disposal of e-waste on the manufacturers. Part 
of the impetus for this policy was the theory that giving the producers 
the responsibility of recycling their own products would encourage them 
toward greener designs and products that are more easily recycled. It 
is too soon to assess whether these disposal laws have motivated 
producers to adopt greener designs. However, the EU Restriction of 
Hazardous Substance (RoHS) Directive banning the import of electronics 
with toxics like lead and cadmium has motivated the use of greener 
materials in electronics sold around the world.
    Recognizing the need to find better end-of-life management for 
these products, the EPA and many producers, retailers, State and local 
governments have been working to improve the awareness of the need for 
recovery of electronics and access to safe reuse or recycling options. 
This is a national problem and there is a need for standards and 
safeguards for environmentally sound disposal practices that strike a 
balance between manufacturer and consumer responsibility.
    Chairman Gordon. This hearing will come to order. Good 
morning and welcome to today's hearing entitled ``Electronic 
Waste: Can the Nation Manage Modern Refuse in the Digital 
Age?''
    I would like to welcome our panelists, who will share with 
us their views on the end-of-life management of the electronics 
that we all use and enjoy every day.
    Let me also point out that it appears we are going to have 
a joint session later on, which is going to unfortunately make 
us either have to finish up before or come back after, so we 
hope--I want you all to know that this is the start of this 
very important process and we will deal with it when the time 
comes.
    This nation started on the path that brings us here today 
in the 1940s when we began producing and buying televisions. By 
the 1960s, about 60 million American homes had TV sets. By last 
year, we were over 250 million. In the 1980s we began to 
acquire home computers and businesses, universities and schools 
invested in personal computers. Between 1986 and 1990, around 
28 million personal computers were sold in the United States 
and by 2000 that number had more than doubled.
    We all own and use these electronic products--TVs, 
computers, cell phones, MP3 and DVD players, but we rarely stop 
to think about what happens to all these products once we are 
finished with them.
    Today the amount we have to dispose of is in the billions. 
We know that many of these products end up in our landfills or 
are sitting in our attics and storage closets because we aren't 
sure what to do with them. Innovation in the electronics 
industry has produced staggering advances and I don't think 
anybody would want to turn back the clock on this progress. But 
if we could turn the clock back on something else, we would 
want to ask the engineers who began using lead in televisions 
to shield viewers from the X-rays and ask, ``How can we come up 
with something better?''
    Because now in 2008, with the transition to digital TV 
signals fast approaching and better technology on the market, 
we have millions of televisions and monitors with untold tons 
of lead heading to the landfills. And these old products also 
contain toxins like mercury and cadmium.
    Fortunately, there is a growing awareness of recycling and 
going green. As we will hear today, e-waste is not just trash. 
These products contain precious materials like gold and copper, 
and it doesn't make sense to put gold in a dump.
    Over a dozen states now have legislation mandating proper 
e-waste disposal and many electronic producers now offer take-
back services. However, it is estimated that only 10 to 15 
percent of these products reach recyclers. Clearly, much needs 
to be done to educate consumers about recycling and to make 
sure everyone has access to recycling.
    But raising awareness is not the only thing that can be 
done to tackle our growing pile of e-waste. Today we will also 
hear about opportunities to design products to avoid end-of-
life problems and to make product recycling more efficient and 
economically attractive. We must seriously look at the issue of 
reuse and help find ways to safeguard against its downstream 
problems.
    We must also develop methods to adequately access the 
economic and environmental impacts of e-waste and policies to 
manage it.
    This is a problem of global proportions. Technology and 
innovation have as much a role to play in solving it as they 
did in creating it. We don't want to stifle the innovation that 
has put the computing power of a room-sized mainframe into the 
palm of our hand, but we want to go forward with enough 
information and foresight to ensure that these modern marvels 
are not modern environmental problems.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning and welcome to today's hearing on electronic equipment 
waste (e-waste) in the United States.
    I would like to welcome our panelists who will share with us their 
views on the end-of-life management of the electronics that we all use 
and enjoy everyday.
    This nation started on the path that brings us here today in the 
1940s when we began producing and buying televisions. By 1960, about 60 
million American homes had TV sets. By last year, we were over 250 
million.
    In the 1980's we began to acquire home computers and businesses, 
universities and schools invested in personal computers.
    Between 1986 and 1990, around 28 million personal computers were 
sold in the U.S. By 2000, that number had more than doubled.
    We all own and use these electronic products--TVs, computers, cell 
phones, MP3 and DVD players--but we rarely stop to think about what 
happens to all these products once we are finished with them.
    Today the amount we have to dispose of is in the billions. We know 
that many of these products end up in our landfills or are sitting in 
our attics and storage closets because we aren't exactly sure what to 
do with them.
    Innovation in the electronics industry has produced staggering 
advances and I don't think anybody would want to turn the clock back on 
that progress.
    But if we could turn the clock back on something, we would want to 
ask the engineers who began using lead in televisions to shield viewers 
from x-rays and ask, ``Can we come up with something better here?''
    Because now in 2008, with the transition to digital TV signals fast 
approaching and better technology on the market, we have millions of 
TVs and monitors with untold tons of lead, headed to landfills. And 
these old products also contain other toxins like mercury and cadmium.
    Fortunately, there is a growing awareness of recycling and going 
green. As we will hear today, e-waste is not just trash.
    These products contain precious metals like gold and copper, and it 
doesn't make sense to put gold in a dump.
    Over a dozen states now have legislation mandating proper e-waste 
disposal and many electronics producers now offer take-back services.
    However, it's estimated that only about 10 to 15 percent of these 
products reach recyclers. Clearly much needs to be done to educate 
consumers about recycling and make sure everybody has access to 
recycling.
    But raising awareness is not the only thing that can be done to 
tackle our growing pile of e-waste.
    Today we will also hear about opportunities to design products to 
avoid end-of-life problems and make product recycling more efficient 
and economically attractive.
    We must seriously look at the issue of reuse and help find ways to 
safeguard against its downstream problems.
    We must also develop methods to adequately assess the economic and 
environmental impacts of e-waste and policies to manage it.
    This is a problem of global proportions. Technology and innovation 
have as much a role to play in solving it as they did in its creation.
    We don't want to stifle the innovation that has put the computing 
power of a room-sized mainframe into the palm of our hand, but we want 
to go forward with enough information and foresight to ensure that 
these modern marvels are not a modern environmental problem.

    Chairman Gordon. And now I would like to recognize Mr. Hall 
for an opening statement.
    Mr. Hall. Mr. Chairman, thank you, and you adequately 
stated it. I will be more brief than you were. You have covered 
the subject. You wonder where a lot of the e-waste is going to 
wind up. You know, mine winds up just as far as I can throw it 
every now and then, and my grandchildren get tired of me 
telling them I can take a Big Chief tablet and cedar pencil and 
figure out anything you all can if you give me enough time.
    It is an unusual panel, Mr. Chairman, and I really expect 
to get some good information from them, and I am pleased that 
we are having the hearing. E-waste is the unintended 
consequence of a high-tech industry that has grown 
substantially since its beginning in the second half of the 
20th century, and although consumer electronics comprise less 
than two percent of the municipal solid waste, it is really one 
of the fastest growing waste, I guess streams, if you want to 
call it that, in the United States. According to the EPA, less 
than 20 percent of the e-waste is now recycled. Advancement in 
the consumer electronics field helped create this growing 
amount of e-waste as electronics rapidly become obsolete.
    There are a lot of aspects to the e-waste dilemma: the 
definition of e-waste, the reuse and recycling of electronics, 
landfill disposal and hazardous waste, regulatory issues and 
export economies. The complexity absolutely creates a vast 
array of opinions on possible solutions to the problem. Today's 
panel is well suited to help us explore the options before us 
from recycling of e-waste to better design that will minimize 
the problem in the future.
    The House has passed H.R. 2850, which is the Green 
Chemistry Research and Development Act of 2008, authored by my 
friend, Dr. Gingrey. I think this legislation was a step in the 
right direction, and like I said on the House Floor at the time 
of its passage, advances in the research and development of 
green chemicals and products will reduce the creation of 
substances that are harmful to our environment. This certainly 
applies to the problems with e-waste.
    I look forward to hearing from the panel today. I yield 
back my time, Mr. Chairman.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I am pleased we are having this hearing 
today. Electronic waste, or e-waste, is the unintended consequence of a 
high-tech industry that has grown substantially since its beginning in 
the second half of the 20th century. Although consumer electronics 
comprise less than two percent of municipal solid waste, it is one the 
fastest growing waste streams in the United States. According to the 
EPA, less than 20 percent of e-waste is now recycled. Advancements in 
the consumer electronics field help create this growing amount of e-
waste as electronics rapidly become obsolete.
    There are many aspects of the e-waste dilemma: the definition of e-
waste; reuse and recycling of electronics; landfill disposal and 
hazardous waste; regulatory issues and export economies. This 
complexity creates a vast array of opinions on possible solutions to 
these problems. Today's panel is well suited to help us explore the 
options before us, from recycling of e-waste to better design that will 
minimize the problem in the future.
    The House has passed H.R. 2850, the Green Chemistry Research and 
Development Act of 2008, authored by my friend, Dr. Gingrey. I believe 
that this legislation was a step in the right direction, and like I 
said on the House Floor at the time of its passage, advances in the 
research and development of green chemicals and products will reduce 
the creation of substances that are harmful to our environment. This 
certainly applies to the problems with e-waste.
    I look forward to hearing from the panel today about this important 
issue. I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point, and with unanimous consent, Mr. Hall, I will ask for 
that at the end of this hearing too in case there are other 
folks that would like to ask questions.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you. I am glad to see that this committee is addressing the 
issue of electronic waste.
    Electronic products at the end of their usability must either be 
thrown away or recycled. Some electronics contain mercury, lead, 
cadmium or other toxic materials.
    Today's hearing will be valuable because we have a variety of 
witness perspectives on this issue.
    The Committee will hear testimony from witnesses offering 
perspectives from the electronics manufacturing sector, the recycling 
industry, non-profit service provider, and academic research and 
development.
    This is actually an international issue. High disposal costs and 
landfill fees in the developed world have conspired with low labor 
costs and lenient health and environmental regulations in the 
developing world to create an incentive to export used electronic 
products to nations like China and Nigeria.
    Our nation needs a uniform standard for recycling and appropriate 
disposal of electronic waste.
    It is wrong to leave an environment of mercury, lead and cadmium 
for our grandchildren to clean up.
    According to the Basel Action Network (BAN), approximately 80 
percent of the e-waste directed to recycling in the U.S. is not 
recycled, and instead finds its way overseas.
    There is no universally accepted standard to qualify a product for 
reuse.
    I see a role for the Federal Government to play.
    I will be particularly interested to know of the electronics 
industry's recommendations of how to develop an economical, uniform 
policy that is not harmful for our environment.
    Again, welcome to our witnesses. Mr. Chairman, I yield back the 
remainder of my time.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this important hearing on 
managing electronic waste in the United States.
    The digital era provides us with useful technological advances, but 
with it comes the alarming result that our nation has already disposed 
of millions of electronic products and will continue to in the coming 
years. These electronics contain lead, mercury, and other harmful 
substances that, unless properly disposed of, can contaminate our 
environment and present health dangers to our citizens. I believe it is 
our responsibility to examine how we can best encourage the manufacture 
of electronic products while keeping the total cost of their life 
cycle, including the ultimate disposal, in mind. I look forward to 
hearing more from our witnesses on that subject.
    In my own office, last year we transitioned staff to TV cards on 
our computers, enabling us to watch the House Floor without losing desk 
workspace. We've also been fortunate enough to install teleconferencing 
between my district office and my DC office via a flat screen, enabling 
me to hold meetings with constituents when I must be in Washington 
voting and appearing in committee. Our office is a prime example of 
many, many other businesses and households across the Nation. Our new 
technologies help me to do my job better. Yet, multiple television sets 
with Cathode ray tubes (CRTs) reside in a storage area. The disposal of 
CRTs is a pressing issue, particularly with the upcoming digital 
conversion.
    I would like to thank today's witnesses, Mr. Castro, Ms. St. Denis, 
Mr. Harris, Mr. Smith, Mr. Williams, and Dr. Williams, for coming 
before the Committee. Mr. Harris, I'm pleased to tell you that one of 
your active Members is a constituent of mine who has kept me informed 
of these issues. I will be sure to tell him that you appeared before 
us. I look forward to hearing all of our witnesses' testimonies.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    As American consumers attempt to keep up with the latest technology 
trends by purchasing the newest cell phones and laptops, the number of 
discarded electronic products is rapidly increasing.
    When electronic products are properly handled, these products can 
transform into a valuable source for reusable equipment.
    However, if these products are not disposed of properly, they are 
potentially harmful to both human health and the environment.
    Currently, there are no federal regulations in place for the 
appropriate disposal of electronic waste (e-waste).
    I look forward to hearing from our witnesses about potential 
practices for handing e-waste.
    I want to extend a special welcome to Dr. Eric Williams, a 
Professor from Arizona State University, for testifying here today. Dr. 
Williams has focused his research on the environmental impacts of e-
waste, and I look forward to his testimony.
    I yield back.

    Chairman Gordon. As you can see, things are relatively 
crowded up here so we have staff both in the anterooms that are 
watching--this is being televised--as well as other Members who 
are also watching. So we welcome your testimony, and at this 
time I would like to introduce our witnesses.
    Dr. Eric Williams is Professor at Arizona State University. 
He holds a joint appointment in the Department of Civil 
Engineering and the School of Sustainability. Mr. Gerardo 
Castro is the Director of Environment Services for Goodwill 
Industries of Southern California. Ms. Renee St. Denis is 
Hewlett Packard's Director of Product Take-Back and Recycling 
Services for America. Mr. Eric Harris is Associate Counsel and 
Director of Government Affairs for the Institute of Scrap Metal 
Recycling, and Mr. Ted Smith is the Chairman of the Electronics 
Take-Back Coalition. And finally, Mr. Michael Williams is the 
Executive Vice President and General Counsel for the Sony 
Corporation.
    Our witnesses should know spoken testimony is limited to 
five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. We will start 
with Dr. Williams.

    STATEMENT OF MR. ERIC D. WILLIAMS, ASSISTANT PROFESSOR, 
DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING AND SCHOOL OF 
            SUSTAINABILITY, ARIZONA STATE UNIVERSITY

    Mr. Eric Williams. Chairman Gordon and other Members of the 
Committee, it is my pleasure to be here today to testify. 
Management of end-of-life of electronics is a new challenge. 
One reason is the rapid evolution of technology. While new 
electronic products like computers and cell phones have as long 
a potential lifespan as traditional white goods, in practice 
they are considered obsolete very soon and replaced with new 
models. These discards are our e-waste.
    A second distinction is that the environmental intensity of 
manufacturing electronics is comparatively high. For example, 
it takes four times more energy to make a desktop computer than 
it consumes while plugged in at home. In contrast, for a 
refrigerator, most of the energy is used in operation. 
Manufacturing is a small share. Surprisingly, a computer's 
annual energy costs are higher than for a refrigerator if one 
includes manufacturing. Extending electronics' lifespans thus 
could be an important strategy to mitigate environmental 
impacts. This does not mean that we should try to make do with 
slide rules or pocket calculators. Rather, robust markets for 
used electronics can help ensure that functions are well 
matched with the needs and wants of users.
    A third challenge is how to manage substances of concern in 
electronics such as lead and brominated flame retardants. Much 
of the environmental concern concerning e-waste is about the 
potential for lead and other heavy metals to leach from e-waste 
in landfills. Circuit boards and cathode ray tubes are 
classified as hazardous waste because they fail EPA's TCLP 
leaching risk test. My colleagues and I at Arizona State 
University recently reviewed the literature, and our conclusion 
was that the risk of leaching from sanitary landfills is very 
small, if not negligible. The main reasons for this are, one, 
the TCLP test is considerably more aggressive than the leaching 
that actually occurs in landfills, and two, modern landfills 
have control systems to contain toxics that may leach out. In 
contrast, there is as yet no evidence that modern recycling of 
circuit boards and CRTs is environmentally preferable to 
landfilling.
    A fourth challenge is that the reuse and recycling of 
electronics is often a net cost in the United States but in the 
developing world is a profitable business because the 
developing world has lower labor costs, higher demand for 
reused products and parts, and lower environmental protection. 
This results in substantial export of end-of-life electronics 
from the United States and other developed countries to 
developing countries.
    The electronics reuse and recycling industry is a double-
edged sword for the developing world. On one hand, reuse 
markets provide access to technology which people could 
otherwise not afford. Low-cost computers and cell phones in 
particular enhance education and economic development. The 
recycling and refuse industry employs thousands of people. On 
the other hand, the recycling of electronics is often done in 
developing countries via an informal industry. It is, in my 
opinion, by far the most serious environmental problem 
associated with end-of-life electronics. Yet there is as yet 
little action taken to improve health and safety conditions in 
this industry.
    I believe that it is important we work toward electronic 
product solutions and policies which aim at triple bottom-line 
solutions: environmental, economic, and social benefits. While 
it is tempting to focus only on environmental issues, some 
environmental options have negative economic and social impacts 
for disadvantaged groups leading to complex ethical choices. We 
need to understand the tradeoffs between different options.
    An important part of moving forward is understanding what 
is really going on with reuse and recycling. One reason for the 
current lack of information is that reuse and recycling 
activities do not have their own industry or commodity codes 
and thus are invisible to conventional statistics. Considering 
product design, using and developing alternate materials is an 
important strategy but it is important to note that even a 
computer free of toxic substances would still be dangerous to 
recycle informally. Many of the toxics are generated or used in 
the recycling processes themselves.
    The design of information systems for products is much less 
discussed but I think one of the major untapped opportunities 
to improve reuse and recycling. One idea is to place a radio 
frequency identification device into a computer to act as a 
black box, periodically recording the functionality of 
different systems. At the end-of-life, a computer arriving at a 
processing facility could be remotely scanned to test 
functionality and classify it for reuse versus recycling. There 
are many other possibilities.
    To sum up, I am concerned that current policy direction 
around the world may not take us in the direction we want to 
go. I believe the United States should take a leadership role. 
Here are some suggested directions: one, investigate the pros 
and cons of different landfilling and recycling technologies to 
establish best practices; two, promote reuse domestically and 
abroad; three, cooperate with the developing world to mitigate 
the impacts of informal recycling; and four, while the public 
discourse on electronics in the environment focuses on end-of-
life issues, information technology has many important 
environmental applications which we should not neglect or 
ignore.
    So I and my colleagues at Arizona State University would 
like to thank you for your attention.
    [The prepared statement of Mr. Williams follows:]
                 Prepared Statement of Eric D. Williams
    Chairman Gordon and other Members of the Committee, it is my 
pleasure to be here today to testify on the topic of end-of-life 
electronics. My name is Eric Williams and I am an Assistant Professor 
at Arizona State University with a joint appointment between the 
Department of Civil and Environmental Engineering and the new School of 
Sustainability.
    The fate of end-of-life of electronics, also known as e-waste, has 
gained a great deal of attention from policy-makers and public around 
the world. The chain of activities from manufacturing to operation to 
disposal is highly globalized and continues to globalize further. 
Policy decisions taken here in the U.S., in Europe, in China have 
global implications for the industries involved in electronics 
manufacturing and end-of-life. Here in the U.S. some states such as 
California and Maine have already developed and implemented State-level 
legislation mandating recycling of end-of-life electronics. Given the 
importance of the electronics industry both in the U.S. and globally, I 
believe it important that the U.S. Government takes a leadership role 
in developing responsible policies and practices for managing e-waste. 
In my testimony I intend to lay out one view of how this nation might 
work towards sustainable management of end-of-life electronics.

End-of-life electronics: a unique challenge

    First I will discuss how management of end-of-life electronics is a 
unique new challenge compared to previous products. One reason is the 
rapid evolution of electronics technology. Rapid progress goes hand-in-
hand with rapid obsolescence, which has two main implications for 
environmental management. One is that it stimulates purchases of new 
devices as consumers aim to take advantage of improved technology. A 
second is that the characteristics of the waste stream evolve along 
with the product.
    A second reason is that the environmental intensity of 
manufacturing electronics, in particular information technology goods, 
is higher than many other consumer products. For example, it takes four 
times more energy to make a desktop computer than it consumes while 
plugged in at home. For a refrigerator, in contrast, most energy is 
used in operation, the energy used in manufacturing is a small share. 
This high energy intensity in manufacturing combined with rapid product 
turnover implies a surprisingly high net impact: when the energy used 
in manufacturing is amortized over the life of the product, annual 
energy costs for owning a personal computer are higher than for a 
refrigerator.
    How does this high environmental intensity of manufacturing tie in 
with the e-waste issue? Reduce, reuse, recycle, or the 3Rs, is a mantra 
of waste management. However, most of the environmental investment in 
high-technology electronics is in not in the materials but is in its 
complex manufactured form. Recycling is less effective at recovering 
this investment than for many other goods (e.g., an aluminum can). 
While appropriate end-of-life management is needed, the high 
environmental investment in form versus materials in electronics tilts 
the 3Rs such that Reduce and Reuse tend to be much more effective than 
recycling at reducing life cycle environmental impacts. Extending 
lifespan is thus an important strategy to mitigate environmental 
impacts. Extending lifespan does not mean that we should make do with 
slide rules or pocket calculators! Rather, we should work to match the 
performance specs of hardware with actual needs of users, for example 
with reuse markets.
    A third reason e-waste management poses a unique challenge is the 
mix of materials used in making electronics. Electronics contain 
valuable materials for recycling such as copper, silver and gold as 
well as known toxic substances such as lead, cadmium and mercury. There 
are also new substances of concern: for instance, brominated flame 
retardants are added to circuit boards and cases to reduce 
flammability. Recent scientific studies show that some brominated flame 
retardants are endocrine disruptors and that their concentrations in 
human tissues are rapidly increasing. While the human health and 
environment effects of brominated flame retardants are uncertain, I 
believe there is enough evidence to justify concern and response.
    Much of the environmental discourse surrounding e-waste centers 
around the concern that lead and other heavy metals could leach from e-
waste put into landfills and contaminate ground water. Circuit boards 
and Cathode Ray Tubes (CRTs) fail the EPA's Toxicity Characteristic 
Leaching Procedure (TCLP) test, resulting in these items being 
classified as hazardous waste. The TCLP test involves grinding up the 
material in question, putting it into an acidic solution and measuring 
the amount of material (such as lead) that seeps out. My colleagues and 
I at Arizona State University recently reviewed the literature relevant 
to the actual risk of heavy metals leaching from e-waste in sanitary 
landfills in the U.S. Our conclusion was that the risk of environmental 
harm from landfilled e-waste is negligible, despite the failure of the 
TLCP test by some electronic components. The main reasons for this are: 
1. that the TCLP tests are considerably more aggressive than the 
leaching that actually occurs in municipal (non-hazardous) waste 
landfills and 2. modern landfills have control systems to contain any 
toxics which may leach out.
    Is modern recycling of circuit boards and CRTs actually 
environmentally preferable to putting these parts in sanitary 
landfills? We argue that this is not known and that it is conceivable 
that recycling could emit more toxic heavy metals over the life cycle. 
Recycling by definition mobilizes materials (e.g., via smelting), and 
depending on the level of process control can emit lead, mercury, and 
other hazardous substances. In contrast with landfills however, 
recycling has the virtue of replacing production of virgin materials 
with recycled substitutes. If the avoided lead emissions associated 
with mining and milling are larger than for recycling, recycling would 
reduce total lead emissions. If not, recycling e-waste has the 
potential to release more lead to the environment than e-waste in 
landfills. Currently there are no analyses addressing under what 
circumstances which option (recycle versus landfill) leads to lower 
life cycle emissions of heavy metals. I suggest that this issue be 
resolved before public policy mandates recycling as the default 
environmentally preferable alternative.
    A fourth reason e-waste management presents a challenge is that 
while reuse and recycling of electronics in the developing world runs a 
net profit in the U.S. recycling often results in a net cost. The main 
factors contributing to this dichotomy are lower labor costs, higher 
demand for reused products and parts, and less stringent environmental 
protections in the developing world. Recycling in the developing world 
at a net profit versus recycling in the U.S. at a net cost creates a 
market dynamic for exporting electronics to the developing world. The 
electronics reuse/recycling industry is a double-edged sword for the 
developing world. On one hand reuse markets provides access to 
technology to people who otherwise could not afford it and creates jobs 
for thousands of people. Many of the electronics goods people own in 
developing countries were first used in the U.S. The availability of 
low cost recycled computers and cell phones, in particular, can play an 
important role in increasing the use of Information Technology (IT) to 
enhance economic and educational activities in developing countries.
    On the other hand, recycling of electronics in developing countries 
is often implemented by an informal industry. U.S. NGOs such as the 
Basel Action Network (BAN) and the Silicon Valley Toxics Coalition have 
reported that informal recycling activities in China, India and Nigeria 
cause serious environmental harm. For example, in many cases wires are 
pulled from computers, collected and burned in open piles to remove 
casings and recover re-saleable copper. This results in creation and 
emission of dioxins, furan and other environmental pollutants. Circuit 
boards are treated to extract copper and precious metals using acid, 
cyanide and/or and mercury often in a manners that leads to 
uncontrolled discharge of contaminated process liquid, sometimes next 
to rivers. Scientific evidence is mounting which confirms that the 
environmental impacts of these activities are indeed severe. In Guiyu, 
a town in China well known for informal electronics recycling, 
emissions of dioxins were shown to be thousands of times the U.S. 
standard and blood lead concentration in children were found to exceed 
levels of concern. It is my opinion that informal recycling represents 
by far the most serious environmental issue for end-of-electronics. Yet 
there is as yet little action being taken to improve health and safety 
conditions in the industry. I believe that the U.S. should work with 
developing countries to address informal recycling.

Policy and e-waste

    End-of-life electronics management interfaces with environmental, 
social and economic issues. What are nations and regions around the 
world doing legislatively to address this management challenge? There 
are three primary approaches. The first legislative approach is 
enacting take-back systems which collect end-of-life electronics for 
recycling. Such systems have been mandated in the European Union, Japan 
and other nations, and a few U.S. states such as California and Maine. 
The ostensible goals of this legislation are to keep e-waste out of 
landfills and increase recycling of materials. However, the net 
environmental benefit of this legislation is, I believe, as yet 
unclear. Recycling may not be environmentally preferable to landfilling 
and in addition take-back systems could have an adverse affect on reuse 
of equipment. I do not believe the landfill versus recycle question has 
been sufficiently resolved to warrant a blanket priority for policy.
    The second approach to legislation regulates the use of materials 
in electronics. The primary example of this type of policy is the 
Restriction on Hazardous Substances (RoHS) legislation promulgated in 
the European Union. RoHS restricts six hazardous elements in different 
applications; lead, mercury, cadmium, hexavalent chromium, and the 
polybrominated biphenyls (PBB) and polybrominated diphenyl ethers 
(PBDE) flame retardants. Any electronics manufacturer wishing to sell 
their products in Europe must abide by the rules, thus this regional 
legislation effects global change in the industry. Exposure to 
brominated flame retardants presumably occurs while the goods are in 
service, thus removing them has a high potential to reduce consumer 
risk. However, banning the use of lead in solder has been a particular 
source of controversy with respect to RoHS, with many in the U.S. 
arguing that the environmental need for the ban is unclear. For heavy 
metals like lead, exposure generally is not an issue during use of the 
product but depends on handling at end-of-life. Furthermore, while lead 
exposure in informal recycling is a clear risk to workers and local 
communities, the overall risk to workers from lead exposure is reduced 
but not clearly managed by banning lead solder, since lead is only 
removed from solder but not from CRTs, which contain far more lead than 
solder.
    A third approach to legislation regulates trade in end-of-life 
electronics. This is usually applied at the national level, for 
instance China bans imports of used electronics and e-waste. However, 
while officially a ban is in place in China, the imports of e-waste 
coming in China have continued unofficially more or less as before. At 
the international level, the central framework for controlling 
international movements of hazardous substances is the Basel 
Convention. The Basel Convention requires prior notification between 
signatories when trading wastes classified as hazardous. Many 
categories of e-waste are classified as hazardous waste and thus are 
targeted for prior notification. Products intended for reuse, however, 
are exempt from control. Furthermore, the Convention does not suggest 
how to establish the reusability of a given trade flow in practice, a 
nontrivial challenge.
    Do these current policy directions achieve desirable environmental, 
social and economic objectives for society? On the environmental side, 
many in the scientific community are of the opinion that the risk 
associated with landfilling e-waste has been vastly overstated. The 
most pressing environmental issue is, in all likelihood, the adverse 
impact of informal recycling in developing countries. Dealing with 
these and other issues can lead to complex ethical choices. Policies 
can result in tradeoffs between environmental, economic and social 
issues. For example a ban on exports of end-of-life electronics might 
seem an appropriate course of action to mitigate environmental impacts 
of informal recycling. However, a blanket trade ban would make used IT 
equipment less available abroad. Also, it would cut off the supply of 
raw material to a reuse/recycling industry providing thousands of jobs 
to poor people. Is this appropriate, especially given an absence of 
prior attempts to redress occupational and safety issues of the 
industry?
    While it may seem off-topic, I think it important to raise the 
issue of the environmental applications of IT. Informational Technology 
can be used to reduce a variety of different environmental impacts. For 
instance, it can reduce the impacts of transportation systems by 
enabling telecommuting, virtual meetings, and creating virtual networks 
of car-poolers. Furthermore, a great deal of energy consumption in 
residential and commercial buildings goes towards energy services not 
actually needed, such as heating or cooling unoccupied rooms. 
Substantial energy can be saved via computerized monitoring and control 
systems. The environmental management of electronics has come to be 
conceptualized in terms of its potential end-of-life impacts. While 
end-of-life impacts should certainly be better managed, we should 
allocate our attention and resources in proportion to potential 
benefits. The environmental potential of IT is significant yet 
relatively ignored.

Towards the future: Product, reuse/recycling processes and policy 
                    design

    It is important to work creatively towards the design of products, 
reuse and recycling processes, and policies to achieve multiple 
societal objectives. An important starting point to achieve this goal 
is characterizing domestic and international flows of end-of-life 
electronics. Currently flows of e-waste products and materials are 
poorly understood. One reason for this is that reuse and recycling 
activities do not have their own industry or commodity codes and are 
thus invisible to conventional trade statistics systems. Under a grant 
from the National Science Foundation in the Environmental 
Sustainability program, my colleagues and I at Arizona State University 
are working to characterize international e-waste flows and come up 
with new solutions to capture this information. This is at present the 
only U.S. project of its ilk I know of. Japan in comparison is 
investing far more in order to characterize and plan management of 
international end-of-life flows for a variety of consumer products and 
recycled materials.
    Product design can be viewed through three different lenses: 
materials, assemblies, and informatics. Material selection is one 
important strategy for optimizing end-of-use value. The RoHS 
legislation for example takes the step of banning two brominated flame 
retardants. The potential snag is that it is not yet clear whether 
environmentally acceptable alternatives are available. Research and 
development in green chemistry is needed to develop and test 
alternatives. We should however be cognizant that material selection 
faces limits. Even a computer completely free of toxic substances would 
still be dangerous to recycle informally because of the toxic 
substances generated and used in recycling. I believe the target should 
be managing the exposure to toxics by developing environmentally sound 
recycling processes rather than the complete elimination of all 
substances of concern.
    Assemblies refer to how parts are put together, which also has 
effects on end-of-life processing. Disassembly is currently carried out 
by hand and labor costs are an important cost issue. Snap-fits for 
easier disassembly and making parts of concern such as nickel cadmium 
batteries easily accessible reduces labor costs of recycling and 
potentially reduces adverse impacts of informal recycling.
    The design of informatics as it relates to the end-of-life of 
products is much less discussed than material and assembly choice. 
Information Technology can be applied to construct information systems 
to enhance the reusability and recyclability of products. For example, 
Radio Frequency Identification Devices (RFIDs) could be placed in 
computers to provide information wirelessly to reuse/recycling systems. 
One concept is an RFID ``blackbox'' for each computer, which 
periodically records the functionality of different subsystems. At the 
end-of-life, a computer arriving at a processing center can be 
wirelessly scanned for functionality and selected for reuse versus 
recycling.
    Another layer of informatics design relates to the ease and 
security with which consumers can resell their computers. After 
purchasing a replacement computer, consumers often store their old 
computer, unused for years, until some decision is made regarding its 
end-of-life disposition. One reason for this is concern whether data on 
the old computer has been backed up and if it can be securely erased 
before selling. There are software applications which could be packaged 
with computers which create backups and then thoroughly erase all data. 
Another obstacle to used markets relates to the transfer of the right 
to use pre-installed software from first user to secondary user. In 
general software license agreements grant the secondary user the same 
rights to use software but in practice the current rights labeling 
system does not enable the secondary user to clearly establish this 
right from a legal perspective. To protect themselves from litigation 
from software companies, reuse and refurbishing companies routinely 
wipe hard drives of the used computers they purchase. This loss of 
software reduces the value of the used computer. This could be avoided 
if pre-installed software rights were packaged with the computer in a 
verifiable way.
    Considering end-of-life processes, one important task is to assess 
the environmental characteristics of recycling, especially those 
processes such as smelters and acid leaching which mobilize toxics. 
There are a variety of recycling processes and practices currently in 
use around the world. Assessment will reveal which are best practices 
and in what specific areas it may be most appropriate to invest in 
research and development of environmentally benign recycling processes.
    Another layer of design is policy. It is fair to characterize the 
current status of policy development as one in which nations and states 
are experimenting with different policy designs to manage end-of-life 
electronics. There is still much room to develop policy alternatives. 
One alternative policy direction is to design systems intended to 
ensure environmentally safe end-of-life management while at the same 
time establishing a competitive market for reuse and recycling 
services. One concrete idea to realize this goal is termed e-Market for 
Returned Deposit. The e-Market system begins with a deposit paid by 
consumers to sellers at the time of purchase, electronically registered 
and tracked via a Radio-Frequency Identification Device (RFID) placed 
on the product. At end-of-life, consumers consult an Internet-enabled 
market in which firms compete to receive the deposit by offering 
consumers variable degrees of return on the deposit. After collection 
of the computer by the selected firm, the cyber-infrastructure utilizes 
the RFID to transfer the deposit to the winning firm when recycled. If 
the firm chooses to refurbish or resell the computer in lieu of 
recycling, the transfer is deferred until true end-of-life processing.
    A second policy proposal focuses on redressing the environmental 
impacts of informal recycling abroad. The basic idea is to pay workers 
involved in reuse and disassembly not to recycle those components 
dangerous to handle with informal processing. This could be implemented 
via a system which establishes collection points at which workers would 
be paid fixed prices to deliver targeted parts. The price is set to 
create a financial incentive for informal recyclers to deliver the 
targeted parts rather than process them on their own. Under this system 
the collected parts would be transported and processed in appropriate 
recycling facilities. Since much of the cost associated with recycling 
is with transport and disassembly, this system would presumably be an 
inexpensive option to avoid informal recycling while maintaining an 
active reuse industry.

Conclusion

    Are there product, process and policy designs which allow us to 
mitigate environmental impacts while at the same time realizing the 
social and economic benefits of recycling and reuse of electronics? 
Management efforts up to now have focused on heuristic goals such as 
increasing recycling rates and banning e-waste from landfills. It is 
not clear to me that this approach will take us where we want to go. We 
need to think about desired endpoints such as safety from exposure to 
toxics, net reduced energy use, availability of affordable IT to 
everyone, and creating jobs and capital. We should work backwards from 
these endpoints to find the policies, processes, and product designs 
which deliver the desired outcomes. In addition, we also need to work 
much harder on using IT as a tool to achieve environmental goals. Here 
are some suggested starting points:

        <bullet>  Investigate the life cycle environmental pros and 
        cons of landfilling and recycling end-of-life electronics in 
        order to benchmark best practices. This evaluation should allow 
        reconsideration of whether the current TCLP based standard 
        regulating the landfilling e-waste is appropriate.

        <bullet>  Undertake research to develop new materials as 
        appropriate, such as bromine-free flame retardants. New 
        materials need to be thoroughly evaluated before they are 
        adopted.

        <bullet>  Encourage reuse of electronics through improved 
        informatics design, such as bundling of backup/erase 
        applications with new computers. These improvements make it 
        easier for users to resell their computer securely and with 
        software intact.

        <bullet>  Work to ensure that used electronics we export to 
        developing countries is in good working order. Strategies to 
        achieve this include use of RFID blackboxes to enable remote 
        checking of recent functionality and certification schemes for 
        used equipment.

        <bullet>  Work with developing countries to improve 
        occupational, health and safety conditions in informal 
        recycling industries.

    I believe the U.S. Federal Government should take a leadership role 
in working towards a sustainable management of electronics. The 
electronics industry is not a domestic affair, and policies outside the 
U.S. federal context affect the global system. If the Federal 
Government does not take action, other nations will, setting the 
playing field without U.S. input. I hope we can proceed through a 
combination of thinking creatively, assessing carefully, and acting 
decisively to create sound policies and practices for end-of-life 
management of electronics. I and my colleagues at Arizona State 
University would like to thank you for your attention.

                     Biography for Eric D. Williams
    Eric Williams is Assistant Professor at Arizona State University 
with a joint appointment between the Department of Civil and 
Environmental Engineering and the new School of Sustainability. Eric 
has been active in researching the environmental assessment and 
management of information technology and electronics for nearly 10 
years. Eric has a global perspective on the industry, having spent a 
good part of his career at United Nations University headquartered in 
Tokyo. His research articles in Environmental Science & Technology, 
``The 1.7 kg Microchip'' in 2002 and ``Energy Intensity of Computer 
Manufacturing'' in 2004 have contributed to understanding of the supply 
chain environmental impacts of electronics. He is co-editor and 
contributor to the 2003 book Computers and the Environment: 
Understanding and Managing Their Impacts, the first integrated 
treatment of the issue. Eric's research results have been widely 
covered by the scientific and popular media, with reports in Science, 
Nature, New Scientist, PC Magazine, Foreign Policy, Scientific 
American, Financial Times, BBC, and other media outlets. Eric is co-
chair of this year's IEEE International Symposium on Electronics and 
the Environment in San Francisco, the Nation's premier annual event 
addressing the environmental management of electronics. He is also 
currently member of a National Academy of Science committee tasked with 
the question of linking appliance energy efficiency standards with life 
cycle considerations.

Education

1993--Ph.D. in Physics, C.N. Yang Institute for Theoretical Physics, 
        Dept. of Physics, State University of New York at Stony Brook, 
        Stony Brook, New York

1988--B.A. in Physics, Macalester College, St. Paul, Minnesota

Professional Experience

8.2006-present--Assistant Professor, Department of Civil and 
        Environmental Engineering & Global Institute of Sustainability, 
        Arizona State University, Tempe

9.2005-7.2006--Visiting Assistant Professor, Department of Civil and 
        Environmental Engineering, Carnegie Mellon University, 
        Pittsburgh

9.2001-7.2006--Project Coordinator, United Nations University/Centre, 
        Tokyo

9.2000-8.2001--Associate Fellow, United Nations University/Institute of 
        Advanced Studies (UNU/IAS), Tokyo

9.1997-8.2000--Research Associate, UNU/IAS, Tokyo

9.1995-8.1997--JSPS Postdoctoral Fellow, Institute for Solid State 
        Physics, University of Tokyo, Japan

9.1994-8.1995--Temporary Assistant Professor, Department of 
        Mathematics, University of Minnesota, Minneapolis

Selected Publications

1.  E. Williams, R. Kahhat, B. Allenby, E. Kavazanjian, J. Kim and M. 
Xu, ``Environmental, social and economic implications of global reuse 
and recycling of personal computers,'' in press, Environmental Science 
& Technology (2008).

2.  R. Kahhat, J. Kim, M. Xu, B. Allenby, and E. Williams, ``E-Market 
for E-waste: an alternative management system for the U.S.,'' in press, 
Resources, Conservation and Recycling (2008).

3.  A. Terazono, S. Murakami, N. Abe, B. Inanc, Y. Moriguchi, S. Sakai, 
M. Kojima, A. Yoshida, J. Li, J. Yang, M.H. Wong, A. Jain, I. Kim, G.L. 
Peralta, C.C. Lin, T. Mungcharoen, and E. Williams, ``Current status 
and research on E-waste issues in Asia,'' J. Material Cycles and Waste 
Management, 1-12 (2006).

4.  H.S. Matthews and E. Williams, ``Telework adoption and energy use 
in building and transport sectors in the U.S. and Japan,'' Journal of 
Infrastructure Systems 11(1), 21-30 (2005).

5.  E. Williams, ``Energy intensity of computer manufacturing: hybrid 
analysis combining process and economic input-output methods,'' 
Environmental Science & Technology 38(22), 6166-6174 (2004).

6.  E. Williams, ``The environmental impacts of semiconductor 
fabrication,'' Thin Solid Films 461(1), 2-6 (2004).

7.  R. Kuehr and E. Williams (eds.), Computers and the Environment: 
Understanding and Managing their Impacts, Kluwer Academic Publications: 
Dordrecht (2003).

8.  E. Williams and T. Tagami, ``Energy use in sales and distribution 
via B2C E-commerce and conventional retail: a case study of the 
Japanese book sector,'' Journal of Industrial Ecology 6(2), 99-114 
(2003).

9.  E. Williams, R. Ayres, and M. Heller, ``The 1.7 kg microchip: 
energy and chemical use in the production of semiconductors,'' 
Environmental Science & Technology 36 (24), 5504-5510, Dec. 15 (2002) 
(cover story).

Selected Research Projects and Awards

Industrial Ecology Fellow, ``Substitution and Complementarity of ICT 
        products and services,'' AT&T Foundation, Jan. 2008-Dec. 2008.

``Assessing and managing the sustainability of global reverse supply 
        chains: the case of personal computers,'' National Science 
        Foundation, Environmental Sustainability program, Sep. 2007-
        Aug. 2010.

Industrial Ecology Fellow, ``Information Technology-based monitoring 
        and control systems to mitigate energy use in households,'' 
        AT&T Foundation, Jan. 2006-Dec. 2006.

``Energy consumption of IT infrastructure in Asia--Computer Use 
        Patterns,'' New Energy and Industrial Technology Development 
        Organization (NEDO)--Japan, April 2004-March 2005.

Industrial Ecology Fellow: ``Effects of computer usage patterns on the 
        life cycle energy consumption of IT infrastructure,'' AT&T 
        Foundation, Jan. 2004-Dec. 2004.

``The Digital Economy and Energy,'' Japan Foundation--Center for Global 
        Partnership, June 2001-May 2003.

    Chairman Gordon. Thank you, Dr. Williams.
    Mr. Castro, you are recognized.

 STATEMENT OF MR. GERARDO N. CASTRO, DIRECTOR OF ENVIRONMENTAL 
    SERVICES AND CONTRACTS, GOODWILL INDUSTRIES OF SOUTHERN 
                           CALIFORNIA

    Mr. Castro. Mr. Chairman, Members of the Committee, my name 
is Gerardo Castro and I am the Director of Environmental 
Services and Contracts for Goodwill Industries of Southern 
California. I am pleased to testify before the Committee today 
on how we can best manage electronic waste.
    Goodwill Industries International is a network of 184 local 
autonomous Goodwill agencies in the United States and 16 
countries. We fund our mission through revenues collected from 
donated goods as well as through industrial and workforce 
development contracts with government and the private sector. 
In 2007, my agency served more than 31,000 people with 
disabilities or vocational disadvantages through education, job 
training and placement programs. We operate 54 retail stores, 
40 attended donation centers, three campuses, and 21 workforce 
training centers.
    During the past decade, we have seen a growing number of 
computers and other electronic devices dropped off at our 
stores and donation centers. Nearly all of our agencies 
received discarded electronics. In 2004, local Goodwill 
agencies handled nearly 23 million pounds of electronics. With 
the transition to digital televisions, California expects 15 
million television sets to be discarded next year. The problem 
of e-waste is a growing one but it also represents a great 
opportunity.
    My views today represent those of my agency, Goodwill 
Industries of Southern California. In 2003, California became 
the first state in the Nation to enact legislation which 
implemented strict standards for the disposal of e-waste, the 
California Electronic Waste Recycling Act, or S.B. 20 or S.B. 
50. The program was later implemented in 2005. In 2007, my 
agency was able to divert a total of 4.6 million pounds of 
electronic waste out of county landfills. These products ranged 
from computers and monitors to printers and other peripherals.
    California is the only state which uses the advanced 
recovery fee model to pay for the costs associated with 
collecting, de-manufacturing and recycling covered electronic 
products. Retailers are required to collect a fee of $6 to $10, 
depending on the size of the screen, on any cathode ray tube, 
liquid crystal display, or plasma device sold in California. 
These fees go into a State recycling fund to reimburse 
authorized collectors and authorized recyclers. Collectors 
receive 20 cents per pound for picking up unusable CRTs and 
delivering them to recyclers, who get 28 cents for canceling 
them.
    Along with nine other California Goodwills, we are a State-
authorized e-waste collector. As an authorized e-waste 
collector, we process over 10,000 CRT units per month. We 
follow specific procedures in recycling e-waste. First, we 
recycle working computers by wiping the hard drives to 
Department of Defense standards, install new hard drives and 
sell the refurbished units in our stores. These sales generate 
approximately 10 percent of our total e-recycling revenue. 
Another 70 percent comes from the dismantling and sale of 
plastic and metal circuit boards and other components to 
commodity dealers. The final 20 percent is obtained by taking 
unusable CRTs to State-authorized recyclers.
    Through our national network of 2,100 stores and 4,100 
attended donation centers in virtually every community in 
America, Goodwill already has the capacity and infrastructure 
to provide for nationwide collecting of e-waste products.
    The Federal Government can encourage private-sector 
investment and not-for-profit involvement in the used 
electronic recycling reuse market through tax credits for 
consumers and manufacturers who partner with social agencies, 
recycling grants and other initiatives that help stakeholders 
solve this growing challenge.
    Goodwill Industries looks forward to working with the House 
Science Committee to support a national solution to handle e-
waste.
    Thank you.
    [The prepared statement of Mr. Castro follows:]
                Prepared Statement of Gerardo N. Castro
    Mr. Chairman and Members of the Committee, my name is Gerardo 
Castro and I am the Director of Environmental Services and Contracts 
for Goodwill Industries of Southern California. I am pleased to testify 
before the Committee today on how we can best manage electronic waste.
    We have 184 local, autonomous Goodwill agencies in the U.S. and 16 
countries, and we fund our mission through revenues collected from 
donated goods, government contracts, and workforce development funding. 
Goodwill Industries of Southern California serves more than 31,000 
people per year with disabilities or vocational disadvantages through 
education, job training, and placement programs. We also operate 54 
retail stores, 40 attended donation centers, three campuses and 21 
workforce/training centers in San Bernardino, Riverside, and Los 
Angeles counties.
    In a survey conducted in 2005, we found that nearly all of our 
members receive electronics through their donation streams and our 
members handled nearly 23 million pounds of electronics in 2004.
    During the past decade, however, we have seen a growing number of 
computers and other electronic devices donated to Goodwill agencies, 
and many of these items are just dropped off at our stores or donation 
centers. The problem is a growing one for us, but it also presents 
opportunities. With the transition to digital television, we expect to 
see an influx of television sets as well.
    In a poll conducted by Goodwill Industries International, Inc., we 
found that 91 percent of our local agencies accept donated televisions, 
and local Goodwill agencies receive on average 118 televisions per 
month or 1,400 per year. The total for all Goodwill agencies is more 
than 163,000 per year. Fifty percent of our agencies re-sell the 
televisions in stores and 30 percent recycle the sets.
    My views today represent those of my agency--Goodwill Industries of 
Southern California. Because of the environmental concerns specific to 
computers and other electronic devices, many of our local agencies are 
exploring various business-to-business solutions in the effective 
disposal of electronic waste and ways to recycle the waste. Other 
agencies are exploring methods of handling e-waste and still others are 
working to understand and comply with new State laws on recycling e-
waste.
    My particular agency received a total of 4.6 million pounds of e-
waste products ranging from computers, monitors, printers, and other 
peripherals. A substantial number of these items are unusable and the 
cost of safely and responsibly recycling or disposing of these products 
can directly impact the job training and career services offered by our 
agencies.
    More and more states have passed landfill bans, and for those 
Goodwill agencies that do dispose of electronic waste in landfills the 
fees to do so can be exorbitant. In addition, some agencies are working 
within various State laws on the effective disposal and recycling of e-
waste.
    In 2003, California became the first state to enact a law that 
implements stricter standards on e-waste disposal; SB20/SB50, the 
California Electronic Waste Recycling Act, provides reimbursement to 
authorized collectors and recyclers from a State e-waste fund. Today, 
10 states have passed laws that create statewide e-waste recycling 
programs. Others have passed laws that prohibit e-waste from being 
disposed of in landfills or incinerated. In 2008, 18 states are 
considering e-waste legislation.
    California is the only state that uses the Advanced Recovery Fee 
(ARF) model to pay for the costs associated with collecting, de-
manufacturing, and recycling of covered electronic products, which is 
similar to the recycling payment system for beverage containers or used 
tires. Retailers are required to collect a $6-$10 fee on cathode ray 
tube (CRT), liquid crystal display (LCD), and plasma devices. The fees 
collected go into a fund to manage the recycling program.
    Goodwill Industries of Southern California, along with nine other 
Goodwills located in the state, is a State-authorized e-waste 
collector. There are 600 authorized collectors in the state. The fund 
receives revenues from the point of sale fee on items with a screen 
purchased in California. The State of California has just completed its 
third year of the program. The program has been very successful when 
measured by the pounds of CRTs diverted from landfills. The program has 
built in review and adjustment points to maintain a self-funding level. 
The program is revenue neutral to the State of California as it 
involves zero tax dollars. It is authorized to adjust at least every 
two years on both the ARF and the fees paid to authorized collectors 
and authorized recyclers. We are expecting the state to increase the 
ARFs and reduce the fees to collectors by about three cents a pound.
    As an authorized e-waste recycler, we process over 10,000 CRT units 
per month and pick up large corporate donations; in addition, 
individual donations are accepted at our donation centers. We accept 
computers, monitors, TV sets, digital cameras, printers, modems, and 
other electronic equipment. We collect CRTs and ship non-working ones 
directly to a cancellation facility that will break them down into 
their basic commodity. All other obsolete or non-working electronics 
are de-manufactured by our workforce who are people with disabilities. 
We then sell the plastic, metal, circuit boards, and other components 
for their salvage value.
    We follow a system and certain procedures in recycling e-waste. 
First, we recycle old computers by wiping the hard drives to the 
Department of Defense standard. We then refurbish and resell about 10 
percent, and then dismantle and sell the plastic and metal parts for 
salvage; this amounts to about 70 percent. About 20 percent is sent to 
other authorized recyclers.
    Other local Goodwill agencies are developing innovative business 
solutions to address the growing surplus of computer donations. I want 
to note that our local Goodwill agencies have the capacity and the 
infrastructure to provide nationwide collection, since we already have 
locations throughout the country in both urban and rural areas. Some 
agencies are refurbishing and de-manufacturing the equipment; reselling 
systems and components; expanding client training and career services; 
and avoiding high disposal costs.
    Local Goodwill agencies handle e-waste in different ways depending 
on their size, community, and external partners. For example, some are 
involved with producer take back programs, while our agency, because we 
have SB 20/SB 50, is not. An internal Goodwill Industries 
International, Inc. taskforce identified four innovative e-recycling 
models that have so far been successful in meeting Goodwill Industries' 
revenue goals, concern for the environment, and most importantly, our 
charitable mission.
    Specifically, the various models are as follows:

        (1)  Retail--a model focusing on the collecting, de-
        manufacturing, refurbishing and reselling computer systems and 
        components in a dedicated retail store.

        (2)  Client--a model integrating client technology training and 
        workforce development programs into computer collection, 
        recycling, and reuse.

        (3)  Corporate--a model integrating corporate services into 
        computer collection, recycling, and reuse.

        (4)  Collaborative--a model utilizing partnerships and 
        collaboration to address computer collection and recycling.

    Local Goodwill agencies are in a unique position to support 
producer take back programs, because we already have a strong existing 
infrastructure, and if any e-waste legislation is introduced in 
Congress, we support pre-emption language that would allow states, such 
as California, with the ARF model, and those with producer 
responsibility take back programs to continue running them. We have 
over 2,100 retail stores and 4,100 attended donation centers. Goodwill 
Industries is a self-sustaining enterprise and recycling helps us to be 
good stewards of the environment and also to help employ people with 
disabilities and disadvantages.
    In the future, we do believe advanced product designs such as those 
already undertaken in Europe would help with the challenge of e-waste. 
We support incentives to manufacturers for the design of such products. 
Product design changes could facilitate the reuse, disassembly, and 
recycling of products. Standardized chargers for cell phones are an 
example of design changes that would add minimal costs to the product 
while achieving substantial impact in the reuse area. The Federal 
Government can play a vital role in assisting the development and 
sustainability of a recycling/reuse infrastructure while creating green 
collar jobs and stimulating research and development in a growth 
industry.
    The Federal Government, by utilizing incentives, could aid and 
encourage necessary private sector investment in the used electronic 
recycling/reuse markets. This can be done through tax credits for 
manufacturers who partner with social agencies, recycling grants, and 
other initiatives that could spur innovative solutions and help 
stakeholders handle this problem. A partnership consisting of 
government incentives, private industry and social agencies can protect 
the environment, create jobs and spur innovation in the environmental 
field.
    Additionally, increased federal support for pilot projects and 
other sustainable initiatives would be helpful in promoting the 
development of a recycling/reuse infrastructure. The Federal Government 
also can play a key role in educating consumers. We are currently 
working with a broad-based coalition to help inform consumers about the 
transition to digital television and the availability of coupons for a 
digital converter.
    Goodwill Industries looks forward to working with the Committee on 
exploring the best ways to handle electronic waste. Thank you.

                    Biography for Gerardo N. Castro
    Gerardo is Goodwill's Director of Facilities, Security, 
Environmental Service and Mailroom. He is a bilingual professional with 
more than 20 years of experience in construction and facilities 
management.
    Gerardo represents Goodwill Southern California on the Goodwill 
Industries International E-waste Taskforce and has contributed in 
formulating policies on a State and national level. He also sits on the 
Board of Directors for the Secure Document Alliance, a trade 
organization tasked with obtaining national shredding contracts for 
nonprofit shredders such as Goodwill.
    After a long career in poodle juggling and a stint with a 
professional knife-throwing company of gypsies, Gerardo decided to 
settle down and get a real job at Goodwill. Married with four children, 
he finds that life at home tends to be less than tranquil.

    Chairman Gordon. Thank you, Mr. Castro. You and Goodwill 
should be congratulated on a very forward-thinking program.
    Now Ms. Renee St. Denis from Hewlett Packard, you are 
recognized.

STATEMENT OF MS. RENEE ST. DENIS, DIRECTOR OF AMERICA'S PRODUCT 
        TAKE-BACK AND RECYCLING, HEWLETT-PACKARD COMPANY

    Ms. St. Denis. Good morning, Chairman Gordon, Ranking 
Member Hall and Members of the Committee, my name is Renee St. 
Denis and I am the Director of Product Take-Back for the 
Hewlett-Packard Company in America.
    HP has a longstanding history of being a leader in 
electronics recycling. We first began recycling electronics in 
1987 and in 1994 we opened a world-class electronics recycling 
facility. In our 21 years of recycling electronics, we have 
recycled more than one billion pounds of electronics from our 
consumer, small and medium business, and enterprise customers--
quite an achievement.
    We also operate a state-of-the-art printer supplies 
recycling facility outside Nashville, Tennessee, in Chairman 
Gordon's district. All of the material that is recycled in all 
of our and our partners' U.S. operations are managed in an 
environmentally sound manner. No waste is exported for disposal 
overseas and no electronic materials are sent to landfills.
    In addition to implementing programs on the ground and 
testifying before Congress, we have played the leading role in 
the policy development and debate about the end-of-life of 
electronics in the United States and indeed around the world. 
Based on our considerable experience, we believe that 
appropriate legislation can create efficient, flexible 
recycling systems that optimize the environmental impact, 
research utilization and economic benefits of electronics 
recycling. We look forward to continuing to work with the 
Congress on such legislation.
    We do see an increasing use of technology in the processing 
of electronic materials for recycling. Materials designed for 
recycling are first sent to a process where any materials 
requiring special handling such as batteries or CRT glass are 
removed and segregated for processing and treatment. At that 
point large pieces of metals or plastics may also be isolated 
and segregated for recycling. The residual materials are sent 
through a series of size reduction and sorting steps. These 
steps include mechanical shredding and the use of high-tech 
material separation processes such as eddy currents, air tables 
or magnetic separation.
    I am pleased to report that HP's experience in designing 
and operating recycling facilities around the world have led us 
to incorporate much of our learning into new product design. 
For example, we have reduced the number and type of screws or 
fasteners used in new products, replaced paints and coatings on 
plastic parts with molded-in colors, and have successfully 
created a closed-loop recycling system for the plastics in our 
ink jet products.
    However, as an industry, we still face challenges in a 
number of areas and we have provided suggestions for areas of 
research in our written testimony to help create a more 
efficient recycling infrastructure. I would like to highlight a 
few of those today. In one example, there are materials which 
have been used in products in the past which no longer have 
economic value. These include CRT glass and plastics with 
brominated flame retardants. Congress should consider support 
for research into appropriate uses of these materials outside 
the technology industry.
    Another challenge is the inconsistent and somewhat 
inappropriate regulatory framework in place to manage used 
electronics. These products may be classified as hazardous 
waste due to the testing protocols used to assess the risk of 
managing them. The tests used to assess these risks were 
developed for assessing industrial waste, not products that we 
routinely use every day in our homes and offices. The tests can 
give misleading and contradictory results. The resulting 
regulatory classification that is put in place creates 
burdensome and costly regulatory requirements and impedes the 
development of a cost-effective recycling infrastructure while 
not creating any additional environmental protection. Congress 
could help to foster the development of an electronics 
recycling infrastructure by conducting research into the actual 
environmental and human health risks associated with the 
storage, transportation, selection and recycling of used 
electronics and into the development of new, appropriate 
testing protocols.
    Another slightly different area of research that the 
Congress may want to consider is the overall climate impact of 
recycling discarded electronics. There is currently little data 
on the net carbon impacts of collecting, transporting and 
processing used electronics. Recycling can play a positive role 
in addressing climate change by conserving resources and 
displacing the energy associated with acquiring raw materials 
through mining or other processes. However, the process of 
recycling used electronics will also generate emissions of 
greenhouse gases and contribute to climate change. In a future 
carbon-constrained world, all these impacts must be better 
understood.
    Thank you again for the opportunity to share our views. I 
would be happy to answer any questions you might have.
    [The prepared statement of Ms. St. Denis follows:]
                 Prepared Statement of Renee St. Denis
    On behalf of Hewlett-Packard Company (HP), I am pleased to provide 
this testimony on the recycling of used electronics. My name is Renee 
St. Denis, and I am Director, Americas Product Take-Back, based in 
Roseville, California. HP is a technology solutions provider to 
consumers, businesses and institutions globally. The company's 
offerings span IT infrastructure, global services, business and home 
computing, and imaging and printing. More information about HP is 
available at www.hp.com.
    HP applauds Chairman Gordon and Ranking Member Hall for convening 
this hearing to discuss electronic waste and appreciates this 
opportunity for HP to testify on this important issue. Today's hearing 
is a valuable first step in informing Members of the House and the 
public on the emerging challenge of managing and recycling used 
electronics in the United States. HP supports increased recycling to 
conserve natural resources and protect our environment through a 
harmonized national approach. HP calls on Congress to support a 
national solution to the challenge of recycling used electronics, the 
adoption of recycling incentives and the removal of regulatory barriers 
to cost-effective recycling, and market-based solutions to finance 
government recycling programs. We further call on Congress to support 
research in this area to help address challenges that are hindering the 
development of a cost-effective recycling infrastructure. We offer our 
suggestions for research priorities later in this testimony.
    As a major manufacturer of a broad range of technology products, as 
well as a leading recycler of these products, HP has a strong interest 
in the development of policies relating to electronics recycling. HP 
has nearly twenty years of first-hand experience in product take-back 
and recycling. Since 1987, HP has successfully collected and recycled 
more than one billion pounds of used or unwanted computer-related 
equipment globally. With our vast knowledge and experience, HP's goal 
is to recycle an additional one billion pounds of equipment (for a 
total of two billion pounds worldwide) by the end of 2010. HP has 
established a recycling service throughout the U.S. (as well as other 
countries around the world) that provides consumer and commercial 
customers with a convenient opportunity to recycle their old products 
in an environmentally sound manner. For more information on HP's 
environment and broader global citizenship activities, see: http://
www.hp.com/hpinfo/globalcitizenship/.
    HP currently partners with operators of seven large, state-of-the-
art recycling facilities in the U.S. and Canada, as well as operating 
our own technologically-advanced facility used to recycled print 
supplies. Our recycling facility for printer supplies is located 
outside of Nashville, Tennessee, in the district of Chairman Gordon. 
This facility consists of a 40,000 square foot building, including 
separation and recycling technology. The facility employs approximately 
50 full time employees and processes all of the material returned to HP 
through our different print supplies programs in the U.S., Canada and 
Latin America.
    All materials collected in the U.S. and recycled by HP are managed 
in the U.S. and Canada in an environmentally sound manner; under HP's 
program, no waste materials are shipped overseas and no electronic 
material is sent to a landfill. In the past year, HP recycled almost 40 
million pounds of electronic waste in the U.S. in 2007 and reused or 
donated an additional 30 million pounds. Including remarketed 
equipment, we achieved a total reuse and recycling rate in 2007 of 15 
percent of relevant hardware sales. While this metric attempts to 
account for the time difference between when HP products are sold and 
returned, we recognize the difficulty of matching returned product to 
the appropriate sales period, which may affect the accuracy of the 
calculation.
    HP encourages Congress to continue to support technological 
innovation such as HP has employed to reduce the impact of electronic 
products on the environment and to encourage the reuse and recycling of 
electronic products. Creating opportunities and incentives to support 
the innovation of American companies which efficiently achieve superior 
recycling results will help to best protect our nation's natural 
resources for future generations.
    We wish to emphasize the following points in our testimony today:

        <bullet>  HP's history and leadership in electronics recycling, 
        including the effect of these recycling activities on design 
        and manufacture of HP products as a means of reducing the 
        overall environmental impact of our products.

        <bullet>  The need for further research into creating 
        innovative recycling and disposal methods for the leaded glass 
        from CRT tubes and the older plastics from electronics in order 
        to find innovative, effective reuse options for these materials 
        of concern.

        <bullet>  Increasing the understanding of regulators, 
        environmental groups, and the general public on the subject of 
        the environmental issues surrounding the management of 
        discarded electronics, and the appropriate level and type of 
        regulation surrounding recycling operations and the shipment 
        and handling of whole products. Additional research on these 
        issues is warranted ensure that the emerging electronics 
        recycling industry can find market- and economic-based 
        solutions for recycling and reuse, while also providing for 
        protection of the environment.

        <bullet>  The necessity of research into the net carbon or 
        climate impact of electronics recycling is crucial to designing 
        appropriate collection, reuse, and recycling systems, 
        particularly given the likelihood of future legislation that 
        limits emissions of greenhouse gases or places greater costs on 
        such emissions.

I.  HP'S RECORD OF ACHIEVEMENT IN RECYCLING ELECTRONICS

    HP has been recycling used electronics for over 21 years. HP has 
made great strides in increasing the volume of our products recovered 
for reuse and recycling. However, the number of PCs, servers, print 
cartridges and other electronics reaching the end of their usable life 
is growing rapidly. In order to meet this need, HP offers a variety of 
recycling services to customers in 52 countries and territories 
worldwide.
    Managing this increasing volume of discarded equipment conserves 
natural resources by reducing the need for raw materials and energy to 
manufacture new products. As such, our commitment to responsible 
product reuse and recycling is integral to meeting our energy 
efficiency objectives.
    Product reuse and recycling offers other benefits as well. 
Remarketing used equipment is profitable for HP, and businesses and 
consumers are increasingly seeking out manufacturers that offer 
responsible reuse and recycling options for used equipment. Plus, many 
governments have passed legislation, such as the European Union's Waste 
Electrical and Electronic Equipment (WEEE) Directive, requiring that 
discarded electronic equipment be recycled. Our proactive approach to 
product reuse and recycling helps us meet legal requirements, maintain 
access to markets and win business.
    HP began remarketing used equipment in 1981 and recycling in 1987. 
This year, we exceeded our goal to recycle one billion pounds (450,000 
metric tonnes) of electronic products and supplies by the end of 2007. 
We have set an aggressive new goal to recover an additional one billion 
pounds for reuse and recycling by the end of 2010.
    Beyond that major milestone, our world wide efforts in 2007 yielded 
significant progress. Specifically, we:

        <bullet>  Increased our annual recycling volume by more than 50 
        percent over 2006 to 113,000 tonnes (250 million pounds). For 
        comparison purposes, the Environmental Protection Agency (EPA) 
        has reported that our nearest competitor recycled 78 million 
        pounds. See ``Plug Into e-Cycling with the EPA: 2007 
        Activities'' (EPA 530-F-08-002).

        <bullet>  Collected approximately three million hardware units 
        weighing 28,500 tonnes (63 million pounds) for reuse and 
        remarketing, an increase of more than 31 percent compared to 
        2006.

        <bullet>  Increased the volume recovered for reuse and 
        recycling as a proportion of relevant sales from 10 percent in 
        2006 to 15 percent.

        <bullet>  Introduced recycling programs in several countries, 
        including Bulgaria, Indonesia, Malta, Philippines, Romania and 
        Turkey.

        <bullet>  Introduced several products that use recycled 
        materials and include features to facilitate recyclability.

    We offer a range of take-back services for both companies and 
consumers. Responsible take-back is core to our leasing and reuse 
services, and saves customers time and expense managing old equipment. 
Free return and recycling is available for print cartridges in 47 
countries or territories. We make arrangements with commercial 
customers depending on the equipment involved and the specific 
circumstances. Consumer recycling services vary from country to 
country, depending partly on local regulations.
    In all cases, it is important to manage the disposal of returned 
equipment to protect data security. We have safeguards in place for all 
products we take back, whether by trade-in, via donation or through our 
recycling services.
    The equipment returned to HP is managed through a network of 
partners and service providers who perform the recycling of the 
equipment. HP formerly partnered with a large electronics recycling 
company to operate two recycling centers in the U.S.; our partner now 
operates these facilities with the assistance of HP. HP invested in the 
development of those recycling centers in order to directly participate 
and lead the development of the types of technology and processes 
necessary to recycle used electronics to the environmental and data 
security standards we require. Over time, an infrastructure has started 
to emerge which has created an ability for HP to reduce our focus on 
the actual recycling operation and to renew our focus on the design of 
products which are easier to recycle and can include recyclable 
commodities in their manufacture as well as the development of 
recycling services for our customers.
    Any reusable equipment is segregated. From there, any customer data 
is destroyed and the equipment is then reused either in whole or in 
part. Equipment without a reuse channel is sent for removal of any 
hazardous components (typically CRT glass, batteries or other 
elements). After removal of any hazardous components the equipment is 
either manually or mechanically separated into a variety of basic 
commodities: various types of precious and base metals, plastics and 
other constituent materials. These materials are processed in the 
separation process to create valuable commodity streams which are then 
sold for reuse into a variety of industrial processes. These include 
the manufacture of new parts and products for a number of industries, 
including, in some cases, the electronics industry.

II.  RECYCLING AND ITS IMPACT ON HP's PRODUCT DESIGN

    HP established our Design for Environment (DfE) program in 1992, 
and it remains central to our business strategy today. Our approach to 
DfE encompasses the entire product life cycle. In addition to 
considering important product attributes such as energy efficiency and 
materials innovation, design for recyclability (DFR) is one of our 
primary design for the environment priorities. We believe that our 
experience and expertise in recycling provides an important feedback 
loop to designers to design future products so that they can be more 
readily recycled.
    HP's DFR efforts include using common fasteners and snap-in 
features and avoiding the use of screws, glues, adhesives and welds 
where feasible. This makes it easier to dismantle products and to 
separate and identify different metals and plastics. The materials we 
choose can also enhance recyclability. For example, in 2007 we 
introduced several notebook PC models with LED technology, eliminating 
mercury fluorescent tubes and making the display screens easier to 
manage at end-of-life. These efforts have significantly improved the 
recyclability of HP products, and we are pleased to report the 
following:

        <bullet>  HP notebook PC products are now more than 90 percent 
        recyclable or recoverable by weight (as per the definition used 
        in the European Union WEEE regulations).

        <bullet>  HP printing and imaging products are typically 70 
        percent to 85 percent recyclable or recoverable by weight (as 
        per the definition used in the European Union WEEE 
        regulations).

    We also made great progress in incorporating recycling materials 
into our products. For example, HP has engineered print cartridges that 
use recycled plastic without compromising quality or reliability. We 
design HP print cartridges to meet the needs of our recycling system 
and incorporate recycled material. Since we take back only our own 
cartridges, we can be certain about the material content, making it 
easier to process exhausted cartridges and reuse the material to 
manufacture new ones. More than 200 million cartridges have been 
manufactured using the process through 2007. HP used more than five 
million pounds (2,300 tonnes) of recycled plastic in its original HP 
inkjet cartridges in 2007, and the company has committed to using twice 
as much in 2008. HP also uses post-consumer recycled plastic recovered 
through our return and recycling program in the manufacture of original 
HP LaserJet print cartridges. This recycled plastic can represent as 
much as 25 percent, by weight, of the newly molded LaserJet cartridge 
housing. HP has also incorporated recycled content into some hardware 
products. For example, in 2007, we introduced a speaker module made 
from 100 percent post-consumer recycled plastics in all HP Compaq 6500 
and 6700 series Notebook PCs.
    We strive to use recycled plastics in our products, but their 
potential is limited for several reasons:

        <bullet>  Most recycled plastics contain substances such as 
        BFRs, which we have eliminated from the external cases of our 
        current products. (See Part III below).

        <bullet>  Mixed plastics do not have the mechanical properties 
        necessary for use in new IT products.

        <bullet>  It is difficult to separate dissimilar plastics 
        during recycling to produce a homogeneous material.

    As we discuss in further detail below, Congress should consider 
supporting research on ways to promote the use of recycled materials in 
future products and help overcome these challenges.
    As one outside observer states in HP's Global Citizenship Report 
(see http://www.hp.com/hpinfo/globalcitizenship/gcreport/productreuse/
perspectives.html) :

         HP has made significant strides in design for recycling. Its 
        engineering and design teams have taken into account the 
        concerns of refurbishers and recyclers by creating products 
        that can easily be repaired, refurbished, disassembled or 
        recycled. Such enhancement in product design has been augmented 
        by the company's assistance to recyclers, making available to 
        them guidelines that greatly simplify the recycling process.

         Among the latest of the company's techniques in the area of 
        design for recycling is the concept of modular design, which 
        combined with the use of the proper ``environmentally-
        friendly'' materials help HP to increasingly establish itself 
        as a leading ``green'' IT supplier. HP further pushed to reduce 
        its products' environmental impact by incorporating more easily 
        recyclable plastics, reducing the number of different plastic 
        types in a single product and replacing coating and paint with 
        molded-in colors. Furthermore, reuse, as a way to extend the 
        life of a system, has been facilitated by HP's modular design 
        approach, enabling simple component swapping during the 
        refurbishing process.

    These efforts have resulted in HP products qualifying for a large 
number of global ecolabels, including the EPEAT (Electronic Product 
Environmental Assessment Tool) designation in the U.S. HP is working 
hard to improve our record of success in this area, including 
establishing the following goals:

        <bullet>  Double the use of recycled plastic in print 
        cartridges in 2008 compared to 2007, to 4,500 tonnes (10 
        million pounds)

        <bullet>  Eliminate the remaining uses of BFRs and PVC from new 
        computing products launched in 2009 as technologically feasible 
        alternatives become readily available that will not compromise 
        product performance or quality and will not adversely impact 
        health or the environment

III.  INNOVATION NEEDED TO INCREASE THE RECYCLABILITY OF ELECTRONIC 
                    PRODUCTS

    There are two materials which present particular challenges to the 
current recycling processes used within the electronics industry and 
which will present even greater challenges as time progresses. These 
materials are (a) the leaded glass found in CRT tubes and (b) plastics 
which may contain flame retardant additives which have been banned from 
further use in many countries in the world.

A. CRT glass
    Cathode Ray Tubes (CRTs) are the glass picture tubes found in 
previous generations of computer monitors, televisions, and other 
displays. CRTs contain leaded glass for two reasons:

        <bullet>  It improves the optical quality of the glass. Adding 
        a small amount of lead to glass is very common when creating 
        glass for lenses, and you may have also heard of leaded 
        crystal. Optical quality is especially important at the front 
        of the CRT.

        <bullet>  It acts as a shield against radiation generated by 
        the electron gun and electron beam.

    Users of computer equipment are in the process of transitioning 
from CRT displays to flat panel technologies, but large volumes of 
traditional CRT displays remain in use or in storage. This presents a 
recycling and logistical challenge. Among other things, one important 
challenge is the limited current opportunities to reuse leaded CRT 
glass. Congress should consider support for research in new 
applications for leaded glass in building, the medical field, and other 
applications.

B. Plastics containing banned/restricted flame retardants
    Both the internal circuit boards and the external plastic housings 
of electronic products contain chemical flame retardants for fire 
safety purposes. Many of the chemical flame retardants used in the 
past, such as brominated flame retardants (BFRs), have come under 
increasing scrutiny by environmental and health officials in many 
countries, and several U.S. states and many countries have banned or 
restricted the use of some of these chemicals. These chemicals cannot 
be removed from the plastics, so as a result the presence of these 
chemicals in plastic parts presents a significant recycling and reuse 
challenge. To address this concern, Congress should consider support 
for research on reuse opportunities for plastics containing banned or 
restricted chemicals.

IV.  RESEARCH NEEDED ON THE PROPER REGULATORY APPROACH FOR THE 
                    CLASSIFICATION OF USED ELECTRONICS

    The Federal Government can play an important role in promoting 
recycling by establishing an appropriate regulatory framework for 
managing used electronics, including the removal of regulatory 
impediments to cost-effective recycling. Under some interpretations of 
current federal and State regulations, used electronics may be 
classified as ``hazardous waste,'' even though they are routinely used 
in our homes and offices and pose no risk to human health or the 
environment when properly stored, transported, and recycled. When these 
used products are classified as hazardous waste, they become subject to 
burdensome and costly regulatory requirements associated with their 
collection, storage, transportation, and processing. When classified as 
``hazardous,'' these regulations can impede the development of a cost-
effective recycling infrastructure without adding to greater 
environmental protection. Congress and the EPA should work to reform 
these regulatory requirements to facilitate recycling of used 
electronics, while continuing to protect human health and the 
environment.
    Additional research should be conducted regarding the actual 
environmental and human health risks associated with the storage, 
transport, and recycling of used electronics. This research should also 
consider whether new test methods for assessing these risks should be 
developed, instead of the current practice of using the test method 
developed and employed for testing industrial process waste.

V.  RESEARCH INTO THE NET CLIMATE IMPACT OF RECYCLING OF ELECTRONICS

    Another area that warrants further research is the overall climate 
impact of recycling discarded electronics. There is currently little 
data on the net carbon impacts of collecting, transporting, and 
processing large volumes of discarded electronics. In a future ``carbon 
constrained'' world, these impacts need to be better understood.
    Recycling can play a positive role in addressing climate change by 
conserving resources such as precious metals contained in electronics, 
and displacing the energy impacts associated with mining or otherwise 
producing necessary raw materials. But the process of collecting and 
transporting these products on a large scale will also generate 
emissions of greenhouse gases, and therefore contribute to climate 
change. We need a better understanding of whether the benefits of 
recycling these products outweigh the potential adverse climate impacts 
associated with this activity, as well as ways of mitigating any 
adverse impacts. Unfortunately, little research has been done in this 
area to enable policy-makers and industry to understand these impacts 
and assess ways of mitigating them. These climate impacts can also have 
an important effect on the economics of e-recycling in a future world 
where emissions of greenhouse gases are capped or otherwise restricted.

V. CONCLUSION

    HP is committed to strengthening our leadership in e-recycling and 
innovative product design. We have suggested a number of areas for 
further research that would enable HP and others in the tech industry 
to do a better job at these tasks. HP looks forward to working with the 
Subcommittee and other Members of Congress on the development of a 
national recycling system that leverages the capabilities and expertise 
of manufacturers, retailers, recyclers, and others to achieve efficient 
and low cost opportunities for all consumers.

                     Biography for Renee St. Denis
    Renee St. Denis is the Director of Product Take-Back and Recycling 
in the Hewlett Packard Americas organization. In this role, Ms. St. 
Denis represents HP on issues relating to the sound end-of-life 
management of electronics. Ms. St. Denis and her team are responsible 
for developing environmentally sound disposal solutions for all excess 
and obsolete Hewlett-Packard products, as well as developing customer 
solutions and legislatively required take back programs across the 
Americas.
    Ms. St. Denis and her team manage take back and recycling programs 
at several locations in the U.S., Canada and Latin America with several 
suppliers. These programs account for in excess of four millions of 
pounds of hardware products and supplies being responsibly recycled 
each month. Finally, Ms. St. Denis is responsible for designing and 
implementing systems which ensure the compliance of HP with regard to 
manufacturer-responsibility and fee-financed take back legislation 
across the Americas.
    Ms. St. Denis received her Bachelor's Degree in Finance at the 
University of the Pacific in Stockton, California, and her Master's of 
Business Administration at the University of Southern California in Los 
Angeles, California. Renee has worked for Hewlett Packard for 17 years 
in a series of operational and management roles. Prior to joining HP, 
Renee was employed in a variety of roles regarding quantitative 
analysis of financial instruments.

    Chairman Gordon. Thank you, Ms. St. Denis, right on time.
    Mr. Eric Harris is recognized.

  STATEMENT OF MR. ERIC HARRIS, ASSOCIATE COUNSEL/DIRECTOR OF 
   GOVERNMENT AND INTERNATIONAL AFFAIRS, INSTITUTE OF SCRAP 
                      RECYCLING INDUSTRIES

    Mr. Harris. Mr. Chairman, Members of the Committee, good 
morning. My name is Eric Harris. I am here today representing 
ISRI, the Institute of Scrap Recycling Industries. ISRI is the 
world's largest trade association of recyclers with 1,550 
member companies and over 3,000 facilities throughout the 
United States. Our members process, broker, and industrially 
consume a number of recyclable commodities including metal, 
ferrous and non-ferrous, paper, plastic, glass, textiles, tires 
and rubber, and of course, electronics. Twenty percent of 
ISRI's membership now focuses on electronic recycling. In fact, 
it is our association's fastest growing segment.
    Our electronics recyclers provide comprehensive recycling 
operations, everything from logistics, including collection and 
transportation, to asset management, that is, cleaning hard 
drives and testing and reselling for reuse, and of course 
processing electronics scrap to extract the various commodities 
such as steel, gold, titanium, silver, copper, plastics, and 
glass for use as valuable material feedstock in the 
manufacturing of new products.
    So what are some of the key challenges for electronics 
recyclers? The first, something very sensitive to our industry, 
is hosting this issue with the moniker of waste. In our 
opinion, scrap is not waste and recycling is not disposal. It 
is very important to distinguish between scrap and waste as 
well as recycling and disposal. Simply stated, scrap is the 
opposite of waste. Electronic scrap like scrap paper and glass 
and plastic and metal and so forth is not waste when 
responsibly recycled. Defining scrap electronics as waste 
undermines and overlooks the values that those electronics 
retain when properly recycled.
    One of the other biggest concerns we have in the industry 
is the cost to collect, transport, and responsibly recycle 
household electronic equipment, which remains the greatest 
challenge for our industry for two primary reasons. Household 
electronics, as Mr. Williams has already pointed out, some of 
the equipment has a negative cost to recycle. In other words, 
it costs more to recycle the equipment than the value you can 
extract from processing it. In addition, existing law, federal 
law, allows household electronic equipment to be sent to 
subtitle D landfills. This creates a tension in the market 
because we lack the contractual connection with the consumer 
and there is a behavioral pattern that suggests that this 
equipment should continue going to the landfill.
    Because of these reasons, until a sustainable market 
presents itself, ISRI does support a short-term financial 
mechanism from OEMs that would allow us to have help to 
collect, transport, and responsibly recycle those household 
electronic equipment goods that have a negative cost to 
recycle, for example, the cathode ray tubes in the televisions 
and monitors of today's market. There are three primary reasons 
why, this will enhance competition and not inflate the value of 
the recycling service that our members provide. The OEMs have 
greater access to their own customers. They can convince and 
educate their customers on the value of responsibly recycling 
the materials they sell. And lastly, it provides an incentive 
for the OEMs to design their products with an eye towards 
recycling. A great example in today's market is manufacturers' 
continued use of mercury in their products. If you see the 
flat-screen monitors and televisions, if you take the time to 
refurbish that system, pull the back panel off, what you will 
see is a row of fluorescent bulbs that have mercury powder. 
They are difficult to replace and they are difficult to remove 
for recycling. As a result, they are not cost-effective in 
today's market. We need to encourage more collaborative 
programs to work with the OEMs to improve their design.
    On the commodity side, we need better markets for scrap 
plastics and scrap glass. CRT glass-to-glass manufacturing is 
becoming more and more obsolete throughout the world, and the 
few lead smelters that are remaining are actually refusing new 
contracts from recyclers to process their CRT glass. This is 
only complicated further by the four to eight pounds of leaded 
glass that we see in the monitors and TVs entering in today's 
market. As a result, recyclers have fewer and fewer markets for 
the CRT glass. In our terms, this is a barn-burning issue: what 
do we do with the glass?
    For plastic, it remains difficult to separate and sort 
commingled plastic resin streams to the quality that compete 
with virgin plastics. You have to imagine a truckload of 
commingled electronics from toaster ovens to monitors to radios 
shows up at our facility and now we have to process that 
material and process the plastic to a point where it can 
compete with virgin plastic. This is a challenge.
    All in all, what this does is creates hesitancy in the 
marketplace. Recyclers are hesitant to further invest in the 
technology needed for greater automation and optical sorting to 
address the CRT glass and the plastic. So how do we inject 
investor confidence? We would suggest targeted research and 
development to new and used markets for mixed scrap plastic and 
glass and potentially investment incentives for new recycling 
equipment such as an accelerated depreciation model for new 
recycling equipment that is energy efficient and climate 
friendly and designed to increase recyclable yields.
    And lastly, how do we find a responsible recycler? There 
are a spectrum of players on the market from the leaders of our 
association all the way down to what we call the sham recyclers 
out there, and we would caution the Committee for the need for 
new laws and regulations and would encourage enhancing policy 
that rewards responsible recycling. On our side of the 
equation, we have created a Recycling Industry Operating 
Standard, or RIOS, that is an integrated, comprehensive 
management system that incorporates environment, health and 
safety and quality goals for the recycler in tomorrow's market.
    [The prepared statement of Mr. Harris follows:]
                   Prepared Statement of Eric Harris
    Mr. Chairman and Members of the Committee. Good Morning. My name is 
Eric Harris and I am the Associate Counsel and Director of Government 
and International Affairs for the Institute of Scrap Recycling 
Industries, Inc.--the ``Voice of the Recycling Industry.''

Introduction

    ISRI is the world's largest trade association of recyclers with 
well over 1,550 member companies that operate over 3,000 locations in 
the United States who process, broker and industrially consume scrap 
commodities, including metals, paper, plastics, glass, rubber, textiles 
and electronics. More than 20 percent of ISRI's membership is involved 
in electronic scrap processing and industrial consumption of scrap 
material generated by electronics recyclers. In fact, electronics 
recycling is the fastest growing segment of ISRI's membership.
    In 2007, the domestic scrap recycling industry manufactured 
approximately $71 billion of specification grade commodities that were 
used in lieu of virgin materials to manufacture basic products in the 
United States and throughout the world. This figure includes more than 
81 million tons of iron and steel, five million tons of aluminum, 1.8 
million tons of copper, and two million tons of stainless steel, just 
to name a few. Of the $71 billion of scrap recycled last year, nearly 
$22 billion worth of these commodities were exported to 152 countries 
worldwide, making a significant positive contribution to the United 
States' balance of trade with other nations and serving as the first 
link in the global manufacturing supply chain. Scrap accounts for 
approximately 40 percent of the world's raw material needs.
    Scrap recycling is one of the world's most climate friendly 
activities. The use of recycled scrap materials to manufacture new 
products sustains the Earth's natural resources, while at the same 
time, conserves impressive amounts of energy in the manufacturing 
process, and thereby significantly reduces greenhouse gas emissions 
from those facilities.
    For example, recycling 1,000 computers and monitors rather than 
landfilling them would prevent a net total of 52.64 metric tons of 
carbon equivalent (MTCE) and 193 metric tons of carbon dioxide 
equivalent (MTCO<INF>2</INF>) from entering the atmosphere. This is the 
equivalent of not driving 42 cars for an entire year. This would also 
save over 3,370 million BTUs. And, the energy savings would equal 
27,171 gallons of gasoline.\1\
---------------------------------------------------------------------------
    \1\ United States Environmental Protection Agency WAste Reduction 
Model (WARM), http://www.epa.gov/climatechange/wycd/waste/calculators/
Warm <INF>-</INF>home.html
---------------------------------------------------------------------------

U.S. Electronic Scrap Generation and Recycling

    Approximately 2.8 billion pounds (1.4 million tons) of electronic 
equipment were recycled in 2006, including 65 million units of computer 
equipment (CPUs, monitors and printers). The electronics recycling 
process yielded approximately 1.3 billion pounds of recyclable 
materials, more than half of which were metals. Consumer electronics, 
alone, are now considered to be approaching more than three million 
tons generated annually.
    According to a recent study by the Consumer Reports National 
Research Center, E-Waste 2006, 90 percent of Americans own at least one 
computer. That means there are over 270 million computers in America. 
However, 45 percent of American consumers retain electronics because 
they are unsure of the appropriate method to deal with such items at 
the end of their useful lives. Moreover, 35 percent of American 
consumers retain electronics because they consider it inappropriate to 
dispose of them with the garbage. Consequently, upwards of 50 percent 
of American consumers have yet to send their obsolete electronic 
equipment into the recycling stream.
    With the proliferation of new electronic products every day, 
obsolete consumer electronic equipment levels are expected to increase 
to 400 million units annually during the rest of the decade, including 
100 million units of computer equipment. If we combine both consumer 
and non-consumer computer equipment (commercial, industrial and 
government sectors), we can estimate that more than two billion will 
become obsolete over the next five years.
    ISRI members provide comprehensive recycling operations, which 
covers everything from logistics (e.g., collection and transportation) 
and data security to de-manufacturing, to manufacturing specification 
grade commodities from the electronic products. Our members make their 
living scrubbing and reselling hard drives, by testing and then 
reselling cell phones, monitors and CPUs that are in good working 
order, and using machinery and equipment to shred or otherwise process 
electronics to extract the various commodities that are contained in 
electronic equipment including steel, aluminum, gold, silver, titanium, 
copper, nickel, plastic and glass--for use as valuable raw material 
feedstock in the manufacture of new products.
    Once electronics products reach our members they are first triaged 
to determine whether they are to be resold, refurbished, or processed 
into specification commodity streams.
    Whether the decision is made to refurbish or process into 
specification grade commodities, the export market for the resulting 
product is an essential part of the legitimate recycling chain. With 
regard to reusable or refurbished electronics, there is an increasing 
presence of large for-profit reuse markets in developing countries, 
especially Asia, Africa, and South America, where the majority of the 
population simply cannot afford to purchase the latest available 
technology. It is both environmentally and socially responsible to 
provide for the continued export of these viable products that make 
basic technologies and communications available where they would 
otherwise potentially not be. There is now even a growing market in the 
third world for the purchase of monitors to be converted into TVs.
    As a result of the above, recycling experts anticipate that as 
collection of household electronic equipment in the United States 
increases, exports of certain recyclable streams will also increase; 
for example, used, intact equipment for reuse; used components for 
reuse; used equipment for refurbishment; and, fully processed materials 
for use as raw materials in manufacturing.

Key Challenges

    The key challenges to increasing electronics recycling in the 
United States include, among other things: (1) how to adequately cover 
the costs associated with collection, transportation and recycling of 
household electronic equipment; (2) distinguishing scrap from waste and 
not over regulating; (3) free and fair trade; (4) developing adequate 
end-use markets for recyclable plastics and glass and demand for that 
material; (5) Design for Recycling; and, (6) promoting EPA's 
Responsible Recycler practices and ISRI's Recycling Industry Operating 
Standard (RIOS) as the proper means to address environmental concerns.

How to adequately cover the costs?
    The cost to responsibly recycle electronic products remains the 
greatest challenge for recyclers. As the competition to collect 
household computer equipment increases across the country, recyclers 
are being forced to take in a growing list of older, less valuable 
electronic equipment, such as televisions, AM/FM radios, and old 
hairdryers. Under current market conditions, much of the collected 
electronic equipment, for example at weekend collection events, has 
little to no resale value and has a net-negative cost to recycle (the 
cost to recycle the equipment outweighs the value of the processed 
material). This problem is only exacerbated when you factor in the 
logistical challenges and associated costs to get the collected 
electronic equipment transported to a facility that can responsibly 
recycle it.
    As a result, until such time as the market for recyclable 
electronics becomes economically viable, ISRI's policy continues to 
support holding producers responsible for the collection, 
transportation and recycling of household electronic equipment that has 
a net-negative cost to recycle, such as cathode ray tubes in monitors 
and televisions. ISRI firmly believes that producer responsibility will 
provide manufacturers with the needed incentive to design their 
products with an eye to the future, incorporating design changes that 
maximize recycling at the end-of-life. This concept, which ISRI calls 
Design for Recycling, is critical to the success of increasing the 
recycling of electronics long term. In the interim, as successful 
business people, we believe that if given the flexibility and 
opportunity to internalize the costs manufactures will create a model 
that will be less bureaucratic and burdensome and cheaper for the tax 
payer.
    While ISRI will ultimately defer to the wisdom of the Congress and 
the states to decide which financial mechanism is most apt to spur 
markets for electronic recycling, we strongly encourage the Congress 
and the states to end any financial mechanism as soon as markets for 
recyclable electronics become economically viable. We are not an 
industry that seeks government subsidies, and we believe markets must 
ultimately stand on their own based on solid business principles.
    However, whatever financial mechanism the Congress and the states 
might decide to adopt in order to sustain this market, ISRI suggests 
that a portion should be applied to the research and development of 
end-use markets for the scrap materials recovered from electronics 
products, particularly plastics and glass.

Scrap is not Waste, Recycling is not Disposal
    For recycling in general, and particularly for electronics 
recycling, we need to avoid creating unnecessary impediments. It is 
very important to distinguish between scrap and waste as well as 
recycling and disposal. Simply stated, scrap is the opposite of waste. 
Processed scrap materials are commodities that have a significant value 
on domestic and international markets as raw material feedstocks that 
substitute for virgin materials in the manufacture of new basic 
materials such as copper, steel, and plastics. Unlike scrap, `waste' 
has no value and is typically buried in a landfill.
    Electronics scrap, like scrap paper, glass, plastic, metal, 
textiles, and rubber, is not waste when recycled. Defining scrap 
electronics as waste undermines and overlooks the value that these 
electronics retain, if properly recycled. Saddling them with the 
moniker of ``waste'' imposes a whole host of unwarranted regulatory 
burdens that will undermine the ability to allow the recycling system 
to operate effectively and efficiently.
    Private sector electronics recyclers are subject to all the federal 
and State environmental, safety, and export/import regulations that are 
applicable to any industrial operations. For example, recyclers 
currently operate under a host of applicable environmental regulations, 
such as permitting requirements in the Clean Air Act, the Clean Water 
Act and its various storm water provisions, among others. In addition, 
electronics recyclers adhere to State requirements which in some cases 
are more stringent than the corresponding federal requirements, federal 
and State transportation and occupational safety and health laws, U.S. 
export laws and regulations and the import requirements of foreign 
countries, such as those administered by China's General Administration 
on Quality Supervision, Inspection and Quarantine (AQSIQ).
    For these reasons, it is critically important that we avoid 
confusing the valuable commodities manufactured by scrap recyclers with 
wastes, whether in our vernacular or in written form.

Free and Fair Trade
    Another key aspect underlying ISRI's policy is the concept of free 
and fair trade. We have been in the recycling business a long time and 
experience tells us that the specification grade commodities we 
manufacture are some of the best examples of basic supply and demand 
economics. These materials are traded in the global marketplace, 
supplying America's basic manufacturing industries with valuable raw 
material feed stocks that are used in place of virgin materials, and 
also contributing significantly towards a positive balance of trade 
with other nations. And these global markets are far from new--the 
London Metal Exchange started trading copper in 1876, harnessing an 
already existing global market in copper.
    Despite the realities of the global marketplace, however, exporting 
electronic scrap continues to be besmirched. We have all seen the 
horrendous photographs and broadcasts regarding China's artisan 
communities. But, there has been little to no coverage regarding 
China's sophisticated recycling parks, which have been developed in 
China over the past ten years in an effort by the Chinese government to 
reign in the ``rogue recyclers'' who have been responsible for some 
terrible situations. However, costs and demand for scrap material is 
still driving the market. Experts tend to agree that this is largely 
being driven by the fact that most of all new electronic equipment is 
being manufactured in Asian markets. As a result, since demand is so 
high, Asian brokers are able to pay more for the obsolete electronic 
equipment than in Europe and the United States. Thus, countries like 
China continue to purchase obsolete electronic equipment from countries 
all over the world, including the United States.
    ISRI contends that the stigma associated with ``exporting'' is 
misguided and exports should be viewed from the prism of the realities 
of the global economy. The focus must be to promote responsible 
recycling globally and concentrate efforts towards enhancing and 
promoting environmentally capable facilities that will receive and 
properly handle recycled materials anywhere in the world. ISRI suggests 
that the United States government should refocus its attention on 
negotiating trade agreements with key trading partners around the 
world, such as China and India. These agreements could detail the 
environmental and safety requirements for these facilities and 
establish a process that would allow the materials to flow more on the 
basis of value of the commodity and less on the geographic location of 
the collection.

Markets for Plastic and Glass
    Two of the greatest challenges of electronics recycling are the 
difficulties in recycling chemically coated glass from cathode ray 
tubes (CRTs) and sorting the different resins of plastic.
    ISRI has suggested that State bills and a federal bill should focus 
on establishing a short-term financial subsidy for consumer generated 
monitors and televisions with CRTs. Moreover, additional markets for 
the recycled glass are a critical necessity. If CRT manufacturing is, 
as most predict, soon to be obsolete and lead smelters continue to 
charge a fee analogous to a hazardous waste landfill fee then recyclers 
need alternative end-use markets for that CRT glass. ISRI strongly 
recommends that research and development dollars need to be invested to 
develop alternative markets.
    With regard to plastics, despite the continual improvement in 
automation and optical sorting technology (which helps distinguish 
between different colors and streams, due to the heterogeneous nature 
of input materials) sorting variations of mixed plastic resins remains 
a challenge for recyclers. In addition, since the market for engineered 
plastics is not fully developed in the United States, the vast majority 
of baled plastic is being exported. And, although foreign markets are 
driving the price of baled plastic in the right direction, the stigma 
on exporting, in general, is creating a lack of confidence in the U.S. 
market.
    Although no single technology has solved the task of sorting 
plastic to a level that can compete against virgin resin streams, the 
technology has improved. What is lacking is investor confidence in the 
overall market. ISRI contends that as the market matures and end-use 
markets for plastic and glass develop investment dollars will follow. 
Similar to CRT glass, research and development dollars are needed to 
help develop new end-use markets for mixed plastics scrap. This will 
create more opportunities in the market place and thus increase 
investment confidence in existing optical and sorting technology.
    Targeting funds to advance technology in these two fields would 
have a positive impact on making end-use consumer markets more 
economically viable, which would, over time, ensure these markets could 
stand on their own without a subsidy. In fact, ISRI believes it would 
be wholly appropriate for the Congress to support research efforts 
aimed toward the development of technologies that could remove the 
remaining impediments in plastics and glass in order to utilize these 
materials in the manufacturing process.

Designing for Recycling
    Removing hazardous components from scrap electronic equipment and 
sorting through material that is difficult to recycle, such as mixed 
plastics, costs recyclers time and money. ISRI has long advocated 
working with manufactures to design their products to be easily 
recycled at the end of their useful lives, without using hazardous, 
toxic constituents, or impediments that can hinder the recycling of 
those products.
    To date, voluntary calls by the recycling industry to motivate 
manufacturers to adopt a Design for Recycling philosophy have been met 
with only a tepid response. We do recognize that electronics 
manufacturers have taken some steps towards designing for recycling; 
however, there is significant room for improvement. For example, 
manufacturers use of mercury. The new technology in flat screen 
monitors utilizes a system of lamps containing mercury powder. These 
mercury lamps are very time consuming to remove or replace, which makes 
this new technology difficult to recycle. Similarly, some of the cell 
phone batteries with small traces of mercury take up to five minutes to 
remove. And, laptops contain tiny mercury lamps that are very difficult 
to locate and remove. In the end, it takes a lot of extra time to 
recycle in the proper manner. This drives up the labor costs, which 
makes recycling these products less profitable. Design for Recycling 
will help to avoid these additional costs and improve recycling 
efficiency.
    More collaborative opportunities are needed to think through some 
of these design issues before these products reach the market. For 
example, EPEAT is an electronic product design standard adopted by the 
Environmental Protection Agency that has been very successful in the 
marketplace. Most major computer manufacturers are using EPEAT as their 
measure of environmental product design, and are competing to gain 
additional credits from EPEAT by going beyond what other OEMs have 
done. Some manufacturers have incorporated significant amounts of 
recycled plastic in their products. This creates demand for recycled 
plastics from computers which increases the value that recyclers can 
capture for the material. Similar types of programs could be encouraged 
by the Congress.

EPA's Responsible Recycler Practices and ISRI's Recycling Industry 
        Operating Standard
    For the past two years, ISRI has represented electronics recyclers 
in a multi-stakeholder process to develop responsible recycling 
practices (R2) for electronics recyclers. The Environmental Protection 
Agency has convened and facilitated this effort. Once completed, ISRI 
intends to incorporate this set of specific performance practices into 
its Recycling Industry Operating Standard (RIOS) for electronics 
recyclers.
    ISRI developed RIOS as an integrated management system standard 
designed specifically for the scrap recycling industry and the ANSI-ASQ 
National Accreditation Board will oversee the third party registrars 
who will audit recyclers. It provides electronic recyclers with an 
affordable tool to monitor their quality, environmental, health and 
safety goals. Few industries worldwide have endeavored to undertake 
such a huge step, but the recycling industry in the United States has 
always been, and intends to remain, the global leader in recycling 
technology, environmental protection, worker safety and the production 
of high quality materials. RIOS is a tool for us to accomplish those 
goals and will help assure that ISRI members who recycle scrap 
electronics will do so in a manner that is best for our country and the 
world in which we live.
    ISRI is hopeful that the combination of the EPA led effort, R2, and 
RIOS will provide a ``one-stopshop'' for electronics recyclers. This 
will help to build needed confidence in the market place and reward 
responsible recyclers that are willing to be audited to a set of 
requirements in an open and transparent process.

Conclusion

    In closing, I want to remind the Committee that our members have 
provided stable, good-paying jobs in this country during the boom 
years, the lean years, in war time, and in peace time. In one capacity 
or another, ISRI members have been recycling electronics for decades as 
an integral part of their recycling operations. We feel these 
experiences from our membership will assist the Committee in developing 
effective solutions that will help address the onslaught of consumer 
based electronic products that are now entering the market.
    Thank you for this opportunity to address the Committee today. ISRI 
looks forward to future opportunities to work with the Committee to 
continue advancing these and other solutions on issues important to 
recycling.

                       Biography for Eric Harris
    Mr. Harris advocates policy and provides legal counsel for ISRI. 
Areas include: climate change and sustainability, electronics, air, the 
Basel Convention, and ISRI's arbitration program. Mr. Harris received 
his masters of law degree from the George Washington University in 
International Environmental law and his law degree from the University 
of Montana. Before coming to ISRI, Mr. Harris provided legislative 
counsel to U.S. Senator Max Baucus from Montana.

    Chairman Gordon. Thank you, Mr. Harris.
    Mr. Smith, you are recognized.

    STATEMENT OF MR. TED SMITH, CHAIR, ELECTRONICS TAKEBACK 
                           COALITION

    Mr. Smith. Good morning, Mr. Chairman, Members of the 
Committee. Thank you for inviting me to testify here today. My 
name is Ted Smith. I am the Chair of the Electronics Take-Back 
Coalition. I am also the founder of the Silicon Valley Toxics 
Coalition, former Executive Director there, which was formed 25 
years ago to address the issues of health, environment, and the 
development of the electronics industry.
    I want to run through several slides very quickly. The 
problem I think is multifaceted, as you have heard. The 
products don't last very long. The equipment is toxic. More e-
waste is thrown away than is recycled. More recyclers simply 
export their products to developing countries and the toxic 
components resulting from poor design make e-waste hard to 
recycle. The shrinking lifespans is one of the serious issues 
that we face. New technology drives consumers to buy new 
products at astonishing rates. The prediction is 32 million new 
television sets will be sold this year and 22 million new 
computers will be sold, and the February 17, 2009, digital 
conversion deadline is rapidly approaching. We predict that 
this is going to mean millions more televisions will be coming 
into our waste stream over the next few years.
    You have heard that e-waste is toxic--lead, mercury, 
cadmium, brominated flame retardants. Our landfills are 
beginning to fill up. It is still a small percentage of our 
landfill waste but it is the fastest growing, as you have 
heard, and of all the equipment that is currently being 
collected, we predict that something like 87.5 percent is 
currently being trashed and only 12.5 percent is being 
recycled. And this is the key: Of the products that are being 
recycled or collected for recycling right now, we estimate that 
50 to 80 percent are being exported for processing in 
developing countries, and what this looks like is, some of the 
most primitive processing you can imagine. There is video of 
this that I highly recommend if people have time to look at it, 
but what we know is that the products are being taken apart 
with hammers and that they are being burned. They burn the 
plastics in order to get the metals, which have value, and when 
they burn the plastics, it is creating dioxin clouds which are 
affecting the children in these communities throughout the 
developing world. This is happening in China. It is happening 
in Asia. It is happening in Africa. This is one of the biggest 
problems that we are facing right now and I think the United 
States is primarily responsible for this.
    So what can Congress do? We do support strong producer 
responsibility. We have been working with State legislatures 
around the country. There are now almost a dozen states that 
have passed laws. Most of them are producer responsibility. We 
do think that we need to close the door on exporting the 
hazardous e-waste to poor countries and we do need to promote a 
comprehensive green design initiative. Producer responsibility 
means electronic manufacturers should bear the responsibility 
throughout the product life cycle. This is a design initiative 
that started in Europe which has now spread around the world 
and we are working actively to bring it into the United States. 
We think that the legislation needs to include strong goals and 
timetables that drive increases in recycling and we support 
federal legislation but only if it is strong legislation and 
not lower than what is already happening in the states and 
certainly we don't want to see a situation where the Federal 
Government would pass legislation, preempt the states and have 
a lower standard than what is already happening out there.
    But primarily we think that the role of the Federal 
Government can focus on two things: it is preventing the export 
of the hazardous waste because the states cannot address that. 
We know that there are good processing options that do exist in 
the United States and other developed countries and we think 
that we do need to ban the export of the toxic e-waste so that 
we can prevent the harm that we know is going on.
    But the other major initiative that I would like to talk to 
you today about is what we think that the Federal Government 
can do to encourage green design and green engineering. E-waste 
would not be an issue if the products themselves were not so 
toxic, and industry's efforts to green their products are 
increasing but we think still inadequate compared to rapid pace 
of the design changes. The manufacturers can design electronic 
products using green chemistry and green engineering principles 
to make their products more durable, more upgradeable, to be 
carbon neutral, fully recyclable and requiring fewer 
unsustainable materials. We think that a national sustainable 
electronics initiative is the way to go where we can combine 
some of the best thinking in the country from within industry, 
within academia, within government agencies, public health and 
environmental organizations to develop the new strategies, not 
only to address the problems of electronic waste but also to 
really try to solve these problems at the front end, which we 
do think is the place where we need to do it, and we think that 
the new initiative could be composed of a national clean 
electronics council, which would be a governing body, again a 
multi-stakeholder body, as well as a national clean electronics 
research and development fund funded by Congress. We think that 
the appropriate role could be to assess the current and future 
environmental and human health impacts, develop strategic plans 
to identify priority research needs, funding public and private 
research institutions, and to assure the diffusion and adoption 
of safer and cleaner technologies.
    Thank you very much.
    [The prepared statement of Mr. Smith follows:]
                    Prepared Statement of Ted Smith

  E-WASTE: The Exploding Global Electronic Waste Crisis and Why Green 
                         Design Is the Solution

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Introduction

    I am Ted Smith, the Chair of the Electronics TakeBack Coalition, a 
national coalition of organizations promoting green design and 
responsible recycling in the electronics industry. I was also the 
Executive Director of the Silicon Valley Toxics Coalition, an 
organization I founded 25 years ago.
    The Electronics TakeBack Coalition appreciates the opportunity to 
speak to the Committee today on this important issue of electronic 
waste.

What's the problem we need to solve?

        <bullet>  The electronics we buy don't last very long, and we 
        are buying them at increasing rates. Shorter product lifespans, 
        coupled with explosive sales in consumer electronics, mean that 
        more products are being disposed of, and discarded computers, 
        TVs, and other consumer electronics (so-called e-waste) are now 
        the fastest growing waste stream in the U.S.

        <bullet>  Electronic products contain many toxic materials 
        because they are not designed properly. E-waste contains toxic 
        materials harmful to humans and our environment. Over 1,000 
        materials, including chlorinated solvents, brominated flame 
        retardants, PVC, heavy metals, plastics and gases, are used to 
        make electronic products and their components.

        <bullet>  Most e-waste is thrown in the trash--only a small 
        amount, around 15 percent, is collected for ``recycling.'' It's 
        legal in most states to put e-waste in the trash.

        <bullet>  Most ``recyclers'' actually export the products they 
        collect to developing countries with no worker safety or 
        environmental protections. There the products are dismantled 
        and separated using such primitive and toxic technologies that 
        workers and communities are exposed to many highly toxic 
        chemicals. Consumers have no way to know if the recycler at 
        their city's Earth Day collection event is really going to 
        recycle their old product, or load it in the container and ship 
        it to China.

        <bullet>  Toxic components and poor design make e-waste hard to 
        recycle.

    The whole problem is made worse by the fast approaching 2009 
digital conversion of television signal, which we see as the largest 
government mandated planned obsolescence in history.
    [For more details on these aspects of the problem, please see the 
E-Waste Briefing book, in the Attachments.]

How do we solve the problem?

1.  Establish Producer Responsibility for electronic products at the 
``end-of-life.''

    The first step in solving the problem is to mandate producer 
responsibility--something that is already happening in State 
legislation. We need the manufacturers to be responsible for taking 
back and recycling their products when we are done with them. We 
believe that if they have financial responsibility for their products 
at disposal time, then they will have an incentive to design them to be 
more recyclable. While the cost of recycling is passed on to the 
consumers, the cost is internalized into the price (not added as a 
visible fee), which rewards the companies who have designed their 
products to be more recyclable. Since their better-designed products 
will cost less to recycle, they can add a lower amount to their price 
to cover the recycling.
    We support strong producer responsibility legislation, that 
includes goals and timetables that act to drive the companies to do 
more recycling than they are doing with voluntary programs. Some 
companies do have voluntary take-back programs, but except for Sony, 
none of the television companies--the ones selling over 30 million TVs 
each year in this country--have a national take-back program. In fact, 
they have been lobbying against legislation to require them to take-
back their products. And for the companies that do have programs, the 
volumes are not significant enough to solve this problem. Dell and HP's 
take-back programs only take-back about 10-15 percent of what they sold 
seven years ago. This is why we need legislation that actually drives 
them to do take-back in a way that keeps up with the volume of products 
they are selling.

         ``Individual producer responsibility encourages competition 
        between companies on how to manage the end-of-life phase of 
        their products. This in turn drives innovation, such as in 
        business models, take-back logistics and design changes, to 
        reduce the environmental impact of products at the end of their 
        life.'' [Joint Statement by a group of electronics companies 
        and NGOs on Producer Responsibility for Waste Electrical and 
        Electronic Equipment, March 2, 2007.]

2.  Close the door on exporting toxic e-waste to poor countries.

    While the states are passing take-back legislation, these laws 
can't legally restrict exports. Sadly, it's perfectly legal to export 
toxic waste from the U.S. to developing countries, even though it 
violates the laws of most of the countries where e-waste ends up. We 
are currently solving our e-waste problem by dumping it in poor 
countries. And while you will hear from the recycling industry that we 
shouldn't prevent export of toxic electronic products or components as 
long as they have ``commodity value,'' we believe that if it's toxic, 
it's toxic--whether it has value or not--and it should be controlled to 
be sure that it isn't poisoning people elsewhere in the world. It's not 
that we oppose exporting altogether--it's fine to export once you have 
actually removed the toxics from the materials. But that's not what's 
currently happening. (Instead, the EPA is just removing these toxic 
materials from the definition of ``hazardous waste.'')
    So we need the Federal Government to act to close the door on this 
export of toxic e-waste to poor countries. Since there are many 
processing options for these materials in the developed world, Congress 
could solve the problem by banning the export of these toxic materials 
to developing countries. This would have the added benefit of creating 
more jobs in this country.

3.  Promote Green Design and Green Engineering

    Producer responsibility helps support redesign of electronics. But 
we need some other significant efforts that will result in a wholesale 
change in the way the electronics industry thinks about design. 
Currently, many companies claim to have ``green products'' when they 
have only done two things: reduced the products' energy consumption and 
complied with the chemical reductions mandated by the EU. But what I am 
talking about is a much broader scale of green design.
    We want to see this industry think about the whole life cycle of 
their products when they design them--a concept known as Green 
Engineering. They shouldn't just consider the product's use as a 
product--but also the impacts from production (including resource 
acquisition) and disposal of the product. Working from two very good 
lists developed by engineers of what comprises ``green engineering,'' 
we think it adds up to having the industry do the following:

        <bullet>  Fully assess and minimize the potential 
        environmental, human health and social impact of the product's 
        production, use and end-of-life treatment, including commonly 
        used recycling and disposal technologies (like shredding).

        <bullet>  Don't use customers as the testing ground for whether 
        materials in the product are safe or dangerous. Ensure that all 
        material used and or released are as benign and inherently safe 
        as possible BEFORE putting products on the market, by applying 
        a precautionary approach to chemical management and by finding 
        safer substitutes for chemicals that persist and accumulate in 
        the environment.

        <bullet>  Design for carbon neutrality when possible to reduce 
        the energy impact of the product throughout its life cycle.

        <bullet>  Maximize design for reparability, reuse and durable 
        use to increase the longevity of the product and thereby reduce 
        consumption of limited material resources.

        <bullet>  Plan for recyclability and ease of disassembly of the 
        product, including using materials that can be recycled easily 
        into new products, and minimizing waste.

        <bullet>  Minimize use of raw virgin materials, and maximize 
        use of recycled materials, to reduce consumption of limited 
        natural resources.

        <bullet>  Invest in solutions that go beyond our current 
        dominant technologies to improve, innovate and invent 
        technologies that achieve sustainability.

        <bullet>  Actively engage communities and stakeholders in the 
        development of new design solutions that improve the life cycle 
        impact of electronic products.

Focus on Safe Materials

    U.S. based high-tech companies know pretty well what materials they 
do not want to use in their products based on their toxicity and 
overall impact on the environment. But they are not so sure about what 
they do want to use. Companies have recently had to phase out the use 
of those materials that are now being regulated in Europe and Asia 
through laws such as the Restrictions on Hazardous Materials (RoHS). 
Likewise, the EU's REACH legislation will have an enormous impact on 
chemical use by the electronics industry, since it will cover as many 
as 1,800 chemicals that are classified as Persistent Bioaccumulative 
Toxics or as carcinogens, mutagens or reproductive toxins.
    Since most global companies based in the U.S. no longer do their 
own research and development--especially on environmental design--there 
is a real need and demand for better environmental assessment tools 
that are comprehensive, objective and credible for all stakeholders. 
Currently, the U.S. EPA does not certify chemicals as ``safe'' or 
``green''--they will sometimes provide data, but they have been unable 
to evaluate and assess the data to reach conclusions about which 
chemicals or materials are safer and preferable to others. Further, the 
system they use to approach these concerns is based on risk rather than 
hazard, which is less helpful in the real world. This is the approach 
that EPA's Design for the Environment program has adopted.
    Currently, federal policy is rudderless--not just for electronics 
but for many industries that rely on the use of hazardous materials--
and too often companies simply don't know how to address the many 
trade-offs inherent in materials selection. They don't know how to 
evaluate the strengths and weaknesses of new materials based on the 
trade-offs between reproductive toxicity and global warming potential, 
as just one example. There is a new tool, called the ``Green 
Screen''\1\ that can be used to help to fill this gap. It provides a 
transparent way to ``grade'' chemicals based on actual hazard (not 
risk) and tells you which ones are ``better'' to use and which ones are 
``worse.'' We think it would be helpful to U.S. industry, particularly 
in sectors that have a toxic and energy intensive footprint. But it's a 
methodology, and there needs to be sufficient funding and institutional 
resources to apply this approach to a lengthy list of chemicals. For 
information, see http://www.cleanproduction.org/Green.Greenscreen.php.
---------------------------------------------------------------------------
    \1\ http://cleanproduction.org/library/Green%20Screen%20Report.pdf

U.S. Falling Behind. The basic university research at industry labs and 
within universities is simply not keeping pace with global 
developments. Some of the best ``green chemists'' in the country--such 
as John Warner at University of Massachusetts, Lowell--are very 
concerned that most of his graduate students come from other countries, 
since U.S. high schools and colleges and not preparing enough chemists 
domestically who want to help meet these challenges. At the same time, 
the green chemistry revolution is expanding vigorously in other 
countries, such as China and India. I was in China last year on a 
university speaking tour, and met many enthusiastic and bright students 
who are very excited about using the tools of green chemistry to help 
solve the critical problems of environmental design. But in the U.S., 
---------------------------------------------------------------------------
we are falling further and further behind.

What Can Congress do to help promote Green Design and Green 
                    Engineering?

    Industry is simply not developing a sufficient green design agenda 
on its own. The structure of this industry, where most of the 
production is done by various subcontractors around the world--not by 
the companies themselves--acts as a disincentive for R&D on green 
design. Therefore, we believe that Congress can help by establishing 
and funding a National Sustainable Electronics Initiative (NSEI), that 
brings together members of industry, academia, government agencies, and 
public health and environmental organizations, to insure the rapid 
development of electronic products that embrace the Green Engineering 
principles--that are cleaner, safer and more sustainable throughout 
their life cycle. This initiative would be composed of a National Clean 
Electronics Council (a governing body) and a National Clean Electronics 
Research and Development Fund (funded by Congress.)
    The National Sustainable Electronics Initiative should develop 
strategies to:

        1)  Minimize their environmental and public health impacts on 
        workers, consumers and communities from manufacture through use 
        and final disposal or recycling. This includes but is not 
        limited to:

                a)  reducing the toxicity and volume of packaging

                b)  minimizing product shipping throughout its life 
                cycle, from raw material extraction through disposal

                c)  reducing or eliminating toxic materials in product 
                manufacture

                d)  effective and enforceable environmental standards 
                to assure that toxic electronic waste will be properly 
                managed in strict compliance with international and 
                domestic laws, including the laws of importing and 
                transit countries, that govern export of hazardous 
                electronic waste, worker safety, public health and 
                environmental protection, and the use of market labor 
                rather than incarcerated labor;

        2)  Be taken back at the end-of-life by manufacturers

        3)  Be designed for reuse and recyclability, including 
        maximizing componentization and part interchangeability

        4)  Be designed to minimize material use per functional unit 
        (de-materialization)

        5)  Minimize energy use/ maximize energy efficiency

        6)  Fully assess the environmental and public health impacts of 
        new materials and technologies prior to use and/or market 
        release (e.g., new chemical components, nanomaterials, bio-
        plastics, etc.)

        7)  Minimize energy use/maximize energy efficiency

        8)  Fully assess the environmental and public health impacts of 
        new materials and technologies prior to use and/or market 
        release (e.g., new chemical components, nanomaterials, bio-
        plastics, etc.)

    The NSEI would promote a full-life cycle assessment approach for 
the electronics industry, with continuous improvement goals to be set 
by the National Sustainable Electronics Council in consultation with a 
National Sustainable Electronics Research and Development Fund.
    The Council, which would be comprised of representatives of the 
electronics industry companies, environmental and public health 
organizations, and national government agencies, would be responsible 
for:

        <bullet>  assessing the current and potential future 
        environmental and human health impacts of consumer electronics

        <bullet>  developing a strategic plan for the reduction and 
        minimization of all detrimental impacts, including the 
        identification of current barriers and opportunities, the 
        identification of priority research needs, and the setting of 
        Strategic Program Goals for the industry,

        <bullet>  awarding funding on a competitive basis to 
        universities, corporations, private research institutions and 
        national laboratories, for addressing priority research needs, 
        for eliminating current barriers, and for developing safer and 
        cleaner technologies,

        <bullet>  assuring the diffusion and adoption of safer and 
        cleaner technologies,

        <bullet>  assessing the effectiveness of the implementation of 
        the strategic plan,

        <bullet>  reporting on a bi-annual basis on the performance of 
        the industry in meeting the Strategic Program Goals, and

        <bullet>  managing the Research and Development Fund

4.  Promote Tools For Consumers to Select Green Electronics

    Consumers always ask us what electronic products are 
environmentally preferable. Who makes a ``green TV?'' Which laptop is 
greener? The primary tool available for this purpose is the fairly new 
EPEAT tool--the Electronic Products Environmental Assessment Tool. It's 
like an Energy star label, currently only for business computers. We'd 
like to see this expanded to other electronics products, including 
Televisions. The EPEAT board was slated to develop standards for 
televisions next, but has recently decided to postpone this plan. We 
think it's crucial for EPEAT to address televisions as its next target, 
since we are buying so many televisions, and because there is so much 
new technology coming out in televisions very quickly. We would like to 
see Congress provide enough funding to EPEAT to make sure the standards 
development process moves forward, plus we would like to see enough 
money to allow them to market the EPEAT program in a way that makes it 
a viable tool for consumers, not just institutional purchasers.

ATTACHMENTS:

  SUSTAINABLE DEVELOPMENT THROUGH THE PRINCIPLES OF GREEN ENGINEERING

                          Julie Beth Zimmerman
        Department of Civil Engineering, University of Virginia
   Office of Research and Development, U.S. Environmental Protection 
                                 Agency
    http://web.mit.edu/d-lab/assignment<INF>-</INF>files/green.pdf

INTRODUCTION

    Concerns regarding population growth, global warming, resource 
scarcity, globalization, and environmental degradation have led to an 
increasing awareness that current engineering design can be engaged 
more effectively to advance the goal of sustainability and that there 
will need to be a new design framework that consciously incorporates 
sustainability factors as performance criteria. Sustainability has been 
defined as ``meeting the needs of the current generation without 
impacting the needs of future generations to meet their own needs'' and 
is often interpreted as mutually advancing the goals of prosperity, 
environment, and society. The 12 Principles of Green Engineering 
(Anastas, 2003) are collectively a design protocol for engineers to 
utilize in moving towards sustainability.
    The impact of population growth has long been understood as one of 
the grand challenges to mutually advancing these goals and creating a 
sustainable future. When the issue is examined more closely, the data 
demonstrate that the vast majority of population growth is occurring in 
the developing world while population is stagnant, and in some cases 
declining, in the industrialized world (Figure 1). This may suggest 
that within the complex equation of growing population including birth 
and mortality rates, socio-political pressures, access to health care 
and education, cultural norms, etc., there is an empirical correlation 
between the rate of population growth and level of economic 
development, often equated with quality of life.
    This relationship suggests that one approach to be seriously 
considered in meeting the challenges of stabilizing population growth 
and advancing the goal of sustainability is through expanded economic 
development and improved quality of life. Historically, however, 
increases in development and quality of life have been inextricable 
linked with environmental degradation and resource depletion. There is 
a significant amount of evidence that suggests that conventionally an 
increasing human population has put an increasing strain on natural 
resources used for consumption and waste assimilation. While there is 
no single satisfactory index of the state of the environment, the 
relationship between population and environment can be analyzed in 
terms of resource depletion or dimensions of environmental quality such 
as land use, water quantity and quality, pollution generation 
particularly from increased energy demand, bio-diversity, and climate 
change. A brief review of each of these indicators supports the notion 
that, traditionally, population growth has had a detrimental impact on 
the environment.
    Therefore, the question is how to bring about continued development 
and enhanced quality of life in both the developing and developed world 
without the historical environmental degradation and resource 
consumption. Green Engineering, along with Green Chemistry (Anastas, 
1998), are engaged through science and technology on ensuring that 
quality of life, or state of economic development, is increasing 
through benign chemicals and materials and life cycle-based design as 
well as material and energy efficiency and effectiveness. This 
decouples the historical relationship of population growth and 
environmental degradation on the path towards an improved quality of 
life. The 12 Principles of Green Engineering (Anastas, 2003) (see Table 
1) provide a framework for scientists and engineers to engage in when 
designing new materials, products, processes, and systems that are 
benign to human health and the environment.

THE 12 PRINCIPLES OF GREEN ENGINEERING

    A design based on the 12 Principles moves beyond baseline 
engineering quality and safety specifications to consider 
sustainability factors and allow designers to consider them as 
fundamental factors at the earliest stages as they are designing a 
material, product, process, building or a system. These Principles were 
developed to engage in design architecture--whether it is the molecular 
architecture required to construct chemical compounds, product 
architecture to create an automobile, or urban architecture to build a 
city, the Principles are applicable, effective, and appropriate. If 
not, the value of these design principles diminishes as their 
usefulness becomes dependent on local parameters and system conditions 
and they cannot effectively function as global design principles.

The 12 Principles of Green Engineering (Anastas, 2003).

PRINCIPLE 1--Designers need to strive to ensure that all material and 
energy inputs and outputs are as inherently non-hazardous as possible.

PRINCIPLE 2--It is better to prevent waste than to treat or clean up 
waste after it is formed.

PRINCIPLE 3--Separation and purification operations should be a 
component of the design framework.

PRINCIPLE 4--System components should be designed to maximize mass, 
energy and temporal efficiency.

PRINCIPLE 5--System components should be output pulled rather than 
input pushed through the use of energy and materials.

PRINCIPLE 6--Embedded entropy and complexity must be viewed as an 
investment when making design choices on recycle, reuse or beneficial 
disposition.

PRINCIPLE 7--Targeted durability, not immortality, should be a design 
goal.

PRINCIPLE 8--Design for unnecessary capacity or capability should be 
considered a design flaw. This includes engineering ``one size fits 
all'' solutions.

PRINCIPLE 9--Multi-component products should strive for material 
unification to promote disassembly and value retention. (minimize 
material diversity).

PRINCIPLE 10--Design of processes and systems must include integration 
of interconnectivity with available energy and materials flows.

PRINCIPLE 11--Performance metrics include designing for performance in 
commercial ``after-life.''

PRINCIPLE 12--Design should be based on renewable and readily available 
inputs throughout the life cycle.

ADVANCING GLOBAL SUSTAINABILITY

    Science and technology will play a fundamental and vital role in 
advancing global sustainability by engaging in next generation design 
of fundamental products, processes, and systems necessary for 
maintaining and enhancing quality of life while protecting the planet. 
For global sustainability to be advanced the current operational model 
of unilateral knowledge transfer from the industrialized world to the 
developing world could be expanded to include knowledge exchange. The 
exchange would allow for learning about indigenous knowledge and 
traditional design, potentially simple and elegant, which has developed 
and adapted for local people and place. This would provide an 
opportunity to integrate the best and most appropriate knowledge, 
methodologies, techniques, and practices from both the developed and 
developing worlds in terms of designing for sustainability. The 
examples of innovations in science and technology from the developing 
world highlight alternative strategies to deliver services such as 
clean drinking water, medical treatment, energy and power production, 
material and product development, building technologies and techniques.

CONCLUSIONS

    The achievements that have been obtained using green engineering 
principles are exceptional examples of design with a new sustainability 
perspective. If the challenges of sustainability are going to be 
addressed both within the currently industrialized nations as well as 
those developing nations whose path to development will be most 
consequential for the environment and society, it will be essential 
that these new design imperatives be incorporated systematically in the 
next generation of products, processes, and systems. Within this 
context, the technological dialogue that takes place between the 
developed and developing world must be able to consider and utilize 
both a high level understanding of complex systems as well as an 
incorporation of simple elegance found in millennia of experience and 
tradition. The sources of technological inspiration will likely need to 
be broad and diverse if we are to design the products and systems of 
tomorrow to be sufficiently improved and more sustainable than those of 
today.

REFERENCES

Anastas, P.; Warner, J. Green Chemistry: Theory and Practice; Oxford 
        University Press: London, 1998.

Anastas, P.; Zimmerman, J. ``Design through the Twelve Principles of 
        Green Engineering,'' Environmental Science and Technology, 37, 
        94A-101A, 2003.

McDonough, W.; Braungart, M.; Anastas, P.T.; Zimmerman, J.B. ``Applying 
        the Principles of Green Engineering to Cradle-to-Cradle 
        Design.'' Environmental Science and Technology, 37 (23): 434A-
        441A, 2003.

Mihelcic, J.; Ramaswami, A.; Zimmerman, J. ``Integrating Developed and 
        Developing World Knowledge into Global Discussions and 
        Strategies for Sustainability,'' submitted to Environmental 
        Science and Technology, 2005.

United Nations Department of Economic and Social Affairs (UNDESA), 
        Population Division, World Population Projections to 2050, 
        2004.

Zimmerman, J.B.; Clarens, A.F.; Skerlos, S.J.; Hayes, K.F. ``Design of 
        Emulsifier Systems for Petroleum- and Bio-based Semi-Synthetic 
        Metalworking Fluid Stability Under Hardwater Conditions,'' 
        Environmental Science and Technology, 37 (23): 5278-5288, 2003.

Zimmerman, J.B.; Anastas, P.T. ``The 12 Principles of Green Engineering 
        as a Foundation for Sustainability'' in Sustainability Science 
        and Engineering: Principles. Ed. Martin Abraham, Elsevier 
        Science, available 2005.

    See also http://www.epa.gov/oppt/greenengineering/pubs/
whats<INF>-</INF>ge.html for more about EPA's Green Engineering 
initiative.

Information on EPEAT

    http://www.epeat.net/

    EPEAT is a system to help purchasers in the public and private 
sectors evaluate, compare and select desktop computers, notebooks and 
monitors based on their environmental attributes. EPEAT also provides a 
clear and consistent set of performance criteria for the design of 
products, and provides an opportunity for manufacturers to secure 
market recognition for efforts to reduce the environmental impact of 
its products.
    The EPEAT Registry on this web site includes products that have 
been declared by their manufacturers to be in conformance with the 
environmental performance standard for electronic products--IEEE 1680-
2006. The standard is summarized here, and may be purchased from the 
Institute of Electrical and Electronics Engineers. EPEAT operates a 
verification program to assure the credibility of the Registry.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Biography for Ted Smith
    Ted Smith is founder and former Executive Director of Silicon 
Valley Toxics Coalition, a grass roots environmental coalition formed 
in 1982 in response to environmental pollution caused by electronics 
manufacturing in Silicon Valley, California. Ted is also co-founder and 
Chair of the steering committee of the Electronics TakeBack Coalition, 
which is working to promote life cycle producer responsibility within 
the high-tech electronics industry. In addition, Ted is co-founder and 
Coordinator of the International Campaign for Responsible Technology 
(ICRT), an international network committed to working for the 
development of sustainable, non-polluting technologies. He has served 
on the boards of several environmental non-profit organizations and is 
an environmental stakeholder in formal processes convened by Hewlett-
Packard and Dell. He is a widely published author and respected 
speaker, and is co-editor of ``Challenging the Chip: Labor Rights and 
Environmental Justice in the Global Electronics Industry'' published by 
Temple University Press, 2006. In 2001, Ted was recognized by the Dalai 
Lama for his environmental leadership. In 2006 he was named a Purpose 
Prize Fellow. He is a graduate of Wesleyan University and Stanford Law 
School and was a VISTA Volunteer in Washington, DC from 1967-1969.

    Chairman Gordon. Thank you, Mr. Smith.
    Mr. Williams, you are recognized.

STATEMENT OF MR. MICHAEL T. WILLIAMS, EXECUTIVE VICE PRESIDENT 
           AND GENERAL COUNSEL, SONY ELECTRONICS INC.

    Mr. Michael Williams. Chairman Gordon, Ranking Member Hall 
and distinguished Members of the Committee, on behalf of Sony 
Electronics and its employees, I would like to thank you for 
providing us this opportunity to testify about Sony's 
environmental stewardship program.
    Sony has long been an industry leader in the design and 
manufacture of environmentally friendly information technology 
and consumer electronic products. Sony has now made an even a 
stronger commitment to the environment when last September Sony 
launched the first national comprehensive electronics recycling 
initiative in the United States. Our program provides customers 
free recycling of any of their unwanted Sony products from a 
Trinitron television to a PlayStation to even a Sony Ericsson 
mobile cell phone. Under our program, Sony takes full 
manufacturer responsibility for all products that bear the Sony 
name and we will recycle Sony products at no cost to the 
consumer, or, the way I explained it to my 83-year-old mother, 
if we make it, we take it.
    To carry out our nationwide take-back program, Sony 
contracted with Waste Management to establish 138 drop-off 
locations throughout the country. Our goal is to have 150 drop-
off locations with at least one recycling center in each state 
by September. Our long-term goal is to have a collection 
location within 20 miles of 95 percent of the United States 
population. In addition to establishing these permanent 
locations, we also work with our local retailers and local 
municipalities to have recycling events. We have planned 50 of 
those events this year. Since last September, our program has 
collected almost seven million pounds of consumer electronic 
products. Our five-year goal is to collect 600 million pounds. 
In summary, Sony has set a goal for itself to collect one pound 
of recycled product for every pound that we sell. Sony wants to 
make the recycling of our products as easy for consumers as it 
is purchasing them.
    Mr. Chairman, we believe this is a path to sustainability. 
But our environmental work at Sony doesn't stop at collection. 
All Sony products collected must be recycled using the 
strictest environmental standards. We seek at least 95 percent 
recycling rates. In addition, we provide full public 
accountability of where and how our waste material is disposed. 
We seek to reuse as much material as possible and we prohibit 
the exportation of hazardous waste to developing countries.
    But Sony's environmental efforts are also forward looking 
as well. We continue to introduce a variety of environmentally 
friendly electronic products, and today I brought along two 
examples--the Sony e-Reader and our OLED television. Now, the 
Sony e-Reader, Mr. Chairman, Ranking Member Hall and Members, 
is a unique on-the-go reading experience. This little book, 
this little tablet can hold up to 160 novels, and with its 
rechargeable battery, you can have 7,500 page turns, and if you 
are like me, sometimes I forget to bring my reading glasses, 
you can even press a button and it changes the size of the 
font. But just think of how much paper, how much energy is 
saved with an e-Reader product.
    I have also brought along our OLED television. This stands 
for organic light-emitting diode. It is only three millimeters 
thick, or I should say three millimeters thin. It represents 
the latest in Sony display technology, and it is also 
exceptionally energy efficient. The OLED technology can result 
in reduced power consumption of up to 40 percent per square 
panel inch, and because we use organic polymers in this 
display, it does not have any mercury or lead.
    Mr. Chairman, these are just two products that Sony is 
doing today. Coupled with our stewardship program, our full 
producer responsibility take-back program, we believe this is 
the path that companies should take.
    Thank you again for the opportunity to testify before this 
committee, and Sony looks forward to working with you in 
developing a successful national e-waste program.
    [The prepared statement of Mr. Williams follows:]
               Prepared Statement of Michael T. Williams
    On behalf of Sony Electronics Inc. and our employees throughout the 
country, I would like to thank the Committee for the opportunity to 
testify about Sony's environmental stewardship program.

Sony's National E-Cycling Program

    Sony has long been an industry leader in the environmentally-
friendly design of our consumer electronics and information technology 
products. Sony has now made an even stronger commitment to 
environmental stewardship. Last year, we announced a ground-breaking 
program to encourage consumers to recycle and dispose of electronic 
devices in an environmentally sound manner.
    Sony teamed up with Waste Management, Inc. to implement the first 
national recycling initiative in the U.S. to involve both a major 
electronics manufacturer and a national waste management company.
    Our program provides customers free recycling of any of their 
unwanted Sony products, including Playstation consoles and Sony 
Ericsson phones. Under this program, Sony takes full manufacturer 
responsibility for all products that bear the Sony brand. We will 
recycle those products at no cost to the consumer. This not only 
includes consumer products, but business and professional products as 
well.
    While Sony will recycle its own products for free, our recycling 
locations will also accept non-Sony consumer electronics and 
information technology products.
    To fully carry out this nationwide e-waste take-back program, Sony 
and Waste Management Recycle America utilize 138 drop-off centers 
throughout the country. This is an increase from the initial 75. In 
addition to setting up permanent collection centers, we are also 
holding recycling events, coordinating with retailers and local 
municipalities. By the end of this year, we plan to have held at least 
50 special recycling events.
    Our goal is to have 150 drop-off locations throughout the United 
States, with at least one recycling location in every state by 
September 2008. Our longer term goal is to have a collection location 
within 20 miles of 95 percent of the United States population at which 
consumers, retailers, and municipalities can have any product from any 
consumer electronic manufacturer recycled.
    Sony has set a goal to recycle one pound of consumer electronics 
goods for every pound sold. This is sustainability.
    Since its inception last September, our program has collected 
almost seven million pounds of consumer electronics products. Our five-
year goal is to raise that number to 600 million pounds per year.
    In summary, Sony wants to make the recycling of our products as 
easy for consumers as the purchasing of products.

Other Sony Recycling Programs

    Beyond the program described above, in an effort to encourage 
customers to recycle, Sony offers customers Sony credit toward the 
future purchase of a similar product if they send in their old product 
for recycling. This ``trade-up'' program is applied to laptops, digital 
cameras and camcorders. By going on to our website, www.sonystyle.com, 
customers can enter specific values describing their old product. Once 
the appropriate value is determined, customers will receive an e-coupon 
valid at our Sony Style website toward the purchase of a new product. 
Depending on the product, values can range up to $1,000.00.

Product Recycling

    After products are collected through the Sony Take Back and Recycle 
program, Waste Management will store, track inventory and dismantle the 
products into the form of common raw materials where they can be bought 
and sold on the global market. In some cases, it is likely that 
recycled plastics will be purchased for reforming into a new current 
model electronic product.
    All products which are collected through the Sony Take Back and 
Recycle program must be recycled using the strictest and highest 
environmental standards. We seek at least 95 percent recycling rates, 
with less than five percent of materials going to landfills. In 
addition, we provide full public accountability of how and where the 
material goes. We seek to reuse as much as possible in new Sony 
products. Most importantly, we prohibit the exportation of hazardous 
waste to developing countries.

Product Innovation

    Sony has long been an industry leader in product innovation. And we 
are continuing to add an array of environmentally-friendly electronic 
products, such as our e-Reader.
    The Reader Digital Book offers a unique, on-the-go reading 
experience. With a compact and lightweight design, it holds up to 160 
e-Books. You can easily hold it in one hand, and with its rechargeable 
battery, you can turn up to 7,500 continuous pages on a single charge.
    Today, I have brought with me an example of Sony's latest product 
innovation, our new OLED television. OLED (or Organic Light Emitting 
Diode) is a revolutionary Sony display technology that offers 
exceptional picture quality and color reproduction from a screen that 
is a mere 3mm thick. Unlike liquid crystal display (LCD) televisions, 
the Sony OLED TV does not utilize a backlight. In LCD TVs, a backlight 
must remain ``always on'' for video display. Rather, each OLED pixel 
produces its own light and is off, using no power, when displaying 
blacks.
    While this OLED technology offers exceptional contrast ratios and 
outstanding dark scene detail, it also leads to improved power 
performance. Under normal viewing conditions, the OLED technology can 
result in reduced power consumption of up to 40 percent per panel 
square inch. As with all Sony BRAVIA LCD HDTVs, the OLED displays do 
not incorporate any lead content, and, with no backlight needed, offer 
no mercury content as well.
    Sony hopes to utilize this technology for other future products, 
such as laptops, cell phones and larger size televisions.

Sony's Comments on Federal Legislation

    Sony urges you to adopt legislation that supports our efforts and 
extends the environmental stewardship we have demonstrated to all 
electronics manufacturers and retailers. While we are confident that 
Sony's voluntary e-waste recycling program will make great strides 
forward, only a truly comprehensive and consistent program will allow 
all interested parties to achieve our shared recycling goals. Sony, 
therefore, respectfully requests that any legislation reflect the 
following:

        <bullet>  Preemption

           Although it is of course a significant event when Congress 
        preempts State regulation on a particular point, Sony believes 
        that electronics recycling is an issue on which State 
        preemption is essential. We and other stakeholders already have 
        to comply with numerous, and sometimes contradictory, State and 
        local e-waste laws. The inconsistency between these programs 
        inevitably creates inefficiencies in the system and minimizes 
        any economies of scale that could be achieved. And since Sony 
        (and likely no other manufacturer) does not build products to 
        be sold in a particular state, adding a federal bill without 
        State preemption merely adds more complexity rather than 
        simplifying and streamlining the process. In the end, a 
        patchwork quilt of different and ultimately contradictory State 
        and municipal laws will only serve to undermine everyone's 
        shared goal of recycling as much electronic waste as 
        efficiently and cheaply as possible.

        <bullet>  Producer Responsibility

           Sony believes that it is the individual manufacturer's 
        responsibility to assure that any product that bears its name 
        is properly recycled using the highest standards possible at 
        the end of the product's life. That said, other stakeholders 
        who directly benefit from the sale or enjoyment of electronic 
        products must also bear some responsibility. More specifically, 
        retailers--at the very least--must take an active role in the 
        collection of e-waste and consumers must be encouraged to take 
        the extra step necessary to properly dispose of their products.

        <bullet>  Market Share

           In order to create a level playing field, any manufacturer 
        obligation should be based upon present market share and not on 
        historical activities or waste collected. Systems based upon 
        the amount of waste collected will give a cost advantage to 
        those companies that are new to the market. Such companies can 
        avoid any recycling cost by simply staying in business and 
        changing their brand or company name every year. Many of these 
        ``no name'' brands are made of lower quality materials, which 
        can contain higher levels of toxic chemicals and may be more 
        difficult to recycle. Any mandate not based upon today's market 
        share will give those companies a ``free ride'' on recycling. 
        This will lower their costs when compared to responsible 
        companies by rewarding manufacturers who avoid their 
        environmental obligations and penalizing responsible companies 
        by putting environmentally-advanced products at a competitive 
        cost disadvantage.

        <bullet>  Products Covered

           Our recycling program covers all of our branded products 
        from movies (i.e., DVDs), to professional equipment used to 
        project movies in theaters, to laptops or televisions used to 
        watch movies at home.

           Sony, therefore, respectfully urges you to adopt one program 
        with one set of requirements which will require full producer 
        responsibility for all products manufactured. The advancement 
        of technology has enabled manufacturers to create an array of 
        products using the same chemicals and metals that are used in 
        the products commonly covered in e-waste recycling mandates. 
        Given this, Sony suggests adopting legislation to target all 
        products that contain these same internal and external 
        components and chemicals.

        <bullet>  Cost

           Sony internalizes the cost of recycling and requests that 
        any mandate require the same. Currently, Sony pays to recycle 
        our old products. While there are several financing mechanisms 
        that allow for recovery of this cost, Sony believes that 
        internalizing the cost is the most effective and fair method 
        for funding a comprehensive electronics recycling program. Such 
        funding mechanisms create market incentives for manufacturers 
        to ex ante design and produce the most environmentally-friendly 
        products possible. In addition, it encourages manufacturers to 
        develop and implement the most efficient and cost-effective 
        recycling procedures. Indeed, it is Sony's ultimate goal 
        through design improvements, the growth of the recycling 
        industry, and economies of scale to drive these recycling costs 
        down, thus making recycling cost effective. Until that time, 
        Sony considers the cost of recycling as part of the cost of 
        doing business.

    Thank you again for the opportunity to testify before the 
committee. Sony looks forward to working with you in developing a 
successful, national e-waste recycling program.

                   Biography for Michael T. Williams
    Michael T. Williams is Executive Vice President, General Counsel & 
Secretary of Sony Electronics Inc.
    As General Counsel, he leads and manages a law department of over 
fifty members which is responsible for providing accurate and timely 
legal advice and guidance and rendering proactive, cost-effective 
counsel to achieve the Company's business goals at prudent risk levels. 
Mr. Williams is responsible for overseeing the environmental compliance 
support program of Sony Electronics and supports the environmental 
compliance activities of several Sony affiliated companies and joint 
ventures located throughout the world.
    As Executive Vice President, Mr. Williams is also responsible for 
managing six other company departments: Corporate Security (including 
supply chain security & brand integrity); Trade Strategy & Compliance; 
Government Affairs; Technologies Standards Office; Community Affairs; 
and Ethics, Compliance and Personal Information Management.
    As Sony Corporation's outside counsel for more than two decades, 
Mr. Williams represented the Company in a variety of litigation and 
business transactions, most notably working on the successful defense 
of the Company in the Go Video dual deck VCR litigation, as well as 
many class action suits.
    Mr. Williams is a member of the American Bar Association; 
Association of Corporate Counsel; State Bar of California; United 
States District Courts in the State of California; and the United 
States Court of Appeals for the Fifth, Eighth, Ninth and Eleventh 
Circuits.
    His professional appointments include Director and member of the 
Executive Committee of the National Association of Manufacturers, 
Director and member of the Executive Committee of the San Diego 
Regional Economic Development Corporation; Past Chairman, City of Palos 
Verdes Estates Planning Commission and Director of the Palos Verdes 
Home Association.
    Additionally, Mr. Williams is active in various charitable 
organizations and events, including benefits for the Special Olympics 
of Southern California, San Diego Homeless Youth Project and ProKids. 
Along with Sony Electronics, he is being honored by the Minority 
Corporate Counsel Association this year for his success in establishing 
a diverse workforce.
    Mr. Williams proudly served his country as an infantry officer in 
the United States Marine Corps. from 1975 to 1979. He received his 
Juris Doctorate, cum laude, from the University of San Diego School of 
Law and a Bachelor of Arts degree, magna cum laude, from Ithaca 
College. He resides in Rancho Santa Fe, CA with his wife and two 
daughters.

                               Discussion

    Chairman Gordon. Thank you, Mr. Williams. I hope it will be 
a few years, but I have a TV I am going to bring back to you 
one of these days.
    Mr. Michael Williams. Not a problem, Mr. Chairman.
    Chairman Gordon. At this point we will open the first round 
of questions, and the Chair recognizes himself for five 
minutes. I am not going to take that. What I am going to do is 
ask--and many of you have been responsive already. I am going 
to submit questions to you and ask your suggestions on any type 
of federal research that might be beneficial both in the back 
end of recycling or the front end in developing technologies to 
make it easier to recycle on the back end, and I also will ask 
you about any other type of federal programs you think could 
expedite this. Your testimony has been very good.
    And now I am going to yield the balance of my time to Ms. 
Richardson.
    Ms. Richardson. Well, thank you, Mr. Chairman. I have 
several questions and I would also like to--I think I will only 
get through a couple, if I could submit the rest into the 
record.
    My first question is, I was very appreciative of Mr. 
Castro. First of all, I represent southern California and 
several of your sites are in my district, so welcome to 
Washington. One of our major issues regarding these recycling 
programs is the cost. California is the only state, as you 
mentioned, sir, with a consumer fee to pay for recycling. 
Almost other states have the manufacturer take the 
responsibility for the recycling cost. Which one of these 
models would you recommend would be best, and this question is 
for both Ms. St. Denis and I think Mr. Williams. My question is 
on the advanced recovery fee in California.
    Ms. St. Denis. Thank you for your question. In our 
experience with the model in California and the models that 
have been developed in other states, we find that where the 
manufacturers are more directly involved in the recycling 
processes, as they are in other parts of the world, the systems 
become more efficient. We are much more tied to actually doing 
the recycling ourselves or having it done on our behalf. I am 
sure Mr. Smith would agree that the more we are involved in the 
recycling, the more we are motivated to find alternatives to 
some of the materials of concern that are in the products. The 
system in California has proved to be somewhat inefficient. 
There is a need for an increase in the fees. That was discussed 
at a meeting earlier this week. And increasing those fees from 
a range of $6 to $10 to a range of $10 to $30, and we see that 
as, you know, a burden on current consumers that is really 
going to pay for the waste of former consumers and so we are 
much more in favor of the producer responsibility systems that 
we are seeing developed in other states.
    Ms. Richardson. Well, Ms. St. Denis, according to your 
testimony, HP, your recycling rate for 2007 was 15 percent so 
it sounds like to me you could use a little help. So wouldn't 
you think maybe a combination of the two, maybe a fee that the 
consumer pays directly and then also a portion that you are 
involved with?
    Ms. St. Denis. So----
    Ms. Richardson. Because 15 percent isn't satisfactory.
    Ms. St. Denis. Well, so the 15 percent is predicated on one 
very important factor, and that is the behavior of the 
consumer. The California system also does not provide any--
neither system provides direct incentives to the customers to 
recycle the electronics. So we do recycle everything customers 
want to give us. Another important fact to note is that none of 
the recycling that takes place in California is counted in that 
15 percent number because we don't do the recycling ourselves; 
it is handled by State agencies. So we can't count that. The 15 
percent reflects only what we do ourselves, which, again, is 
what we are seeing in the states that have legislation 
emerging. The first of those actually took effect in large 
scale in Minnesota this year, so you will see that number go 
up.
    Ms. Richardson. Ms. St. Denis, maybe I am not clear. What I 
thought you said in your answer to the advance recovery fee was 
that it would be better served if you were more engaged and 
involved, and then when I referenced the area that you are 
engaged and involved in, it is only 15 percent of what you are 
saying your role of what you are doing. So what would you--let 
me ask it in a different way. What would you suggest as to how 
we could increase that number or increase consumer education to 
assist you?
    Ms. St. Denis. So I think one thing that is important is to 
educate the consumer about the need to recycle these products 
when they are done with them. We find that they are often 
stored for long periods of time before they enter into the 
recycling system, and when we have events, much like the one 
that you had here last weekend, there is overwhelming demand 
for this service. So people show up with a lot of things to 
recycle but they often don't know that systems exist. We 
manufacturers often advertise this fact as part of our new 
sales but there is a lack of understanding in the sort of the 
general population that they have a responsibility to start 
these products on the way to the appropriate recycling 
solution. There also are states where these products can still 
be landfilled and so in many cases those products escape what 
we think of as the kinds of systems that we put in place.
    Ms. Richardson. And Mr. Williams, what is your thought on 
the advance recovery fee? And I am down to my last minute.
    Mr. Michael Williams. Yes, ma'am. In terms of the advance 
recovery fee, in the past we have supported that but since 
then, as you can tell from my testimony, we believe in producer 
responsibility. We make it, we will take it back. We will take 
responsibility for the product. That being said, the issue with 
advance recovery fees, is the money being collected to address 
legacy issues, manufacturers have gone out of business, or the 
current players in the marketplace. Moreover, with advance 
recovery fees, not all State governments are fiscally 
responsible. The money may be collected on the sale of a 
television, but if it goes into the general fund, we don't know 
where that money is going to be 10 or 15 years from now when we 
may need it. That is where we think federal legislation in this 
area is essential. Moreover, not only should the producer take 
some--take responsibility, but other stakeholders have to be 
involved to make this successful. We need the retailers to be 
involved. They have a stake in this outcome as well as consumer 
education.
    Ms. Richardson. Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Richardson. As usual, you 
had very good questions, and Mr. Hall is recognized for five 
minutes.
    Mr. Hall. Because we are only about 10 minutes away from 
the joint session, I won't ask questions but I will yield to 
Mr. Bartlett, who I think has some interesting questions 
involving Dr. Gingrey's bill. I yield my time to you, Roscoe.
    Mr. Bartlett. Thank you very much, and thank you all for 
your testimony. As I sat here thinking about what I might say 
or ask you, I really was in quite a quandary, because what we 
are dealing with is really a self-inflicted wound, a self-
inflicted problem. We have recycling problems. We have huge 
energy costs in making this equipment that we then throw away. 
We have big environmental problems. Much of this equipment is 
made with planned obsolescence. You just expect the people very 
shortly to throw it away. You design it to dispose of it. You 
don't design it so that it can be repaired or upgraded, and we 
behave as if resources are unlimited like there is unlimited 
amount of energy.
    This morning I noted that in every one of the papers I 
looked at in our Hill newspapers, the major headline on the 
front page of every one of them had to deal with energy and the 
high cost of gasoline, that everybody is being blamed and the 
person that really is to blame for this is the millions of us 
who are out there riding around in our SUVs. The demand is just 
greater than the supply. It is simply a supply-and-demand 
problem which is why the price of gasoline is up. I said this 
was a self-inflicted problem and it really is. Much of the 
equipment, this electronic equipment that is sold is bought 
with discretionary money. You just don't need it. And we have 
to trade off in our society today, what is more important, to 
spend more time with these silly games or to use less energy so 
there will be more of it available for our kids and our 
grandkids. Yet we have a huge beast to feed out there. We have 
this huge industry that is making this stuff, and if you aren't 
buying it and throwing it away, they aren't making it.
    How do we resolve this problem? What do we do? I have 10 
kids, 16 grandkids and two great-grandkids. We are handing them 
a huge debt, not with my votes, if you will look at my voting 
record. Wouldn't it be nice if we left them a little energy? I 
am having a big problem with a society that just wants to 
consume, profligate spending, just play, play, play with no 
thought for tomorrow, no thought for your kids, no thought for 
your grandkids, and here we are today talking about a problem 
that is almost totally self-inflicted. You know, if you want 
to--if people need to work, why can't they work rebuilding this 
equipment and repairing it rather than just throwing it away? 
There is no reason, for instance, that--we don't have frames on 
cars anymore. When we used to have a frame, no reason that that 
wouldn't last 100 years. Why does it have to go to the junkyard 
in 16 or 18 years? You know, these things are not limitless. 
There is a limit to the amount of energy that is out there. 
There is a limit to the amount of these metals and so forth 
that are out there. There is a limit to the capacity of the 
environment to absorb all of these things. How do we reach a 
balance in this so that we aren't looking just to the next 
election pandering to people so we will get elected, so that we 
aren't looking just to the next quarterly report so that it 
will look good so that your stockholders feel good about you 
and invest even more money in you? How do we strike a balance 
that looks long term to the future?
    Mr. Smith. If I could start a response, I think--I agree 
with everything you said and I think that the strategy of 
trying to bring in a producer-responsibility approach into the 
United States and really importing that policy initiative from 
Europe and elsewhere is at least a part of the solution, 
because what that does is to internalize the costs of 
production into the full life cycle of the product, and if the 
producers have to be responsible for those costs throughout the 
entire life cycle, they are going to tell their designers, you 
know, let us figure out a way to make these products last 
longer, be more efficient and be less expensive throughout the 
life cycle. So the point is that if they have to pay for the 
costs of recycling and disposal, we think that that is going to 
send some important design signals up to the front end where it 
really belongs. It will help shift that focus. It is probably 
not going to solve all the questions that you are raising 
because I do think that the rapid obsolescence is the major 
thing.
    You probably know of Moore's law, which was based on Gordon 
Moore, one of the founders of the semiconductor industry. If 
you look at the slope of change in the industry, it looks like 
this. It is a logarithmic scale going straight up to the sky. 
When you look at the slope of the environmental and social 
improvements that we have, it is a much shallower slope like 
this. I think our job is to try to figure out how to make those 
slopes be coincidental, and right now we are way out of whack 
on that, in my opinion.
    Chairman Gordon. Thank you, Mr. Williams, and Mr. Hall is 
recognized for a unanimous-consent request.
    Mr. Hall. Mr. Chairman, EPA has provided a written 
statement to us and I ask unanimous consent that the statement 
be included in the written record and that any questions 
Members might have for EPA and their answers also be included, 
and I thank you.
    Chairman Gordon. Thank you, Mr. Hall, and I will raise you 
one. Mike Thompson, the Chairman of the E-Waste Caucus also has 
a statement that he would like to submit and I ask unanimous 
consent that that be made part of the record.
    Mr. Hall. I object.
    Chairman Gordon. I think he is kidding.
    Mr. Hall. I withdraw my objection.
    Chairman Gordon. If there is then--since there is no 
objection, those two records will be made a part of the record.
    [The information follows:]
       Prepared Statement of Representative Mike Thompson (D-CA)
    Thank you for the opportunity to comment briefly on electronic 
waste, or ``e-waste.'' I appreciate Chairman Bart Gordon and Ranking 
Member Ralph Hall allowing me to submit these remarks to the record as 
part of your hearing on e-waste, a subject I've been involved with 
since I was first elected to Congress.
    As you will hear today from the other witnesses, electronic 
products are becoming smaller and lighter, but they also are creating 
an ever-growing environmental and waste disposal problem. That's 
because it's often cheaper and more convenient to buy a new PC or cell 
phone than to upgrade an old one. Today, the average lifespan of a 
computer is only two years and Americans are disposing of 3,000 tons of 
computers each day.
    The buildup of e-waste on the local and State level has led sixteen 
states, including California, Tennessee and Texas, to implement their 
own e-waste laws--each very different from one another. Thirteen 
additional states are also considering e-waste legislation. As states 
continue to develop their own approaches, the need for a federal 
solution grows. Without federal action, both consumers and businesses 
will have to contend with an unmanageable patchwork of State laws. This 
might also put many U.S. manufacturers at a competitive disadvantage if 
they have to juggle multiple State regulations.
    As the founder of the Congressional E-Waste Working Group, I along 
with co-chairs Congresswomen Louise Slaughter and Mary Bono Mack, and 
Congressman Zach Wamp, with the assistance of Congressman Wynn and 
Senators Ron Wyden, Maria Cantwell, and Sherrod Brown recently 
submitted a comprehensive concept paper to nearly 60 stakeholders in 
the electronics industry. Five of the six witnesses on your panel this 
morning received the paper and have since commented on it. I want to 
thank them for their valuable feedback and I look forward to working 
with them in near future as we craft this important legislation.
    The concept paper represents an important step towards enacting a 
federal e-recycling solution. It relies on an extended producer 
responsibility model, with manufacturers, retailers and recyclers 
sharing the responsibility for establishing and maintaining a national 
program to collect, transport, reuse and recycle e-waste with little or 
no cost to consumers or government. The document incorporates many of 
the principles articulated in e-recycling proposals and comments put 
forth in past years by electronics manufacturers, the environmental 
community, retailers, recyclers, waste handlers, the states, and other 
interested groups. It also addresses the exporting of e-waste to third 
world countries, the role of the states and the Environmental 
Protection Agency, and creates incentives for greener production and 
reuse.
    Thank you for bringing much needed attention to this issue and to 
allow us to gather expert testimony on the problem of e-waste. The 
other members of the E-Waste Working Group and I look forward to 
working with you as we work towards enacting a comprehensive plan to 
reduce e-waste in a way that considers the interests of all 
stakeholders.

    Chairman Gordon. Mr. Lipinski, you can close us out.
    Mr. Lipinski. Do we really have any time, Mr. Chairman?
    Chairman Gordon. Well, we don't have much. If you want to 
have one question or statement.
    Mr. Lipinski. I just want to say that there has to be some 
way of working this in. Very quickly, one thing that I find 
difficult is not knowing as a consumer what needs to be 
recycled. I had a VCR, and I wasn't sure, can I throw this in 
the trash, what do I do with this, so the information to begin 
with, and what is it--very quickly, Mr. Williams, why is Sony--
why did Sony take this step? Why is Sony doing as much as you 
are doing?
    Mr. Michael Williams. It is the right thing to do, number 
one. Number two, because it makes sense. You are being the 
responsible producer. You hope that people have brand loyalty 
and that you take responsibility for your product. I want to 
design and build in, as Ted was talking about earlier, in terms 
of market efficiency. If I know it is going to be recycled, I 
am going to design it with parts and machinery with that in 
mind. So it makes sense for us from an economic point of view 
to recycle the products, to create recycled waste for, let us 
say, as an example, plastic, so I have enough of a supply of 
post-consumer recycled plastic that I can use in my new models, 
and so we have to create the supply of the recycled material in 
order to put it into our new products. The way we do that is to 
get our consumers who have the Sony products to bring them to 
us and to recycle them. So it is in our interests, it is in the 
environment's interest to do what we are doing today and also 
to educate the American public that going green is good for 
business, it is good for the environment. It is a win-win 
situation. But it is going to take some work and effort on the 
part of Congress through initiatives, legislation, and on the 
part of industry to educate the American consumer why it is in 
everyone's interest to recycle responsibly and properly.
    Mr. Lipinski. I commend Sony on that, but I agree that 
there is more that we are going to have to do to make sure this 
is done across the board. Thank you.
    Chairman Gordon. Thank you, Mr. Lipinski.
    Before we bring the hearing to a close, I want to thank our 
witnesses for testifying today. Mr. Hall also would like to 
know where to take his Victrola.
    Mr. Michael Williams. I don't think that has the Sony brand 
on it.
    Chairman Gordon. The record will remain open for additional 
statements from Members and for answers to any follow-up 
questions the Committee may ask of the witnesses, and let me 
ask, is there anyone that wants to ask the witnesses to come 
back after the joint hearing? If not, then again, I want to 
thank our witnesses. We are going to submit additional 
questions to you. This is an issue that this committee is very 
interested in, and we consider this one of our major areas of 
concern this year, and as I say, we are interested in knowing 
on the federal level--if there is--we are not looking to do 
something if there is not something there to do, what we can do 
in terms of research to help on the recycling end, and if there 
is something on the front end to make it easier to recycle as 
well as other areas.
    So with that, the witnesses are excused and the hearing is 
adjourned.
    [Whereupon, at 10:58 a.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Eric D. Williams, Assistant Professor, Department of Civil 
        and Environmental Engineering and School of Sustainability, 
        Arizona State University

Questions submitted by Chairman Bart Gordon

Q1.  You state in your testimony that you and your colleagues' review 
of the scientific literature concluded that the risks associated with 
disposing electronics in sanitary landfills are negligible. You also 
mention that the EPA's Toxicity Characteristic Leaching Procedure 
(TCPL) test is ``more aggressive'' than the actual conditions in 
landfills. What type of further study is needed to accurately assess 
the environmental and human health impacts of electronics disposed in 
landfills?

A1. It is possible that the core research establishing the risk of 
toxics leaching from sanitary landfills is mainly done. I suggest that 
if the National Research Council were asked to do a study on the 
interfaces between the risk of toxics leaching from landfills, the TCLP 
test and e-waste that it would be a valuable step to gauge the degree 
of scientific knowledge and consensus on this issue. This report would 
clarify if and what further work is needed.
    I think an important related issue is the potential to mine 
landfills at a later date to recover valuable materials. Existing 
research suggests that despite favorable concentrations of valuable 
materials in landfills compared to ore deposits, the relatively small 
size of the landfill ``deposit'' pose a challenge to recycle from 
landfills at low cost. There are strategies however which ought to be 
researched. One strategy is to consider how defining a new waste 
category as material destined for future recovery would affect the 
economics and environmental issues associated with mining landfills. A 
second strategy to work on developing materials recovery processes 
which economically scale favorably down to smaller deposit sizes.

Q2.  You say in your testimony that end-of-life management for 
electronics is a qualitatively new challenge and that we do not have 
the proper tools to measure the impacts of recycling and other end-of-
life policy options. What types of tools do we need to make these 
assessments and what type of research is necessary to develop these 
tools? Which agencies would be best to fund this type of research and 
how should it be prioritized?

        <bullet>  What funding opportunities exist in addition to the 
        National Science Foundation's Environmental Sustainability 
        Program to study and assess the end-of-life management of 
        electronics and other products?

        <bullet>  You mention in your testimony that Japan is investing 
        more than the U.S. to characterize and plan for the management 
        of international end-of-life flows for a variety of consumer 
        products. By not investing in the analysis of this issue, is 
        the U.S. at a competitive disadvantage?

A2. What opportunities exist other than NSF Environmental 
Sustainability to support research related to end-of-life electronics? 
To summarize, few and far between. Regions 4 and 5 offices of the USEPA 
have supported the work at the University of Florida on leaching 
potentials from landfills. While in principle research on electronics 
reuse/recycling could be supported as part of federal and State 
programs addressing waste related issues, I know of no dedicated 
programs devoted to e-waste. In practice, it is definitely an 
underfunded area.
    The NSF and EPA are natural agencies from which to base future 
research on management of end-of-life electronics. NSF could focus on 
the more fundamental knowledge needs while EPA could focus on 
applications. I hesitate to prioritize research topics in an ordered 
listed as society needs to decide what aspects of the end-of-life 
electronics it deems most important and weigh issues accordingly. I 
scope out below how I view the main challenges and some of the research 
related to addressing these challenges:

        <bullet>  Global environmental impacts--from a global 
        perspective the main environmental impacts associated with end-
        of-life electronics are probably due to informal recycling in 
        developing countries. Research addressing this would include 1. 
        exploring policy/business models to develop new systems for 
        managing global end-of-life flows 2. research into alternative 
        recycling technologies.

        <bullet>  Domestic environmental impacts--for people in the 
        U.S. I believe the main potential exposure issue is brominated 
        flame retardants. Research is needed to determine the risk of 
        these substances and to develop and assess alternatives in view 
        of the improved fire safety gained from flame retardants. The 
        energy use associated with production and manufacture of 
        equipment is an important issue to consider from global warming 
        and resource scarcity perspectives. Potential health impacts 
        due to exposure to electromagnetic fields should also receive 
        more attention.

        <bullet>  Social and economic benefits--Reuse and recycling of 
        electronics is an important economic activity and access to 
        low-cost used machines delivers social benefits. On the 
        technology side, developing informatics systems such as RFID 
        tags can help improve the functioning of reuse/reusing. Also, 
        work is needed to develop and assess electronics policy 
        alternatives which encourage reuse.

        <bullet>  Applications of Information Technology--while I 
        understand the focus here is on end-of-life management issues, 
        it is also important to bear in mind that there are many 
        important environmental applications of information technology. 
        The potential benefits outweigh much of the environmental risk 
        of equipment in my opinion. More research is needed to develop 
        and promote adoption of applications such as home energy 
        management systems, Internet-enabled ride sharing programs, and 
        telecommuting.

    News tools and methods to be developed in this research include 
multi-issue models of alternate reuse/recycling systems, computer-aided 
toxicity screening methods, materials/emissions models of different 
recycling processes, simulation models of environmental/economic/social 
implications of different global paths for electronics, and designs for 
informatics systems supporting reuse and recycling (e.g., RFID 
systems).
    Is the U.S. at a competitive disadvantage compared to Japan due to 
its relatively small investment in research and development related to 
green electronics? Potentially yes, although the economic impacts are 
difficult to gauge. There are two aspects, manufacturing and reuse/
recycling. For manufacturing, Japan has been proactive in responding to 
the European Directive on Restriction on Hazardous Substances which 
regulates materials used in electronics. U.S. manufacturers on the 
other hand objected to the European legislation on scientific grounds 
and have been less willing to respond. I believe U.S. manufacturers had 
valid concerns about policy developments in Europe, but at the time 
there was insufficient research activity by neutral parties (e.g. 
academia) in the U.S. engineering/scientific community to weigh in 
substantively on the debate. Ultimately the European legislation went 
through in spite of the questions raised by U.S. industry. The outcome 
is that the Japanese electronics is relatively well situated to deliver 
products meetings the new regulations in Europe and elsewhere.
    Considering the end-of-life, Japan is also being proactive in 
working to assess and address concerns being raised regarding the 
environmental impacts of international flows of end-of-life 
electronics. The relative lack of response in the U.S. may have been 
based on the perception that environmental problems of end-of-life 
electronics abroad are the jurisdiction of recipient countries. 
However, public pressure on this issue is resulting in response even if 
the Federal Government takes no action. Many nations are implementing 
bans on importing e-waste. NGOs are developing guidelines for 
environmentally friendly recycling practices which many firms follow in 
order to maintain a positive perception by customers. The result is 
that U.S. manufacturers are increasingly acting in an policy 
environment in which the U.S. had has little voice. Investments in 
research and development are part of a process through which the U.S. 
can engage in and influence the international discourse.
    In addition, the internationalization of reuse and recycling may 
present a business opportunity for those firms situated to take 
advantage of trends. For example, there is an increasing international 
need for technologies and facilities which can safely recover valuable 
metals from circuit boards. Japanese smelters such as those operated by 
Dowa Holdings have advanced technologies and could serve future 
international markets for recycling services.

Q3.  In your testimony you propose interesting ideas to facilitate 
reuse and prevent harmful recycling practices in developing countries. 
What would be needed to develop and evaluate ideas like the use of 
Radio Frequency Identification (RFID) technology to indicate 
functionality or link a recycling deposit to a piece of equipment? How 
can innovative management options be encouraged?

A3. The first step is a set of high-level feasibility studies exploring 
technological, economic and other aspects of different proposals. Based 
on the result of these feasibility studies, specific research is needed 
to develop the most promising options. Some of this research will be 
product engineering/technology related, such as the design and 
integration of RFID tags in computers. Another aspect of the research 
relates to design and operation of the overall system, which should 
integrate engineering, business and social aspects.
    How can innovative management options be encouraged? It may be that 
the new technology and management system go hand-in-hand with new 
policy. For example, one proposal my colleagues and I at Arizona State 
have made is for an electronics take-back system which establishes an 
Internet market in which reuse and recycling companies compete to offer 
consumers rebates on a prepaid recycling deposit. This system would 
utilize RFID and other information infrastructures. Thus in this case 
the innovative management system is integrated with policy. A general 
strategy to encourage innovative management options is to encourage 
joint industry/academic research to couple academic understanding of 
the issues with real world commercial systems to enable workable 
solutions to real problems.

Q4.  What policy tools would you suggest to compel electronics 
producers to consider end-of-life management in their product designs? 
If CRTs are permitted into landfills, how do we encourage green 
engineering and the thorough evaluation of materials before they are 
used products?

A4. To summarize my response, I recommend first exploration of 
voluntary product certification and take-back systems which explicitly 
create a market for improved designs. There are three types of policy 
tools currently on the table. The first is command-and-control 
mandating of design aspects, the European Directive Restriction on 
Hazardous Substances is the prime example of this approach. Though not 
addressing recycling, there is precedent for this type of approach in 
the U.S.: the appliance efficiency standards managed by the Department 
of Energy.
    The second type of policy is voluntary certification programs such 
as Energy Star. A new computer certification scheme, EPEAT, includes 
recycling and reuse related aspects. Voluntary certification programs 
seem to have an effect well beyond the demand of individual consumers 
for green products. This is partly because green purchasing programs 
for organizations create a market for certified products which one 
designed spills over into other markets. Another factor is that firms 
compete to gain certification as a means to establish an image of a 
socially responsible corporation.
    The third approach is economic instruments. Making manufacturers 
responsible for recycling under the mantle of Extended Producer 
Responsibility (EPR) is a popular approach. The challenge is to develop 
a system which is both workable in practice and provide a clear 
economic incentive to improve design. Take-back systems have yet to be 
successful in inducing substantial design shifts. One strategy is to 
develop take-back system which explicitly create a market over which 
manufacturers and reuse and recycling firms compete to deliver more 
efficient services. We are developing such a concept at Arizona State 
which we term the e-market for e-waste. The idea is that at the end-of-
life firms compete to offer consumers higher levels of return on a 
prepaid recycling fee.
    How do we encourage green engineering and thorough evaluations of 
material used in products? In short, I believe work is needed to build 
a method and modeling infrastructure which allows for a realistic 
assessment of the macroscopic risk associated with using different 
materials in products. Based on results from these macro risk 
assessments, stakeholder groups recommend on a product by product basis 
appropriate green engineering incentives such as voluntary 
certification, economic tools and/or regulation.
    There are two aspects of managing toxics. The first is assessing 
the toxicity of a substance. Given the variety of new chemicals and 
materials being developed and in use combined with vastly more 
sensitive detection equipment, this assessment is a significant 
challenge. Computer-based modeling of substances and their biological 
activity will presumably better help us screen toxicity. I suggest that 
more resources be devoted to developing such models. This being said, 
for the foreseeable future we will still need empirical work on fate, 
exposure and epidemiological effects, which also requires research 
resources.
    The second aspect of managing toxicity is assessing how toxics in 
products might actually end up with exposures and damage health. 
Surprisingly this is not often studied. For example, given all the 
attention given to the potential risks of lead leaching from CRTs, one 
would assume that there are many existing studies which total up the 
total potential lead emissions from CRTs going to landfills and show 
that the potential leaching is significant compared to other problems 
we have with lead, such as paint or pipes in legacy buildings. 
Apparently no one has done this yet. Much more work needs to be done to 
scale up the product level content of toxics to potential macroscopic 
levels of risk. The result of not doing this research is that 
regulations are liable to equate toxicity with hazard, resulting in 
inefficient and ineffective regulation.

Q5.  In traditional undergraduate engineering curriculum, how much 
attention do life cycle assessments and end-of-life management receive? 
What types of changes can be made to encourage our future engineers to 
prioritize these issues?

A5. In general, very little attention is given to LCA or other 
sustainable engineering issues. There are exceptions where an 
instructor will find a way to work such material in, but currently such 
material is hardly ever part of an official curriculum.
    I believe that in the future we need to incorporate sustainability 
aspects into core engineering curricula to introduce all students to 
basic issues and methods. In addition, we need to provide avenues for 
students interested in sustainability to learn in depth.
    The Center for Sustainable Engineering, a joint initiative by 
Carnegie Mellon, the University of Texas--Austin, and Arizona State 
University is funded by both NSF and EPA and aims to integrate 
sustainability aspects including LCA into engineering curricula. It is, 
however, a beginning effort, and there should be much more attention 
paid to this requirement.

Q6.  In your testimony, you propose a method to make the informal 
recycling of electronics safer in developing countries, where workers 
would be paid for targeted parts like wires, but not the actual 
commodities. This would discourage them from unsafely processing 
materials. Who should invest in evaluating and developing innovative 
markets to end or mitigate harmful recycling practices abroad?

A6. Who should invest in subsidy system to prevent informal recycling 
in developing countries? It is my view that if an organization or 
individual in the U.S. or another country receives economic benefit due 
to exporting end-of-life electronics, this should also entail an 
investment to ensure safe recycling abroad. Practically speaking this 
could mean that recycling fees collected domestically for take-back 
systems would involve international monetary flow if the equipment is 
exported. Domestic generation of e-waste in developing countries is 
increasing and monetary flows should be mobilized internally to ensure 
safe recycling.
    There is in addition an economic investment associated with initial 
research development of knowledge and technology bases to enable the 
new reuse/recycling systems. There is a strong argument that much of 
this R&D should be undertaken by developed areas such as the U.S., 
Europe and Japan.

Questions submitted by Representative Ralph M. Hall

Q1.  How have electronics in the waste stream changed over the past 
decade and what predictions can we make about changes in the coming 
years? How do these changes affect our ability to safely and 
efficiently recycle or reuse these devices?

A1. This is a very pertinent question given the rapid evolution of 
products in the sector. There are three main issues. One is changes in 
the use of precious metals in electronics over time. In the late 1980's 
and early 1990's products used to contain substantially more gold, 
silver and other precious metals, which made recycling more 
economically attractive. These amounts have gone down over time. There 
are contravening trends however. High capacity hard disks tend to 
contain more platinum than previous generations. At any rate, it is 
difficult to design recycling systems where the economic are a moving 
target.
    The second issue is the increasing diversity of devices. E-waste is 
no longer only televisions, stereos and desktop computers, it is also 
laptops, VCR and DVD players, game consoles, cell phones and personal 
data assistants. Uniform waste streams are generally easier to recycle, 
but e-waste has become more and more diverse.
    The third issue is that many of these new product types such as 
laptop computers and cell phones are switching to smaller more packed 
designs which are harder to disassemble.
    One result of this trend has been the increased use of shredders. 
Products with valuable components such as components may be dissembled 
by hand but most others tend to be put into a shredder after removing 
certain parts of concern. Material recycling rates for shredder-based 
systems are reasonable but clearly the level of reuse is reduced.

Q2.  Most major manufacturers claim that they do not ship e-waste 
oversees for recycling. Where does the e-waste found in environmentally 
unsound recycling operations originate?

A2. With the exception of equipment leased by the manufacturer, the 
end-of-life fate of electronics is in the hands of the purchaser, not 
the manufacturer. Reuse and recycling companies who ship abroad can 
often offer to pay for the equipment rather than be paid by the 
disposer to recycle domestically, so there is a natural economic 
incentive to choose those firms which ship abroad. Looking at recycling 
operations abroad, reports by NGOs suggest that a substantial part of 
the e-waste being recycled was originally from the U.S. and other 
developed countries.

Q3.  What are some of the toxic hazards that arise in the recycling 
process itself?

A3. For informal recycling the big problems are obvious. Open burning 
of wires to recover copper generates dioxins, furans and other toxics. 
Acid and cyanide leaching of circuit boards create serious pollution 
problems unless properly managed.
    For formal recycling the situation is much less clear. Recycling 
circuit boards usually involves melting the boards in a copper smelter. 
The resulting slag is then processed to separate the different metals. 
The heat of the smelter releases toxic substances such as lead and 
mercury as well as various brominated organics. With appropriate 
technologies one would presume that these toxic emissions are 
controlled. There is a dramatic lack of information on the emissions 
and energy use in different stages of recycling. It is worth noting 
that copper smelters in the U.S. are reluctant to recycle scrap circuit 
boards because of the entailing difficulty to meet EPA air regulations. 
More research is needed to clarify the materials use and emissions 
associated with different recycling methods.

Q4.  You lay out an ambitious agenda for what needs to be done from an 
R&D standpoint. However, accomplishing this work requires a skilled 
science and engineering workforce in green engineering. Do U.S. 
universities train a workforce sufficient for this task and if not how 
many more programs would be required in order to fulfill this need?

A4. For e-waste and other environmental issues such as climate change 
the U.S. needs a human workforce expert in sustainable engineering. 
While training of such engineers and scientists is increasing, I 
estimate that we are still not yet near to meeting the potential demand 
for sustainability engineers and scientists. This is a three pronged 
challenge. The first is to encourage more transdisciplinary engineering 
education in areas such as sustainable engineering and earth systems 
engineering and management. The second is to improve disciplinary 
education by introducing students to real world social and 
environmental complexity entailed in their engineering area. The third 
is to introduce concepts of sustainable engineering in K-12 as well as 
in undergraduate/graduate education, ensuring that we have a more 
technologically competent workforce generally.
    While it is difficult to give a precise number for a desired number 
of programs, in green electronics the U.S. would benefit from several 
centers capable of research and training in different aspects of the 
challenge. Some centers could focus on more technical issues such as 
development and assessment of new materials while other could be more 
interdisciplinary and integrative in nature. Considering sustainable 
engineering more broadly, the Federal Government could play a key role 
in promoting sustainable engineering by increasing funding to NSF, EPA 
and DOE towards university research programs.

Q5.  What organizations in the U.S. and abroad are capable of 
performing assessments on recycling, reuse, and landfilling processes 
and practices?

A5. I cannot here review the full set of organizations around the globe 
with capacity to address this issue, I mention a few of the main ones 
currently active on green electronics. Focusing first on the domestic 
situation within our universities, between myself, Braden Allenby and 
our collaborators and students, Arizona State University has a group 
which is strong at LCA and an integrative systems perspective. Timothy 
Townsend and collaborators at University of Florida have particular 
experience and capacity to study landfills issues. Hong Zhang and 
collaborators at Texas Tech University have been working on developing 
new recycling technologies. A group at University of California-Irvine 
has been working on engineering and assessment issues related to lead-
free electronics.
    Manufacturers, including U.S. based Dell and HP have personnel 
dedicated to green electronics issues. The groups are small and mainly 
focused on compliance issues. Japanese manufacturers in comparison 
support research and development groups devoted to life cycle 
assessment and development of green electronics.
    The U.S. EPA Office of Solid Waste has experience and expertise 
related to e-waste. Claire Lindsay, Robert Tonnetti and Angie Leith 
have been involved in important e-waste related work such as the recent 
benchmark assessment of generation and disposition of end-of-life 
electronics in the U.S. Lawrence Berkeley National Laboratory is very 
active with regards to operational electricity use for electronics, 
though not end-of-life issues.
    Looking abroad to Europe and Japan one sees a comparatively large 
degree of research and industry activity related to green electronics. 
The University of Delft has been active in assessing take-back and 
recycling policies. One of the Frauenhofer Institutes in Germany is has 
a substantive group active in electronics manufacturing and e-waste. 
The Swiss federal research institute EMPA is the home to what is the 
largest research project addressing international issues related to 
reuse and recycling of electronics. Japan is very active both in terms 
of technology issues and larger systems assessment. The National 
Institute of Environment is a laboratory sponsored by the Ministry of 
Environment and is prominently active is characterizing international 
material and product flows. The Institute for Advanced Science and 
Technology, sponsored by the Ministry of Economy, Trade and Industry is 
active in both life cycle assessment of electronics and green design 
issues.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 100 million computers, TVs, and monitors are thrown away each 
year. In addition, the EPA estimates that electronic waste is growing 
two to three times faster than any other waste stream. Yet presently, 
there is no specific federal law or regulation governing the disposal 
of consumer electronic products in the U.S. Should there be?

A1. The short answer is yes. Various states are developing and enacting 
their own electronics take-back and recycling systems. A patchwork of 
State-level systems is inefficient and manufacturers have to devote 
significant resources just to keep up with the different regulations. 
Plus, states have fewer resources to invest in research and development 
to develop and assess alternatives and thus have largely borrowed much 
from systems abroad. As I discussed in my testimony, were based more on 
simple heuristic goals which may not be efficient.

Q2.  The EPA estimates that at most, only 15% of products at the end of 
their useful lives reach a recycling or reuse program. This does not 
come as a shock to me. In fact, it might seem a little high given the 
impediments that consumers currently face.

        <bullet>  First, how are average consumers to know what to do 
        with their e-waste when it comes to the end of its useful life?

        <bullet>  This past weekend, Washington, D.C. held an e-waste 
        recycling day. Over ten times as many residents as last year 
        showed to recycle their gadgets, leading to over two hours wait 
        time. The incentives to recycle just don't seem to be there 
        right now. What do you recommend be done to fix this problem?

A2. Municipalities are traditionally charged with informing average 
consumers about how to recycle. Depending on the community the level 
and effectiveness of this communication varies considerably. 
Communication may be enhanced by linking in with people's personal 
computers. I.e., there could be pre-installed applications on computers 
which hook up with databases with information on the recycling and 
reuse practices of different locales.
    Also, if the take-back and reuse/recycling system includes a 
financial incentive to return machines (i.e., a returned deposit), I 
suspect that word of mouth becomes a more effective means of 
communication. One way to introduce such an incentive is a new type of 
take-back system we are developing at Arizona State. The basic concept 
of the e-market for e-waste model is that at the end-of-life firms 
compete to offer consumers higher levels of return on a prepaid 
recycling fee.
    Regarding the unfortunately long wait times at the DC event, I 
suspect that periodic recycling events are a temporary way-station on 
the path to a national reuse/recycling system. In an organized system 
these events would not be needed. Until we get a national system 
however recycling events will remain one way to collect equipment. Some 
problems might be avoided is a manual of best practice was developed 
and made widely available to those planning such events.

Q3.  The European Union is often ahead of the United States when it 
comes to the issue of recycling. Where do U.S. capabilities stand as 
compared to Europe on the topic of e-waste?

A3. Currently behind. Europe and Japan have advanced smelters with 
experience in recovering precious metals in circuit boards. The 
university and government research base is larger and governments have 
mandated take-back and recycling systems. On the other hand, the U.S. 
does have a fifteen year history of addressing green electronics issues 
through the IEEE International Symposium on Electronics and the 
Environment which has been held annually since 1993. This is an 
important base of results and expertise to draw on.
    Still, I believe that the U.S. has strong potential to become a 
world leader in efficient reuse and recycling systems. We have 
excellent research universities and a tradition of partnership between 
universities and industry. The U.S. is more oriented towards combining 
environmental solutions with free market efficiencies. Given the 
importance of reuse in environmental performance this emphasis should 
serve us well. The U.S. economy has shown a particular adaptability and 
openness to adopting new technologies such as the Internet and its 
applications.

Questions submitted by Representative Bob Inglis

Q1.  In your testimony you suggest that take-back systems could have an 
adverse effect on reuse. Can you expand upon this? If most reuse occurs 
in developing nations, wouldn't take-back campaigns give companies the 
opportunity to efficiently redistribute their wares?

A1. Yes, take-back campaigns do present an opportunity for reuse, 
whether reuse is helped or hindered depends on the implementation. Many 
existing take-back systems measure success in terms of achievement of 
domestic materials recycling and do not include incentives for reuse. 
In Japan, for example, some equipment manufacturers have a policy of 
disassembling any product which they receive through the take-back 
system regardless of its newness and condition. This practice is 
supported by high recycling fees paid by consumers and without the 
system it is more likely that some of the equipment would have been 
reused abroad. On the other hand, a take-back system designed with 
reuse in mind could enhance the collection of reusable machines in good 
condition for export.
                   Answers to Post-Hearing Questions
Responses by Gerardo N. Castro, Director of Environmental Services and 
        Contracts, Goodwill Industries of Southern California

Questions submitted by Chairman Bart Gordon

Q1.  You mentioned that Goodwill does expect an influx of televisions 
due to the digital transition. Has your organization made plans for how 
it will handle this increased volume?

A1. Goodwill Industries of Southern California is making plans to 
increase our staffing and infrastructure to ensure that we are ready to 
accept, store, and ship an increased number of analog televisions. In 
addition, we are exploring opportunities that would allow us to provide 
people who buy working analog televisions with coupons that would 
enable them to purchase digital converter boxes at a reduced cost. In 
addition, we are exploring partnerships to expand our ability to 
process electronic waste. For example, after the April 30 hearing, we 
met with representatives from Sony to explore a partnership between 
Goodwill and Sony. We are still working out the details of the 
partnership.
    Goodwill Industries International, Inc. is working to build 
collaborations modeled after the Dell Reconnect program and ideally 
would like electronic manufacturers to work collaboratively together. 
Local Goodwill agencies may have different plans for the transition. 
Some have simply chosen not to accept analog televisions; however, they 
still expect that they will receive analog televisions left at donation 
sites during hours when the sites are not staffed.

Q2.  In your testimony, you mention that Goodwill is unable to resell a 
substantial number of the electronic products they receive. Is this 
mainly an issue of durability or obsolescence? What types of design 
changes would help in the repair and upgrade of this equipment?

A2. When Goodwill receives electronic products, we inspect them to 
determine whether they are working. Those that are working, we resell 
them in our stores. However, we often discover that the electronic 
product is not working. While many of the non-working computers we 
receive could be candidates for being refurbished, due to planned 
obsolescence in the design of hardware and software, we have found that 
replacements for non-working parts are often no longer being produced 
by their manufacturers.
    Incentives to design standardized products and components that are 
universal and interchangeable would help to lengthen the life of 
electronic products. For example, universal chargers for cell phones or 
universal printer cartridges for printers would help to reduce the 
amount of electronic waste that we receive while extending the life of 
discarded working electronic products.

Q3.  In your testimony, you state that about 20 percent of the products 
you receive are neither resold nor dismantled into salvageable and 
recyclable parts and are sent directly to recyclers. What prevents the 
dismantling of these products by Goodwill employees? Also, what type of 
oversight do Goodwill agencies use to ensure that they are contracting 
with responsible recyclers?

A3. The bulk of the products that we send directly to recyclers are CRT 
monitors that are not working and we are not able to resell. The proper 
process for dismantling and breaking down electronic products that use 
CRTs and other hazardous materials requires costly and expensive 
equipment and facilities. Acquiring the in-house capacity to process 
CRTs would represent a sizable investment from Goodwill Industries of 
California. It makes better financial sense for Goodwill Industries of 
Southern California to send CRT monitors directly to recyclers. Because 
these recyclers are authorized by the State of California, we are 
assured by the State of California, which audits recyclers to ensure 
that products are being recycled properly, that the recyclers we use 
are responsibly processing the CRT monitors we send.

Q4.  In your testimony, you state that the Federal Government can play 
an important role in assisting the development and sustainability of 
electronics recycling and reuse infrastructure. What specifically could 
the Federal Government do to bolster this industry?

A4. First, the Federal Government could create a nation-wide financial 
mechanism to help stakeholders--including producers, recyclers, 
collectors, states and municipalities--to support efforts to collect, 
reuse, and recycle electronic products. For example, the Federal 
Government, by utilizing incentives, could aid and encourage necessary 
private sector investment in the used electronic recycling/reuse 
markets. This can be done through tax credits for manufacturers who 
partner with social agencies, recycling grants, and other initiatives 
that could spur innovative solutions and help stakeholders handle this 
problem. A partnership consisting of government incentives, private 
industry and social agencies can protect the environment, create jobs 
and spur innovation in the environmental field. Additionally, increased 
federal support for pilot projects and other sustainable initiatives 
would be helpful in promoting the development of a recycling/reuse 
infrastructure.
    Second, create disincentives, such as phasing in a nationwide 
landfill ban, for disposing electronic products, including televisions, 
in landfills.
    Lastly, the Federal Government also can play a key role in 
educating consumers about how to properly dispose of their unwanted 
electronic products.

Questions submitted by Representative Ralph M. Hall

Q1.  How have electronics in the waste stream changed over the past 
decade and what predictions can we make about changes in the coming 
years? How do these changes affect our ability to safely and efficiency 
recycle or reuse these devices?

A1. Goodwill Industries of Southern California is seeing a huge 
increase in the volume and variety in electronic products that are 
donated. Spurred by the production of cheaper electronics, rapidly 
advancing technology, and the emergence of popular electronic gadgets, 
the consumption of electronics is dramatically increasing while the 
lifespan of electronics is relatively short.
    In the past, many electronic products were designed such that it 
made financial sense to repair them when they broke. Today, it is often 
cheaper to discard malfunctioning consumer electronics and to replace 
them with newer and more technically advanced products. Recycling 
begins with design. Manufactures should be encouraged to design 
products that are more easily refurbished and recycled.

Q2.  How does Goodwill train its employees to properly disassemble 
electronic equipment? What are the greatest challenges to quickly and 
efficiently breaking electronics down into basic commodities?

A2. Goodwill Industries of Southern California's training program 
consists of an eight-step de-manufacturing process. People with 
disabilities are taught each task in the process one step at a time. 
When they show that they have learned that specific task and can 
perform it safely, we teach them the next task in the process. For a 
variety of reasons, such as a physical impediment, some people may not 
be suited to perform certain tasks in the de-manufacturing process. 
However, we still teach our employees about all the tasks to build 
teamwork and a better understanding of the complete process.
    Design variety represents a significant challenge for the Goodwill 
employees that de-manufacture electronic products. The de-manufacturing 
process could be streamlined if manufacturers produced products that 
met certain universal design criteria.

Q3.  Dr. Williams suggests that some take-back programs have an adverse 
effect on reuse. Do you agree with this assessment: What effect does 
your organization see on reuse of commodities like cell phones due to 
the increase in take-back campaigns?

A3. Goodwill Industries of Southern California has not experienced an 
adverse affect on the reuse of electronic products due to the 
implementation of California's law, which involves an advanced recovery 
fee. Goodwill Industries of Southern California is an authorized 
collector under California's program. Whether the donated product is a 
shirt or a computer, Goodwill Industries of Southern California first 
attempts to resell the donation in one of its retail stores. The funds 
we raise from the sale of the donation are used to support employment 
services for people with barriers to employment in the area. In the 
case of CRT monitors, we first test the monitor to determine whether it 
is working. If it is, we attempt to resell it for reuse before we send 
the CRT monitor to an authorized recycler. Our attempts to resell 
working CRT monitors are usually successful.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 100 million computers, TVs, and monitors are thrown away each 
year. In addition, EPA estimates that electronic waste is growing two 
to three times faster than any other waste stream. Yet presently, there 
is no specific federal law or regulation governing the disposal of 
consumer electronic products in the U.S. Should there be?

A1. Yes. Research shows that the improper disposal of electronic waste 
in the United States creates serious environmental and public health 
concerns. It also is an opportunity to create jobs and develop designs 
that would help reduce the amount of electronic waste that is disposed 
of each year. The Federal Government should enact electronic waste laws 
and regulations that create jobs in the computer reuse and recycling 
fields; and encourage manufactures to develop products that are more 
amenable to being reused, refurbished, or recycled.

Q2.  The EPA estimates that at most, only 15 percent of products at the 
end of their useful lives reach a recycling or reuse program. This does 
not come as a shock to me. In fact, it might seem a little high given 
the impediments that consumers currently face.

        <bullet>  First how are average consumers to know what to do 
        with their e-waste when it comes to the end of its life?

        <bullet>  This past weekend, Washington, DC held an e-waste 
        recycling day. Over ten times as many residents as last year 
        showed to recycle their gadgets, leading to over two hours wait 
        time. The incentives to recycle just don't seem to be there 
        right now. What do you recommend be done to fix this program?

A2. Because Goodwill already has a strong existing infrastructure, 
local Goodwill agencies are in a unique position to collaborate with 
producers who are operating take-back programs by offering convenient 
locations for consumers to dispose of their unwanted electronic 
products. Consumers have been bringing their gently used items to local 
Goodwill agencies for 105 years, so people know that they can bring 
their gently used commodities, whether it is a shirt or a computer, to 
a local Goodwill and we will reuse it or recycle it. In 2007, our 168 
agencies in the United States and Canada were visited 65 million times 
by an estimated 21.7 million household members, who donated items.
    Incentives to increase the amount of electronics recycled and thus 
decrease the amount of electronics that are sent to landfills include:

        1)  Ensure that municipalities have convenient collection sites 
        that are open year round. Nationwide, Goodwill has over 2,100 
        retail stores and 4,100 attended donation centers that could 
        potentially serve as the backbone for a national collection 
        infrastructure for the convenient collection and reuse of 
        unwanted electronic products.

        2)  Increase public outreach and education about how to recycle 
        electronic products.

        3)  Create disincentives, such as a zxccb nationwide landfill 
        ban, for disposing electronic products in landfills.

        4)  Offer incentives that lead electronic manufacturers to 
        develop partnerships with community-based organizations to 
        collect and reuse their unwanted products from consumers.
                   Answers to Post-Hearing Questions
Responses by Renee St. Denis, Director of Americas Product Take-Back 
        and Recycling, Hewlett-Packard Company

Questions submitted by Chairman Bart Gordon

Q1.  In your testimony you stated the need for R&D into several areas 
related to electronic waste, including research into applications for 
recycled materials, proper regulatory approaches, and the net climate 
impact of recycling electronics. What would be the best framework to 
implement these research initiatives and who should be involved?

A1. The Federal Government needs to play an active role in supporting 
research on key questions regarding the proper management of used 
electronics, including the climate impacts. This will help inform 
policies that will ensure that the best environmental outcome is 
achieved in the most efficient manner. To achieve this goal, the 
Federal Government should support research at major universities with 
expertise on these issues. A broad set of stakeholders--including the 
electronics industry, State and local governments, environmental 
groups, and others--should be engaged in working with the academic 
community on these issues. These groups can provide useful data, 
expertise, and insights in addressing these issues in an efficient 
manner.

Q2.  How does Hewlett-Packard link recyclability and other 
environmental considerations to the product design process? Are 
engineers with these expertises integrated into all development teams 
or is there a separate team devoted to these issues?

A2. As stated in our written testimony, HP works to create a close link 
between our product design and recyclability. HP established our Design 
for Environment (DfE) program in 1992, and it remains central to our 
business strategy today. Our approach to DfE encompasses the entire 
product life cycle. In addition to considering important product 
attributes such as energy efficiency and materials innovation, design 
for recyclability (DFR) is one of our primary priorities for design for 
the environment. We believe that our experience and expertise in 
recycling provides an important feedback loop to designers to design 
future products so that they can be more readily recycled. It is this 
link between the product design and how it is handled at the end of its 
life that makes it important for manufacturers to remain engaged 
throughout the products' life cycle.
    HP's DFR efforts include using common fasteners and snap-in 
features and avoiding the use of screws, glues, adhesives and welds 
where feasible. This makes it easier to dismantle products and to 
separate and identify different metals and plastics. The materials we 
choose can also enhance recyclability. For example, in 2007 we 
introduced several notebook PC models with LED technology, eliminating 
mercury fluorescent tubes and making the display screens easier to 
manage at end-of-life. These efforts have significantly improved the 
recyclability of HP products, and we are pleased to report the 
following:

        <bullet>  HP notebook PC products are now more than 90 percent 
        recyclable or recoverable by weight (as per the definition used 
        in the European Union WEEE regulations).

        <bullet>  HP printing and imaging products are typically 70 
        percent to 85 percent recyclable or recoverable by weight (as 
        per the definition used in the European Union WEEE 
        regulations).

    We also made great progress in incorporating recycling materials 
into our products. For example, HP has engineered print cartridges that 
use recycled plastic without compromising quality or reliability. We 
design HP print cartridges to meet the needs of our recycling system 
and incorporate recycled material. Since we take back only our own 
cartridges, we can be certain about the material content, making it 
easier to process exhausted cartridges and reuse the material to 
manufacture new ones. More than 200 million cartridges have been 
manufactured using the process through 2007. HP used more than five 
million pounds (2,300 tons) of recycled plastic in its original HP 
inkjet cartridges in 2007, and the company has committed to using twice 
as much in 2008. HP also uses post-consumer recycled plastic recovered 
through our return and recycling program in the manufacture of original 
HP LaserJet print cartridges. This recycled plastic can represent as 
much as 25 percent, by weight, of the newly molded LaserJet cartridge 
housing. HP has also incorporated recycled content into some hardware 
products. For example, in 2007, we introduced a speaker module made 
from 100 percent post-consumer recycled plastics in all HP Compaq 6500 
and 6700 series Notebook PCs.
    Each product team in HP includes a ``product steward'' that is 
responsible for all aspects of environmental compliance. This approach 
enables HP to ensure that environmental considerations are taken into 
account during the design of HP products.

Q3.  In your testimony you state that Hewlett-Packard's efforts toward 
more environmentally conscious design have resulted in ``HP products 
qualifying for a large number of global eco-labels, including EPEAT.'' 
As you know, EPEAT does not cover consumer electronics, and eco-
labeling for these types of products in the U.S. is limited to the 
Energy Star program. Do HP consumer products favorably qualify for some 
of these global eco-labels? Does HP believe that these labels 
effectively educate consumers about products' environmental attributes 
and that educating consumers in this manner will result in increased 
U.S. sales for more environmentally sound products?

A3. HP has a long history of promoting environmentally sound design. As 
a result of these design initiatives, HP offers a range of products - 
both for consumers and businesses--that comply with global eco-labels. 
See http://www.hp.com/hpinfo/globalcitizenship/environment/
productdesign/ecolabels.html.
    HP believes that educating customers on the environmental 
attributes of the products they buy can play a significant role in 
shaping purchasing behavior. However, eco-labels are only one means of 
achieving this goal. Information on a product web-site, for example, 
can be a more efficient way of informing customers than a physical 
label, and the glue used on some labels can add to the complexity and 
cost of recycling electronic products. Companies should have 
flexibility in choosing the manner they communicate to customers. In 
this regard, we note that EPEAT does not require a physical label to be 
affixed to the product, and that Energy Star only recently mandated the 
labeling of products as a requirement of this program.
    HP recently announced a new initiative to provide additional 
information on the environmental attributes of HP products. HP will 
begin using a ``HP Eco-Highlights'' label on new product packaging, web 
sites, and data sheets to help customers better understand the 
environmental attributes of the product, such as energy consumption and 
recycled content.

Q4.  You state in your testimony that HP has established the goals of 
doubling the use of recycled plastics in printer cartridges in 2008 and 
eliminating the use of materials that contain brominated flame 
retardants and polyvinyl chloride. What are the challenges your company 
faces to reaching these goals?

A4. Incorporating greater amounts of recycled content and phasing out 
specific materials each pose distinct challenges. The challenge of 
using more recycled content presents a classic ``chicken or the egg'' 
dilemma. Our desire to use more recycled content is hindered by the 
limited availability of suitable materials, and the supply of suitable 
materials is limited by insufficient demand. Despite this problem, we 
have succeeded in using more than five million pounds (2,300 tons) of 
recycled plastic in its original HP inkjet cartridges in 2007, and the 
company has committed to using twice as much in 2008. HP also uses 
post-consumer recycled plastic recovered through our return and 
recycling program in the manufacture of original HP LaserJet print 
cartridges. This recycled plastic can represent as much as 25 percent, 
by weight, of the newly molded LaserJet cartridge housing.
    The challenge of phasing out polyvinyl chloride (PVC) is 
complicated by the lack of suitable alternatives for some uses of this 
material. Our goal is to eliminate all remaining uses PVC from new 
computing products as technologically feasible alternatives become 
readily available. To be accepted, alternatives also must not 
compromise product performance or quality or adversely impact health or 
the environment. We expect to achieve this goal for new computing 
products launched in 2009.
    An important component of HP's materials substitution efforts is 
determining that replacement substances have a lower environmental and 
health impact than the substances identified for possible phase-out. 
Many potential replacement materials are still being evaluated for 
environmental and health impacts. Unfortunately, standard methods to 
perform these evaluations do not exist, and as a result differing 
conclusions are sometimes drawn from the same study. To address this 
concern, HP engages with government agencies, such as the United States 
Environmental Protection Agency, and nongovernmental organizations, 
such as Clean Production Action, to develop standard methods for 
evaluating the environmental and health impacts of new substances.

Q5.  In his testimony, Dr. Eric Williams mentioned several applications 
for using radio frequency identification (RFID) tags in the management 
of end-of-life electronics. From the producer's perspective, what might 
the advantages and disadvantages be in using RFID technology to manage 
used electronics?

A5. HP has played a leadership role in the development and deployment 
of RFID technology. We are currently using this technology to track 
product inventory, monitor customer returns and improve product 
quality, and other uses.
    We agree with Dr. Williams that RFID technology could potentially 
play a useful role in helping to manage end-of-life electronics. It is 
possible that the tags could help recyclers identify the material 
composition of products, identify components requiring special handling 
(e.g., batteries), and other issues.
    Certain issues need to be addressed before RFID technology could be 
employed on a large scale for managing used electronics. First, the 
cost of RFID tags are an obstacle, and it remains unclear whether the 
benefits of using this technology outweigh these added costs. Second, 
the current recycling infrastructure lacks the capability to read RFID 
tags and make use of the potentially valuable information on the tags. 
Finally, some consumer groups have raised concerns regarding potential 
privacy issues associated with the use of these tags on consumer 
products.

Questions submitted by Representative Ralph M. Hall

Q1.  Does Hewlett-Packard currently publish the life cycle energy costs 
for all HP products? If not, would you consider providing such 
information to consumers in the future?

A1. HP currently publishes a considerable amount of information on the 
environmental and energy attributes of HP products. See http://
www.hp.com/hpinfo/globalcitizenship/environment/productdesign/
products.html. HP recently announced a new initiative to provide 
additional information on the environmental attributes of HP products. 
HP will begin using a ``HP Eco-Highlights'' label on new product 
packaging, web sites, and data sheets to help customers better 
understand the environmental attributes of the product, such as energy 
consumption and recycled content.
    We do not publish ``life cycle energy costs'' for HP products at 
this time. HP products are comprised of thousands of parts, components, 
and materials, provided by a complex array of suppliers located around 
the world. This supply chain consists of many levels or steps that 
contribute to the final product. It would be a hugely complex 
undertaking to calculate the ``life cycle energy costs'' of the final 
product, and there is currently no generally accepted way of collecting 
this data and calculating the net energy impacts. HP is working within 
the international standards bodies to devise ways of improving the way 
such information is provided to consumers. We would consider publishing 
the ``life cycle energy costs'' for HP products once there were a clear 
methodology for doing so and if there were better ways of compiling the 
data in a standardized way.
    Even in the absence of publishing this information, HP has made 
great strides in reducing the overall energy impacts of our products at 
every stage in the life cycle. In our own operations, HP is on track to 
achieve a 16 percent reduction in our energy consumption of our 
operations by 2010 from 2005 levels. We are also working with our 
suppliers around the world to reduce the energy consumed by the 
manufacturing, distribution, and packaging of our products. Finally, we 
are continuously achieving significant improvements in the efficiency 
of our products during the ``use'' stage by the consumer. For example, 
we have set a goal of reducing by the energy consumption of volume 
desktop and notebook computer families by 25 percent by 2010 compared 
with 2005 levels.

Q2.  What are the liability concerns for companies that take-back 
electronics and reuse or recycle them? Does liability for damages to 
workers from exposure during recycling or liability for harm caused by 
refurbished equipment limit the growth of take back programs?

A2. HP takes seriously its responsibility to recycle our products in an 
environmentally sound manner, including the protection of workers 
involved in the recycling process. In addition to our obligations as a 
leading corporate citizen, HP seeks to limit any liability that we may 
incur as a result of our recycling operations. To achieve this result, 
HP requires our recycling vendors to comply with HP's Supplier Code of 
Conduct, and we monitor compliance through site audits. See http://
www.hp.com/hpinfo/globalcitizenship/gcreport/productreuse/
recyclingapproach.html. While there is an added cost to recycling in an 
environmentally sound manner, we believe that there are cost avoidance 
benefits associated with doing so.

Q3.  Most major manufacturers claim that they do not ship e-waste 
oversees for recycling. Where does the e-waste found in environmentally 
unsound recycling operations originate?

A3. HP has a longstanding practice of ensuring that products and 
materials from our U.S. recycling programs are not shipped overseas 
(i.e., outside the U.S. and Canada) for processing. Unfortunately, 
there are numerous other entities involved in the collection and 
recycling of used electronics that simply serve as ``waste brokers'' 
and sell discarded products to others, or ``sham'' recyclers who simply 
utilize some profitable parts or materials and sell the rest. Thus, it 
appears the most materials found in the developing world that is 
subject to environmentally unsound practices originates from waste 
collectors, brokers, or ``recyclers''--including municipal and other 
governments--that do not manage their materials properly.
    According to a recent article in National Geographic Magazine, much 
of the improperly managed e-waste in the developing world originates 
with local collection events in the U.S. by municipalities or so-called 
``recyclers'':

         Currently, less than 20 percent of e-waste entering the solid 
        waste stream is channeled through companies that advertise 
        themselves as recyclers, though the number is likely to rise as 
        states like California crack down on landfill dumping. Yet 
        recycling, under the current system, is less benign than it 
        sounds. Dropping your old electronic gear off with a recycling 
        company or at a municipal collection point does not guarantee 
        that it will be safely disposed of. While some recyclers 
        process the material with an eye toward minimizing pollution 
        and health risks, many more sell it to brokers who ship it to 
        the developing world, where environmental enforcement is weak. 
        For people in countries on the front end of this arrangement, 
        it's a handy out-of-sight, out-of-mind solution.

    See ``High Tech Trash: Will Your Discarded TV End Up in a Ditch in 
Ghana?'' National Geographic Magazine (January 2008) (available at 
http://ngm.nationalgeographic.com/2008/01/high-tech-trash/carroll-text/
3).

Q4.  Your testimony highlights how HP is investing significantly in 
your ``Design for Environment'' and take-back campaigns. However, due 
to the storied history of your company you have a long tail of legacy 
waste as well. Does HP have a strategy for dealing with legacy waste or 
suggestions for the Committee on how best to tackle this problem?

A4. HP has been implementing and expanding its recycling strategy for 
nearly 20 years. Since 1987, HP has successfully collected and recycled 
more than one billion pounds of used or unwanted computer-related 
equipment globally. With our vast knowledge and experience, HP's goal 
is to recycle an additional one billion pounds of equipment (for a 
total of two billion pounds worldwide) by the end of 2010. HP has 
established a recycling service throughout the U.S. (as well as other 
countries around the world) that provides consumer and commercial 
customers with a convenient opportunity to recycle their old products 
in an environmentally sound manner. For more information on HP's 
environment and broader global citizenship activities, see: http://
www.hp.com/hpinfo/globalcitizenship/.
    HP currently partners with operators of seven large, state-of-the-
art recycling facilities in the U.S. and Canada, as well as operating 
our own technologically-advanced facility used to recycled print 
supplies. Our recycling facility for printer supplies is located 
outside of Nashville, Tennessee. This facility consists of a 40,000 
square foot building, including separation and recycling technology. 
The facility employs approximately 50 full time employees and processes 
all of the material returned to HP through our different print supplies 
programs in the U.S., Canada and Latin America.

Q5.  Can you describe for us how the current system of print supply 
recycling came to be? What obstacles or successes have characterized 
this system and can be translated to the broader e-waste problem?

A5. HP recognized early on that print supplies posed unique recycling 
opportunities and challenges, and we promptly took steps to provide 
customers with a solution for their recycling needs. Unlike computer 
hardware products that can be used for many years, print supplies are 
``consumables'' that are used for a more limited period. In the absence 
of a convenient recycling system, many of these print supplies would be 
disposed. To avoid this result, and given the relatively small size and 
weight of these products, HP determined that these products could be 
readily shipped through the mail or other shipping services to a 
recycling facility. HP recognized that customers wished to avoid 
disposing of these products, so HP developed a simple product return 
system that has been in place for almost two decades. Many of our new 
print supplies come with a return envelope or label that allows 
customers to return their products quickly and easily. HP is also 
expanding its recycling offering by partnering with retailers to allow 
customers to drop-off their used cartridges. Once HP receives the used 
cartridge, HP recovers plastics that are then used in the production of 
new products. Other materials, such as metals, are recycled and made 
available on the commodity markets for use in other products.
    The success of our recycling system for pint supplies demonstrates 
the viability of cost-effective, market-based systems for recycling 
used products. However, each product category necessitates a tailored 
approach. Just as the collection and recycling system for other common 
recyclables--such as appliances, tires, car batteries, and others--are 
each different, the system established for computers, TVs, or other 
electronic products may likely be different than the system of 
returning used print supplies through the mail. In addition, print 
supplies use a limited number of different types of plastics that makes 
recycling more feasible, many hardware products use a complex 
assortment of types of plastics that adds to the cost and complexity of 
recycling.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 100 million computers, TVs, and monitors are thrown away each 
year. In addition, the EPA estimates that electronic waste is growing 
two to three times faster than any other waste stream. Yet presently, 
there is no specific federal law or regulation governing the disposal 
of consumer electronic products in the U.S. Should there be?

A1. HP has long supported the adoption of federal e-recycling 
legislation as a means of encouraging harmonized national approaches to 
the challenge of e-recycling. Other major markets, including the EU and 
Japan, have adopted legislation on this topic, and we believe it is 
appropriate for the U.S. to act as well. In the absence of federal 
legislation a growing number of states have enacted their own laws. But 
the emerging patchwork of divergent State laws does not serve the 
interests of environmental protection and needlessly increases costs. 
HP believes that federal legislation is needed to establish a more 
efficient, effective harmonized national system.

Q2.  The EPA estimates that at most, only 15 percent of products at the 
end of their useful lives reach a recycling or reuse program. This does 
not come as a shock to me. In fact, it might seem a little high given 
the impediments that consumers currently face.

A2. The 15 percent figure is consistent with the results of HP's 
recycling program and reflects the challenges of influencing consumer 
behavior. Including remarketed equipment, we achieved a total reuse and 
recycling rate in 2007 of 15 percent of relevant hardware sales. We 
cannot assess the accuracy of this number for other manufacturers.

Q2a.  First, how are average consumers to know what to do with their e-
waste when it comes to the end of its useful life?

A2a. Recycling opportunities for average consumers typically vary by 
product category and locality. This is likely to be the situation for 
e-recycling as well. Under the State programs currently in place, the 
options on the ground for consumers vary in terms of drop-off at retail 
establishments, municipal collection sites, one-day collection events, 
or other collection mechanisms. Consumers typically become aware of 
these opportunities by company or government websites or local 
advertising. Given that consumers will only look for these recycling 
opportunities on an infrequent basis, this approach is probably 
appropriate.

Q2b.  This past weekend, Washington, D.C. held an e-waste recycling 
day. Over ten times as many residents as last year showed to recycle 
their gadgets, leading to over two hours wait time. The incentives to 
recycle just don't seem to be there right now. What do you recommend be 
done to fix this problem?

A2b. The significant wait time for consumers at local collection events 
is relatively common, particularly when it is a one-time event. 
Consumers may have a number of used devices in storage and they are 
looking for an opportunity to recycle a number of these devices at 
once. We believe that this ``backlog'' will dissipate once collection 
opportunities increase in frequency and convenience, as consumers find 
outlets for the devices they currently have in storage. Legislation can 
play a significant role in achieving this outcome. Legislation should 
establish a framework to create a more frequent and available system of 
collection points or events.

Q3.  The European Union is often ahead of the United States when it 
comes to the issue of recycling. Where do U.S. capabilities stand as 
compared to Europe on the topic of e-waste?

A3. The electronics recycling infrastructure is better developed in 
Europe than it is in the U.S. In most countries, collection of products 
is facilitated by municipal governments and retailers, thereby creating 
an efficient and convenient way for consumers to drop off unwanted 
products. Also, there are a larger number of recycling vendors to 
conduct recycling operations in an environmentally sound manner. HP 
played a leading role in the development of a consortium of companies 
to conduct recycling operations. For more information, see www.erp-
recycling.org. HP is working to develop the recycling infrastructure in 
the U.S. as well by partnering with leading metals recyclers, 
developing technologies, and auditing outside vendors to ensure 
compliance with environmental and other requirements.

Questions submitted by Representative Bob Inglis

Q1.  Many manufacturers support a national solution to deal with e-
waste; a federal law that would preempt the patchwork of State and 
local laws that are beginning to crop up. Are there any aspects of 
those State laws that would/should be expanded to the national level? 
What provisions of State laws in place now would be detrimental to 
efforts dealing with e-waste if ramped up to a national scale? Can you 
give an example or two of each?

A1. The costs of the emerging patchwork of State recycling laws will 
impose significant overall costs on companies. A study by the National 
Electronics Recycling Infrastructure Clearinghouse (NERIC) has 
estimated the manufacturer compliance costs in 2010 for all 14 
jurisdictions having enacted mandatory e-waste financing requirements. 
According to the study, even if no other State or local legislation is 
passed, the NCER estimates that manufacturers will spend approximately 
$71 million in 2010 to comply with the U.S. patchwork of State e-waste 
mandates. See www.ecyclingresource.org. This emerging patchwork of 
differing State laws is adding significant new costs and impeding the 
development of an efficient nationwide infrastructure, while creating 
the potential for consumer confusion. A consistent national approach is 
necessary and appropriate.
    A major goal of federal e-recycling legislation should be the 
achievement of a high degree of harmonization among the states and the 
elimination of unnecessary duplicate activities. Manufacturers of 
covered products are currently facing a variety of State laws that have 
differing approaches, product scope, and administrative requirements. 
These inconsistent State programs do not improve environmental 
outcomes, but instead simply add complexity and cost. Driving greater 
consistency among the State programs should be a key priority of 
federal legislation.
    An important area that demands greater consistency is laws and 
regulations governing collection and transport of discarded 
electronics. As long as even a few states interpret their authority as 
allowing them to impose their own requirements on interstate transport 
of these discarded products, be they requirements to transport the 
products as hazardous wastes or some other special classification, and 
these products must be transported to recycling centers through these 
states, efforts to develop a national recycling system will be stymied. 
The State of Maine is one example of a state acting to impose unique 
requirements for certain discarded electronic products. In various 
cases, Maine regulation requires shippers to use a hazardous waste 
manifest or shipping papers similar to a hazardous waste manifest, and 
to use transporters with special plans and programs in place. In our 
experience, we have found it to be extremely difficult to find 
interstate transporters prepared to meet Maine's unique requirements. 
For these and other reasons, we currently do not offer one of our 
hardware take back programs in the State of Maine. [Optional: We do 
retain a recycling company nearby to Maine that operates their own 
transport vehicles to meet legislated take back obligations in Maine, 
but we do not have the same flexibility as in various other states to 
hire any common carrier to transport products to our various chosen 
recycling contractors. If we wished to, we would have to attempt to 
have the local recycler collect the material and take it to a 
neighboring state, then transfer the load to a common carrier there to 
enable it to be transported to one of our more distant U.S. recyclers 
managing large volumes for us.]
    Another approach adopted in one state--California--that would be 
detrimental if expanded would be the imposition of point-of-sale fees 
on the sale of new products to finance the recycling of old products. 
Fortunately, California is the only state that has adopted that 
approach. Our experience and data from other recycling programs 
indicate that these fees (which are, in fact, taxes) result in higher 
overall costs than producer responsibility models that enable 
innovation and incentives for efficiency. See, e.g., Gregory and 
Kirchain, ``A Comparison of North American Electronics Recycling 
Systems.''
                   Answers to Post-Hearing Questions
Responses by Eric Harris, Associate Counsel/Director of Government and 
        International Affairs, Institute of Scrap Recycling Industries

Questions submitted by Chairman Bart Gordon

Q1.  In your testimony you mentioned the need for research and 
development into new markets for plastic and glass, and recycling 
technologies for plastics. What would be the best mechanism to fund and 
prioritize this research? What would be the best mechanism to 
facilitate technology transfer to the recycling industry?

A1. It would seem that the best means to fund and prioritize plastic 
and glass research would be to include in the Appropriations Interior, 
Environment, and Related Agencies bill an appropriation directed to the 
U.S. EPA Office of Research and Development.
    The research and development for new markets and technology related 
to glass and plastic would assist manufacturers in developing new 
technologies and uses for recyclable materials. And it would make more 
efficient existing uses of recyclable materials in the manufacturing 
process. Subsequently, manufacturers would develop additional 
requirements to utilize the recyclable material in their manufacturing 
processes.

Q2.  You mention the difficulties associated with recycling the leaded 
glass from cathode ray tube televisions and monitors. Are there end-of-
life challenges associated with flat panel displays? Is there a market 
for this glass?

A2. Yes. The new technology in flat screen displays utilizes a system 
of cylindrical lamps that contain mercury powder. These mercury lamps 
are very time consuming and costly to remove or replace, which also 
makes these products difficult to recycle.
    The Institute of Scrap Recycling Industries Inc., (ISRI) has long 
advocated working with manufactures to design their products to be 
easily recycled at the end of their useful lives, including eliminating 
hazardous, toxic constituents, or creating other impediments that can 
hinder the recycling of those products. Design for Recycling (an ISRI 
program established to encourage manufacturers in all industries to 
design their products, from the outset, with recycling in mind) will 
help to avoid these additional costs and improve recycling efficiency.
    The best market for flat panel screens and cathode ray tubes is 
resell. In today's market, the resell value for flat panel displays is 
strong. Similar to the lead in cathode ray tubes, the mercury in the 
flat panel screens reduces the cost effectiveness of processing flat 
panel displays.

Q3.  Now that producers are designing products to eliminate hazardous 
substances under Europe's Restriction on Hazardous Substances (RoHS) 
Directive, what more needs to be done to increase product 
recyclability?

A3. Rather than prescriptive changes, ISRI suggests that more 
collaborative opportunities are needed to think through some of these 
design issues before these products reach the market. For example, 
EPEAT is an electronic product design standard adopted by the 
Environmental Protection Agency that has been very successful in the 
marketplace. Most major computer manufacturers are using EPEAT as their 
measure of environmental product design, and are competing to gain 
additional credits from EPEAT by going beyond what other OEMs have 
done. For example, some manufacturers have incorporated significant 
amounts of recycled plastic in their products. This creates an 
increased demand for recycled plastics from computers. Additional 
programs could be encouraged by the Congress such as the EPEAT program.

Q4.  You mention in your testimony that the recycling industry has 
called upon producers to adopt a Design for Recycling philosophy but 
thus far they have met with only limited success. How do recyclers 
presently engage with electronic producers? Are there other industries 
with stronger partnerships that the electronics industry could learn 
from? Is there evidence from the electronics industry, or other 
industries, which shows producers will design products for easier 
recycling if they are financially or physically responsible for the 
product at the end of its life?

A4. Recyclers have had some success working with electronics 
manufacturers regarding design issues but such interactions have been 
limited.
    ISRI has presented its Design for Recycling award to HP for its 
leadership in designing its products for recycling. Certainly, HP is a 
good example of a manufacturer that promotes producer responsibility 
and is committed to Design for Recycling because it makes good 
environmental and economic sense.
    Another example focuses on the use of mercury switches in the 
automobile industry. That industry began to use convenience light 
switches and ABS brake sensors that contained mercury. Because of 
concerns about the hazards of mercury, especially to children and 
pregnant women, most non-American auto makers ended the use of mercury-
containing switches in vehicles in 1993. The American manufacturers, 
however, continued to use mercury switches in vehicles built for the 
American market--until 2003. It was then that various states began 
requiring the removal of mercury switches from end-of-life vehicles at 
the expense of the manufacturers. That economic disincentive caused the 
auto makers to end the use of mercury switches and to seek a national 
program to support such switch removal.
    Some years ago, ISRI worked with the Association of Home Appliance 
Industries (AHAM) to eliminate the use of cadmium paints in the 
manufacture of new appliances. Cadmium is a hazardous substance. And, 
ISRI works with the Vehicle Recycling Partnership (VRP), an entity 
created by the American auto manufacturers to develop ways and means to 
increase a vehicle's overall recyclability. In addition to ISRI and the 
auto manufacturers, other VRP participants are the auto dismantlers and 
the steel industry.

Q5.  You state in your testimony that export of electronics can be safe 
and is an important part of the recycling industry. You also mention 
that in places like China there are legitimate and responsible 
recyclers. How should we close the loop on used electronics shipped 
overseas so that once they reach true end-of-life they are handled by 
legitimate recyclers?

A5. In today's market, buyers and brokers around the world are paying 
for scrap electronics as compared to recyclers in the U.S. having to 
charge to recycle the same material. This is due to the fact that some 
electronic equipment, such as monitors and televisions, has a net-
negative cost to recycle; that is, the costs outweigh the value of 
recoverable material. However, at the same time, there is a thriving 
reuse market outside of the United States that allows foreign buyers to 
pay a premium for monitors and TVs.
    ISRI advocates recognizing and giving contractual preferences to 
responsible recyclers anywhere in the world that can demonstrate that 
they are `legitimate' recyclers. In fact, for the past two years ISRI 
has represented electronics recyclers in a multi-stakeholder process to 
develop responsible recycling practices (R2) for electronics recyclers. 
The Environmental Protection Agency has convened and facilitated this 
effort. Once completed, ISRI intends to incorporate this set of 
specific performance practices into its Recycling Industry Operating 
Standard (RIOS) for electronics recyclers.
    ISRI developed RIOS as an integrated management system standard 
designed specifically for the scrap recycling industry and the ANSI-ASQ 
National Accreditation Board will oversee the third party registrars 
who will audit recyclers. It provides electronic recyclers with an 
affordable tool to monitor their quality, environmental, health and 
safety goals. Few industries worldwide have endeavored to undertake 
such a huge step, but the recycling industry in the United States has 
always been, and intends to remain, the global leader in recycling 
technology, environmental protection, worker safety and the production 
of high quality materials. RIOS plus R2 are tools for recyclers to 
accomplish those goals. This will help to build needed confidence in 
the market place and reward responsible recyclers that are willing to 
be audited to a set of requirements in an open and transparent process.

Questions submitted by Representative Ralph M. Hall

Q1.  What are the liability concerns for companies that take-back 
electronics and reuse or recycle them? Does liability for damages to 
workers from exposure during recycling or liability for harm caused by 
refurbished equipment limit the growth of take-back programs?

A1. As with any business decision, there is always some risk associated 
with choosing strategic business partners. However, companies can 
dramatically reduce their potential risks associated with recycling 
electronic equipment (like re-selling hard drives with sensitive data 
or mismanaging material like mercury, batteries or leaded glass) by 
selecting a recycler that correlates to their risk tolerance. Companies 
need to educate themselves as to the differences of recyclers on the 
market. There is a wide disparity of services being offered from a wide 
variety of recyclers. As with other prudent business decisions, 
conducting appropriate due diligence and then contracting with a 
responsible recycler based on individual needs can significantly reduce 
if not eliminate a companies potential liabilities.

Q2.  How has electronics in the waste stream changed over the past 
decade and what predictions can we make about changes in the coming 
years? How do these changes affect our ability to safely and 
efficiently recycle or reuse these devices?

A2. The precious metal quantities have decreased on a per unit basis, 
which has decreased the per unit recoverable value of electronic 
equipment. However, the overall volumes have increased. Recyclers are 
simply seeing more electronic equipment coming into their facilities. 
The biggest challenges are finding end-markets for leaded glass and 
mixed-plastic resin.
    Another emerging challenge is smelting capacity. Globally, the lead 
and precious metal smelters are quickly running out of capacity to 
recover the world's growing supply of electronic scrap. For example, 
there are only two major lead smelters left in North America. Lack of 
smelting capacity could significantly impact the sustainability of this 
market.

Q3.  Most major manufacturers claim they do not ship e-waste overseas 
for recycling. Where does the e-waste found in environmentally unsound 
recycling operations originate?

A3. As scrap commodities and new and used electronic equipment is 
traded globally, the material is being generated from all over the 
world, which includes from the importing countries themselves. For 
example, China and Southeast Asian countries are the largest growth 
markets to sell new and used electronic equipment. Once that equipment 
reaches its end-of-life, artisan communities are purchasing and 
processing that material as well as material imported from developed 
countries. Since demand is so high, Asian brokers are able to pay more 
for the obsolete electronic equipment than in Europe and the United 
States. Thus, countries like China continue to purchase obsolete 
electronic equipment from countries all over the world, including the 
United States.

Q4.  In your testimony you state that, ``electronics recycling yielded 
approximately 1.3 billion pounds of recyclable materials'' in 2006. How 
much of this material was subsequently used as raw manufacturing 
inputs?

A4. ISRI asserts that most, if not all, of the 1.3 billion pounds is 
absorbed back into the manufacturing process.

Q5.  You state that much collected equipment has a net-negative cost to 
recycle. What are some examples of goods that generally cannot be 
recycled efficiently? How much of the current electronic waste stream 
is comprised of these goods?

A5. Unlike central processing units that yield a positive value of 
around 10 cents a pound and can be resold as a usable device for $50-
$70 dollars, and 99 percent of laptops that are resold in their 
entirety and yield between $300 and $550 a unit, most electronics 
recyclers must charge their customers to recycle televisions and 
monitors containing cathode ray tubes (CRTs) to off-set the negative 
costs. Recyclers generally charge between 20-30 cents a pound, relative 
to truckload bulk equations for televisions and monitors with CRTs.
    Televisions and monitors with cathode ray tubes pose the biggest 
challenge to municipal landfills and for-profit recyclers. The hard 
reality is that many consumers are not prepared or willing to pay an 
additional fee to responsibly recycle their old TVs and monitors.
    It is worth mentioning that experts estimate that 30 percent of 
Americans currently throw televisions in the garbage (permitted under 
existing federal law) rather than recycle or donating them. That is the 
equivalent of 67,698,877 televisions. By recycling those televisions, 
according to the EPA's WARM model\1\ environmental benefits calculator, 
753,072.68 metric tons of carbon equivalents would be prevented from 
entering the atmosphere.
---------------------------------------------------------------------------
    \1\ United States Environmental Protection Agency WAste Reduction 
Model (WARM), http://www.epa.gov/climatechange/wycd/waste/calculators/
Warm<INF>-</INF>home.html

Q6.  What are the most difficult components to safely and cost-
effectively recycle? Other witnesses have raised plastics, mercury 
lamps, and lead content as having the potential to negatively affect 
environmental and public health. What is the state-of-the-art for 
---------------------------------------------------------------------------
recycling or reuse of these items?

A6. We would generally agree with your aforementioned list. Mixed 
plastic resin, mercury lamps, batteries, and leaded glass are the most 
difficult items to cost-effectively recycle. However, if responsibly 
recycled these materials pose little to no risk to the environment or 
to public health. Each of these materials are sorted and then sent to 
appropriate material recovery facilities. For example, leaded glass is 
sent to either a glass-to-glass manufacturer or to a lead smelter. 
Depending on the quality of the sort, mixed plastic is either sold to a 
plastic manufacturer or for energy recovery. Mercury lamps are sent to 
facilities that specialize in mercury recovery and then to retort 
facilities.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 100 million computers, TVs, and monitors are thrown away each 
year. In addition, the EPA estimated that electronic waste is growing 
two to three times faster than any other waste stream. Yet presently, 
there is no specific federal law or regulation governing the disposal 
of consumer electronic products in the U.S. Should there be?

A1. ISRI supports a national solution that promotes a sustainable, 
market-based recycling infrastructure. We also support a system that 
improves Design for Recycling, promotes responsible recycling and 
allows the free and fair trade of scrap commodities globally. ISRI is 
concerned that a multiplicity of 50 different laws and regulations will 
inhibit economies of scale and market efficiencies, thereby hindering 
the development of a sustainable recycling infrastructure, and slowing 
the development of end-use consumer markets for these valuable raw 
materials.
    However, private sector electronics recyclers are already recycling 
under a host of applicable environmental, health and safety, commercial 
and import/export regulations; such as permitting requirements in the 
CAA, CWA and storm water provisions, RCRA (solid and hazardous wastes 
provisions), OSHA, more stringent State requirements, federal and State 
transportation laws, U.S. export laws and import requirements of 
foreign countries, such as those administered by China's General 
Administration on Quality Supervision, Inspection and Quarantine 
(AQSIQ). We are doubtful that a set of new regulations are needed to 
address electronics recycling. At the same time, we recognize that a 
few ``sham'' recyclers may be spoiling the concerted efforts of most 
responsible recyclers to adhere to high standards and applicable law. 
ISRI asserts that more precise enforcement efforts targeted at ``sham'' 
recycling, and making certain that governmental entities involved in 
electronics recycling are fully complying with the current statutory 
and regulatory regime, is more appropriate than creating new laws and 
regulations.

Q2.  The EPA estimates that at most, only 15 percent of products at the 
end of their useful lives reach a recycling or reuse program. This does 
not come as a shock to me. In fact, it might seem a little high given 
the impediments that consumers currently face.

A2. First, how are average consumers to know what to do with e-waste 
when it comes to the end of its useful life? This past weekend, 
Washington, D.C. held an e-waste recycling day. Over ten times as many 
residents as last year showed up to recycle their gadgets, leading to 
over two hours wait time. The incentives to recycle just don't seem to 
be there right now. What do you recommend be done to fix this problem?
    One of the primary benefits of having OEMs and retailers 
participating in producer responsibility and take-back programs is 
their access to consumers. Educating consumers about were they can 
recycle their household electronics is essential to furthering a 
sustainable infrastructure. Recyclers do not have the same access to 
consumers as do the OEMs and retailers. ISRI strongly believes, for 
this type of reason, that OEMs, retailers, collectors, transporters and 
recyclers must work together to educate consumers in order to utilize 
the existing reuse/recycling infrastructure.
    As far as incentives, one of the primary challenges is to reeducate 
the consumers to think of household electronic equipment as a 
recyclable and not a waste. It is very important to distinguish between 
scrap and waste as well as recycling and disposal. Simply stated, scrap 
is the opposite of waste. Processed scrap materials are commodities 
that have a significant value on domestic and international markets as 
raw material feed stocks that substitute for virgin materials in the 
manufacture of new basic materials such as copper, steel, and plastics. 
Unlike scrap, waste has no value and is typically buried in a landfill.
    Electronics scrap, like scrap paper, glass, plastic, metal, 
textiles, and rubber, is not waste when recycled. Defining scrap 
electronics as waste undermines and overlooks the value that these 
electronics retain, if properly recycled. Saddling them with the 
moniker of ``waste'' imposes a whole host of unwarranted regulatory 
burdens that will undermine the ability to allow the recycling system 
to operate effectively and efficiently.
    ISRI is confident that making the connection between recycling and 
climate change will provide an extra incentive to recycle household 
goods. Scrap recycling is one of the world's most climate friendly 
activities. The use of recycled scrap materials to manufacture new 
products sustains the earth's natural resources, while at the same 
time, conserves impressive amounts of energy in the manufacturing 
process, and thereby significantly reduces greenhouse gas emissions 
from those facilities.
    In addition, the market is also responding with new incentive 
approaches. For example, Sam's Club stores has a program that will 
allow consumers to redeem unwanted electronics for a Sam's Club gift 
card, the value of which is determined by the quantity and quality of 
electronics traded in. These types of programs coupled with the 
public's desire to recycle more due to climate change will likely 
provide extra incentives into the marketplace.

Q3.  The European Union is often ahead of the United States when it 
comes to the issue of recycling. Where do U.S. capabilities stand as 
compared to Europe on the topic of e-waste?

A3. ISRI is perplexed by the notion that the European Union is 
presumably ``ahead of the United States'' when it comes to recycling. 
In the minds of many, recycling in the United States is a phenomenon 
that began in the 1970's following the original Earth Day celebration. 
For others, awareness dates to the late 1980's following the infamous 
voyage of the ``garbage barge'' and the ensuing fears that landfill 
capacity had reached a crisis stage. It may interest the Committee to 
know that the scrap recycling industry actually dates back to the 
beginnings of our nation, when a statue of King George III was toppled 
in NYC and its metal was used to make bullets for the Continental Army. 
Our members are in the business of recycling, and have formed the basis 
of the established recycling infrastructure that exists in this country 
today.
    ISRI is now the largest trade association of recyclers throughout 
the world. With approximately 1,500 member companies that process, 
broker and industrially consume scrap commodities, including metals, 
paper, plastics, glass, rubber, electronics and textiles. Our members 
operate at over 3,000 locations in the United States alone. More than 
20 percent of ISRI's membership is involved in electronic scrap 
processing and industrial consumption of scrap material generated by 
electronics recyclers. In 2007, the domestic industry manufactured 
approximately $71 billion of specification grade commodities that were 
used in lieu of virgin materials to manufacture basic products, 
including over 81 million tons of iron and steel, five million tons of 
aluminum, 1.8 million tons of copper, and two million tons of stainless 
steel, just to name a few. Of the $71 billion, nearly $22 billion worth 
of material was exported to 152 countries worldwide, making a 
significant positive contribution to the United States balance of trade 
with other nations.
    Recyclers' capacity in the United States to responsibly recycle 
electronic equipment is comparable if not superior to European 
operations. Approximately 2.8 billion pounds (1.4 million tons) of 
electronic equipment were recycled in 2006, including 65 million units 
of computer equipment (CPUs, monitors and printers). The electronics 
recycling process yielded approximately 1.3 billion pounds of 
recyclable materials, more than half of which were metals.

Questions submitted by Representative Bob Inglis

Q1.  Many manufacturers support a national solution to deal with e-
waste; a federal law that would preempt the patchwork of State and 
local laws that are beginning to crop up. Are there any aspects of 
those State laws that would/should be expanded to the national level? 
What provisions of State laws in place now would be detrimental to 
efforts dealing with e-waste if ramped up to a national scale?

A1. Short-term Financial Mechanism
    ISRI supports a federal approach over a patchwork of State laws. As 
with most of the existing State laws, until such time as the market for 
recyclable electronics becomes economically viable, ISRI's policy 
supports holding producers responsible for the collection, 
transportation and recycling of household electronic equipment that has 
a net-negative cost to recycle, such as cathode ray tubes in monitors 
and televisions. ISRI firmly believes that producer responsibility will 
provide manufacturers with the needed incentive to design their 
products with an eye to the future, incorporating design changes that 
maximize recycling at the end-of-life.
    We strongly encourage the Congress and the states to end any 
financial mechanism as soon as markets for recyclable electronics 
become economically viable. We are not an industry that seeks 
government subsidies, and we believe markets must ultimately stand on 
their own based on solid business principles. However, whatever 
financial mechanism the Congress and the states might decide to adopt 
in order to sustain this market, ISRI suggests that a portion should be 
applied to the research and development of end-use markets for the 
scrap materials recovered from electronics products, particularly mixed 
plastic resins and leaded lass.

Concentrate on Household Monitors & Televisions
    Many states are asking OEMs to pay for the costs to recycle 
electronic equipment that has a positive value to recycle. This makes 
no sense. Recyclers do not need help covering the costs of recovering 
positive valued electronics, like central processing units, laptops and 
cell phones. ISRI suggests that the federal bill only begin with 
consumer generated monitors and televisions with cathode ray tubes. You 
may recall that EPA in recent years finalized a federal rule for CRTs, 
and their action was very timely in light of the digital transition. 
That action may help to alleviate consumers' reluctance to pay to 
responsibly recycle these devices.

Electronic Scrap Must Be Allowed To Move
    States lack the jurisdiction to regulate exports. Nevertheless, 
ISRI contends that the stigma associated with ``exporting'' is 
misguided and exports should be viewed from the prism of the realities 
of the global economy. The focus should be to promote responsible 
recycling globally and concentrate efforts towards enhancing and 
promoting environmentally capable facilities that will receive and 
properly handle recycled materials anywhere in the world.

Reasonable Performance Requirements
    OEMs, in association with interested stakeholders should determine 
the best process performance requirements placed on their businesses; 
however, there is a growing concern in Europe that performance 
requirements that are too aggressive can distort the collection market 
and ultimately the long-term sustainability of electronics recycling. 
Many in Europe (and a growing number in the U.S. concerned about 
domestic programs with high quotas such as Minnesota's) now argue that 
performance quotas which are too high can distort the price of 
collection by forcing OEMs to compete for a limited supply of 
electronic devices. Nevertheless, any quota system should track the 
available supply as it relates to the phased-in landfill ban.

Include Transportation Costs
    ISRI suggests that transportation costs need to be included with 
the OEM obligations because the transportation expense associated with 
moving old computer monitors and TVs into the recycling stream is one 
of the largest costs of electronics recycling. Without addressing this 
important consideration, it is likely many of these older and heavier 
products will not be returned to the recycling stream by their owners. 
Therefore, any collection system must cover all the costs of 
transportation in order for the program to be effective.

Landfill Ban for Recyclable Material
    As with most states, keeping these materials out of the landfill is 
an important component to ensuring enough supply is available to enable 
an economies of scale business model. Under existing federal law, 
consumers can dispose of their household electronic equipment legally. 
In order to ensure adequate supply for positive-valued electronics 
equipment, ISRI supports a national land-fill ban for recyclable 
material that cannot be safely and economically recycled using existing 
technologies and methods.

Reasonable Recycling Standards
    ISRI promotes the benefits of comprehensive, integrated 
environmental, health and safety and quality management systems, such 
as ISRI's Recycling Industry Operating Standard (RIOS), implemented by 
electronics recyclers as a means to promote and to ensure the proper 
handling of electronic products destined for recycling.
                   Answers to Post-Hearing Questions
Responses by Ted Smith, Chair, Electronics TakeBack Coalition

Questions submitted by Chairman Bart Gordon

Q1.  In your testimony, you suggest a National Sustainable Electronics 
Initiative. Which federal agency or agencies should oversee this 
initiative? How should industry be involved?

A1. We propose that Congress establish a new National Sustainable 
Electronics Initiative which would be composed of a National Clean 
Electronics Council (a governing body) and a National Clean Electronics 
Research and Development Fund (funded by Congress.) Rather than house 
this new Initiative in any one federal agency, we propose that it be a 
collaborative effort that would include several federal agencies as 
well as participation from industry, academia and non-governmental 
organizations. We have looked at the National Nanotech Initiative and 
the National Renewable Energy Laboratory's (NREL's) Science and 
Technology Organization as potential models. Both include broad 
representation of federal agencies with outside stakeholders and serve 
as good models to address other major federal needs. Our proposal is 
for an ``initiative'' rather than a new single agency ``center'' and 
the inclusion of the National Clean Electronics Council is similar to 
the governing structure established for the National Nanotech 
Initiative.
    We believe that it would be most effective if it includes a broad 
range of expertise from federal agencies which could include the 
Department of Commerce, Department of Energy, Department of Health and 
Human Services, National Institute for Occupational Safety and Health, 
Environmental Protection Agency, Department of Labor, Occupational 
Safety and Health Administration, National Science Foundation, the 
National Labs, Consumer Products Safety Commission, and other agencies 
and departments with appropriate expertise. Representatives from 
industry will need to be significantly involved--especially those who 
are already involved in research and development, as well as in 
environmental and occupational health and safety.
    Another arena that we believe should be assessed is the model of 
the Centers for Excellence in the semiconductor industry (through 
SEMATECH) as well as for nanotechnology, which provide for 
collaboration between academia and industry. Another example is the 
Center of Excellence for Photovoltaic Research and Education.
    One of the key issues that will need to be addressed, however, is 
the need for real transparency and effective public participation, 
which often present challenges when dealing with the electronics and 
scrap industries. It is also essential that `customers' who generate e-
waste (such as corporations, universities, municipalities, etc.) are 
valued stakeholders in the process of defining a solution to this 
problem, as they have needs around data security, CRCLA liability, 
brand name protection, etc.
    We believe that a real public/private partnership between the 
Federal Government and industry experts--with full collaboration from 
universities and NGOs--is necessary to address these concerns in a 
comprehensive manner. We look forward to working with the Committee to 
further define and give shape to this initiative as it moves forward.

Q2.  In your testimony you stated that 50 to 80 percent of the 
electronics products taken in for recycling are instead shipped to 
developing countries where they are de-manufactured in unsafe and 
environmentally harmful conditions. What accounts for the range in your 
estimate?

A2. The 50 percent to 80 percent figure is an estimate that we have 
developed through extensive discussions with experts in the industry. 
We initially developed this estimate when we were researching and 
writing the first report on the hazards of exporting electronic waste--
``Exporting Harm: The Toxic Trashing of Asia'' by Basel Action Network 
and Silicon Valley Toxics Coalition, February 25, 2002. See http://
www.computertakeback.com/docUploads/Exporting<INF>-</INF>Harm.pdf for 
the full report. In doing this research, we discovered that the Federal 
Government does not collect data on hazardous waste exports so it is 
unable to measure or monitor this growing problem. Since there is no 
effective federal oversight of e-waste exports, the only way that we 
are able to make this estimate is by surveying the experts in the 
industry. It is a significant fact that the U.S. does NOT have any 
definitive quantities and destinations for exports of electronic waste. 
All other developed countries, and a total of 170 nations are legally 
bound to control and monitor their exports of toxic waste, as a result 
of ratifying the Basel Convention. The U.S. (the largest generator of 
e-waste globally) has no system in place to quantify--much less 
restrict--where our toxic waste ends up.
    The reason most electronic waste collected for recycling is 
exported is that waste generators here is the U.S. (such as 
corporations, universities, municipalities, individuals, etc.) are 
faced with a choice between paying for their e-waste to be responsibly 
managed in the U.S./developed world versus generating revenue by 
selling their e-waste to a broker or `recycler' who exports it to the 
highest bidder globally, usually China.
    For example, many municipalities across the country want to keep 
these toxins out of their landfills and would like to offer free 
recycling to the public so that there is no disincentive for the public 
to bring equipment in, but this can be very expensive for local 
governments. Because of these pressures, less savvy solid waste 
officials frequently contract with exporters to either take all the 
equipment for free or even buy it for a few cents on the pound. These 
exporters usually do nothing other than repackage the e-waste into 
international shipping containers, exporting everything from sensitive 
data on hard drives to toxic waste (which is illegal for many nations 
to import from the U.S.). On the other hand, responsible U.S. recyclers 
with permitted warehouse facilities, providing data security, worker 
protections, U.S. wages, etc., must charge customers for managing this 
toxic waste. Even though the metals market currently has a high market 
value, responsible recyclers in the U.S. repeatedly tell us that proper 
management of the leaded glass, mercury lamps, etc., results in a net 
cost for the overall labor and administration of this complex waste 
stream.
    In our unregulated U.S. arena, not only are there no hard numbers 
quantifying exports, but there is a very wide range of recycling 
practices in an often unscrupulous industry. This eaves it up to the 
waste generators to navigate a complex, multi-tiered world of brokers 
and middle men, all looking to make a profit on this problematic waste 
stream.
    An additional factor that encourages export of e-waste is that some 
U.S. based companies that call themselves recyclers are unscrupulous. 
They engage in outright bribery in sending shipments of hazardous waste 
to foreign countries, since it is illegal for about 140 countries--the 
non-OECD Basel Parties--to trade in toxic waste with the U.S. In one of 
the most notorious cases documented, Mark Dallura of Chase Electronics 
explained how the system works:

    ``Mark Dallura, head of Chase Electronics Inc. of Philadelphia, 
which buys discarded computers in the United States and then ships them 
to China via Taiwanese middlemen based in Los Angeles, said he has been 
in the trade for 15 years and has not been slowed by the [Chinese] ban.
    ``I sell it to [the Taiwanese] in Los Angeles and how they get it 
there is not my concern,'' Dallura said. ``They pay the customs 
officials off. Everybody knows it. They show up with Mercedeses, rolls 
of hundred-dollar bills. This is not small time. This is big-time 
stuff. There's a lot of money going on in this.''
    Dallura said his company gets many of its old computers from 
recyclers scattered across the United States. They pick them up from 
well-intentioned citizens and businesses that hand them off at events 
organized by cities and counties aimed at keeping e-waste out of 
landfills. He acts as a broker, consolidating container shipments that 
he then hands off to the middlemen. Most weeks, he ships at least one 
container bearing 45,000 pounds of such waste.
    A container full of computer monitors brings him a fee of $2,600, 
he said. During a recent week, he planned to ship four containers. Two 
were bound for Hong Kong, the other two for Nanhai, bearing mainframe 
computers not covered by China's ban.
    ``I could care less where they go,'' Dallura said. ``My job is to 
make money.''

    ``China Serves As Dump Site For Computers'' Washington Post, 
Monday, February 24, 2003.
    http://www.etoxics.org/site/
PageServer?pagename=svtc<INF>-</INF>washpost<INF>-</INF>2<INF>-</INF>24<INF>-</INF>
2003

    Since these early stories of exporting toxic e-waste were 
published, there has been tremendous consolidation and growth in the 
U.S. e-waste recycling industry. Yet, most of these U.S. companies face 
frustration as they are well under capacity. In contrast, exporters 
offer cheaper or free service, subsidized by human health and the 
environment in developing countries.
    In recognition of the seriousness of the impact of exporting 
hazardous e-waste, the GAO is currently investigating the extent of the 
problem, at the request of late Chairman Tom. Lantos. The GAO is 
expected to report back to Congress this fall.

Q3.  You stated that electronic waste ``would not be an issue if the 
products themselves were not so toxic.'' Does Europe's Restriction on 
Hazardous Substances (RoHS) Directive sufficiently address the toxicity 
issue for electronics? You also state that electronics products are 
``poor[ly] designed'' in terms of recyclability. With the increased 
adoption of extended producer responsibility legislation, have 
producers made any changes to their products to make them easier to 
recycle?

A3. While the RoHS Directive will help address the toxicity issue to 
some degree, it is really only a drop in the bucket when assessing the 
overall problem. The current version of RoHS addresses only 6 of the 
more than 1000 substances that are involved in the manufacture of 
electronic products, many of which are toxic--carcinogens, reproductive 
toxins, neurotoxins, tetratogens, etc. With that said, the European 
Union is set to revise RoHS over the next twelve months and include 
additional substances since there was recognition that RoHS version 1 
was a small first step towards greening the supply chain of the 
electronic sector. This is another area where the U.S. needs to become 
more active.
    An important recently published epidemiological study published by 
Richard Clapp of Boston University found high rates of cancer among 
manufacturing workers at IBM plants in the U.S. See Mortality among 
U.S. employees of a large computer manufacturing company: 1969-2001, 
http://www.ehjournal.net/content/5/1/30. The study, which evaluated the 
cause of death for over 30,000 IBM workers, concludes:

    ``Mortality was elevated due to specific cancers and among workers 
more likely to be exposed to solvents and other chemical exposures in 
manufacturing operations. Due to lack of individual exposure 
information, no conclusions are made about associations with any 
particular agent.''
    Some product designers tell us that manufacturing of new products 
happens in China and other developing countries because Original 
Equipment Manufacturers (OEMs) demand the use of chemicals (e.g., to 
achieve specific surface treatments) that are no longer allowed in U.S. 
manufacturing facilities.
    It is clear that the issue of toxicity is pervasive in electronics 
products--from manufacturing through disposal. This is why we need a 
major R&D initiative that helps major OEMs--many of which have 
headquarters and research and development operations based in the 
United States--to replace chemicals and materials that are problematic 
throughout the life cycle of their products with safer more innovative 
alternatives. Enhanced research and development of environmentally 
improved chemicals and materials can also be an important step toward 
improved global competitiveness.
    It is also true that electronic products are poorly designed in 
terms of recyclability. Since manufacturers have not been financially 
or physically responsible for end-of-life treatment historically, they 
have not felt the need to design for recyclability. For example, 
recyclers tell us that one electronic device may have 6-8 different 
types of screws or fasteners needed to de-manufacture a single piece of 
equipment, requiring workers to change tools multiple times, increasing 
ergonomic stresses and slowing efficiency. This is beginning to change 
with the recent implementation of the Waste from Electronics and 
Electrical Equipment (WEEE) directive in Europe (2006) and similar new 
initiatives in many other countries, and this is the principle reason 
that we are supporting similar legislation here in the U.S. However, it 
is still too early to see much direct impact from product re-design in 
response to these new initiatives, as most of the current waste stream 
doesn't include these new products. In fact, one of the most 
significant technological innovations--the development of flat panel 
monitors and TVs to replace Cathode Ray Tube (CRT)--has resulted in the 
creation of new problems for recyclers. While the large amount of lead 
in CRTs has presented one of the most significant challenges for 
recycling, the transition to flat panel Liquid Crystal Displays (LCD) 
monitors which contain mercury lamps has created new challenges, since 
most of these monitors were not designed for ease of removing the 
mercury before shredding or recycling. To make matters worse, many 
manufacturers are not inclined to re-design these monitors to increase 
the ease of disassembly. To do so would include costly design changes 
at a time when most manufacturers are developing the next generation of 
products based on light emitting diode (LED) technology. This is a good 
example of how rapid technological change invariably outpaces the 
ability of government, workers, communities, and recycling communities 
to keep up and why we need a major new initiative to require some 
baseline minimums for toxic inputs and design for recycling, and to 
better integrate the advances in technological change with society's 
need for improved health and environmental protections.
    I am providing links to the following articles from Clean 
Production Action that further elaborate on these issues:

        1.  How Producer Responsibility for Product Take-back Can 
        Promote Eco-Design, http://www.cleanproduction.org/pdf/
        cpa<INF>-</INF>ecodesign<INF>-</INF>Apr08.pdf

        2.  Why promote Green Chemistry, http://
        www.cleanproduction.org/Green.php

Q4.  What responsibility should the consumer bear for the end-of-life 
management of electronics? How can consumers be better educated about 
recycling and who should do this? Do you believe that an eco-label or 
eco-rating system for consumer electronics would motivate consumers to 
buy products that were more environmentally friendly?

A4. There is a very significant need for better consumer education 
about the myriad challenges of dealing with end-of-life electronics. 
Most consumers still are not aware of the hazards resulting from 
disposal of their old electronic products. Even for those who are, 
there are no free and convenient options readily available in most 
cases. Some consumers who are more aware of the irresponsible disposal 
of e-waste are hesitant to recycle their e-waste for fear it will not 
be responsibly recycled. The Federal Government needs to act to stop 
low-end practices of dumping e-waste on developing countries and 
federal prisons so that all those with e-waste--consumers and 
institutions--can do so without fear of contributing to the poisoning 
of other people.
    However, there needs to be a combination of massive public 
education and increase in consumer options in order to address the role 
and responsibility for consumers. One without the other simply does not 
work. Yet, with appropriate attention to education and convenience, it 
will be possible to make major changes in the way that consumers deal 
with their obsolete products, much in the same way that many consumers 
have significantly changed their behavior with respect to recycling 
paper, aluminum and plastic over the past few years. To create an 
effective infrastructure for collecting e-waste from consumers for 
recycling or reuse, we need to undertake a major expansion of options 
for consumers, including return to retail stores, return to nearby 
collection centers, free mail back, etc. There is a need to encourage 
people to get their equipment into reuse streams when the equipment has 
the most value for another user.
    Eco-labels can be a part of this needed cultural change, as has 
been shown in several European countries. The TCO eco-label in Sweden, 
for instance, has a consumer awareness and acceptance of over 80 
percent. Thus, many manufacturers design their products to meet the 
requirements of the European labels in satisfaction of consumer 
demands. While the U.S. lags far behind Europe in this regard, there is 
reason for optimism with the experience of the Energy Star label, as 
well as with the early interest with the EPEAT labels. Again, the 
increased availability (and affordability) of eco-label branded 
products combined with greater public education will help to motivate 
more consumers to purchase more environmentally friendly products, and 
more manufacturers to make them.

Questions submitted by Representative Ralph M. Hall

Q1.  How have electronics in the waste stream changed over the past 
decade and what predictions can we make about changes in the coming 
years? How do these changes affect our ability to safely and 
efficiently recycle or reuse these devices?

A1. One of the most important changes in the electronics waste stream 
over the past decade is the enormous growth rate, both in the number of 
new products and in the decreasing life span of new products. 
Electronics innovation is largely driven by Moore's law (named for 
Gordon Moore, inventor of the semiconductor and one of the founders of 
Intel, who predicted in the 1970s that each new generation of 
electronic products would be twice as fast and twice as small as the 
previous generation ( a generation of electronic products is about 18 
months to two years). This prediction has held true for more than three 
decades and has been the source of the enormous innovation driver for 
the industry. It has also been the underpinning of the rapid 
obsolescence that underlies the rapid growth of e-waste. This 
phenomenon, when combined with the development of entirely new 
electronic products--such as mobile phones, portable music players, 
flat panel displays, electronic games, etc.--has led to the explosive 
growth in e-waste which is creating the crisis that we are now 
attempting to address. Just as the growth rate for technological 
developments predicted by Gordon Moore is exponential, so too is the 
growth rate of e-waste.
    The rapid increase in e-waste makes it extremely challenging to 
develop comprehensive reuse and recycling systems that are capable of 
keeping pace. We need to address the huge stockpile of ``historic 
waste'' that has accumulated over the past few decades while at the 
same time expanding our infrastructure to address the new growth in 
future e-waste. That is why setting effective goals and timetables for 
manufacturers to meet is so important, since they need to develop the 
capacity to properly collect and recycle not only their fair share of 
their historic waste but also to collect and recycle all of their newly 
created e-waste. When the leading companies acknowledge that they are 
only collecting about 15 percent of their waste products when compared 
to new sales, it is a compelling argument that we need enforceable 
goals and timetables in order to catch up to the rapidly escalating 
problems. We need to get to the point where companies have successfully 
reduced their historic or legacy waste to zero as well as implemented 
an effective program to collect and process all of their future e-
waste.

Q2.  Most major manufacturers claim that they do not ship e-waste 
oversees for recycling. Where does the e-waste found in environmentally 
unsound recycling operations originate?

A2. Most e-waste that gets into the ``recycling stream'' (as opposed to 
the waste stream) is currently collected and recycled by municipalities 
(in collection events and permanent facilities), recyclers, asset 
recovery operations, and independent waste haulers--not by the 
manufacturers. The sources of the e-waste that is being disposed of in 
unsound operations are many and varied--from discards by public 
agencies to corporate disposal to household hazardous waste. The old TV 
that a well-meaning consumer hauls down to his city sponsored e-waste 
collection event on Earth Day very likely ends up being exported to 
Asia, Africa, or Latin America where it is causing great harm. In fact, 
the report by the Basel Action Network--``The Digital Dump: The Export 
of Reuse and Abuse to Africa'' which documents such abuses includes an 
appendix that lists the origin of e-waste found in Nigeria, based on 
the asset tags. See http://www.ban.org/BANreports/10-24-05/documents/
ListofAssetTags.xls. The report includes photos of 90 asset tags which 
identify the many diverse original owners of the equipment such as the 
Department of General Services, St. Mary's Hospital, City of Houston, 
Headquarter of U.S. Army Corps of Engineers, Trinity College, IBM, U.S. 
Government Property, Wauwatosa School District, San Mateo Union High 
School District, Illinois State Police, Kansas Department of 
Transportation, Michigan Dept. of Natural Resources, and Federated 
Systems Group, INC. The link to the full report is at http://
www.ban.org/BANreports/10-24-05/index.htm and the link to the Asset Tag 
appendix is at http://www.ban.org/BANreports/10-24-05/documents/
ListofAssetTags.xls. Tax payer supported public institutions (such as 
universities, school districts, etc.) are under enormous pressure to 
select ``low bid'' recycling contractors to dispose of their e-waste, 
so it no surprise that much of the e-waste that ends up being exported 
to developing countries originates from these institutions. This is 
another reason why we need to prohibit the export of hazardous e-waste 
to developing countries in order to protect public institutions from 
having to do business with low-bid exporters.
    While manufacturers (and others) frequently claim that they do not 
ship e-waste overseas for recycling, there are four important facts to 
understand:

        a.  The U.S. has shut down all of its secondary smelters except 
        one (which does not process circuit boards) and therefore the 
        U.S. companies currently export their circuit boards to other 
        countries. Some companies, however, ship these obsolete circuit 
        boards to state-of-the-art smelters in Canada and Europe where 
        they are processed in a responsible manner. Circuit boards 
        clearly do not need to be exported to developing countries 
        where they continue to cause great harm to health and 
        environment. The question is not whether hazardous e-waste is 
        exported, since much of it is, but rather exported to where.

        b.  Leaded glass has two primary types of destinations (other 
        than landfills), which are to lead smelters (like the one 
        remaining in the U.S., which has limited capacity and charges 
        for accepting the glass), and to manufacturers of new CRTs, 
        which are no longer located in the U.S., and are almost 
        exclusively located in developing countries now. So any U.S. 
        company sending old CRT glass into the ``glass-to-glass'' 
        market, for `recycling' into new CRTs, must export the leaded 
        glass out of the U.S. Unfortunately, there are not currently 
        other, better options available for CRT glass.

        c.  Many companies exporting e-waste simply label the volumes 
        as going for `reuse' (not recycling), regardless of the end 
        destinations or usage. This is the central theme of BAN's 
        second documentary film, ``The Digital Dump.''

        d.  Many unscrupulous companies will frequently say that they 
        do not export any electronic materials, when they turn it over 
        to brokers or others who do the exporting. This is a very 
        common `white lie' in the industry.

Q3.  Your testimony focuses on the potential harms of exposure to toxic 
chemicals in electronics. However, doesn't exposure primarily occur 
during the recycling and waste disposal stages? Since average consumers 
have little risk of exposure from their electronic products, shouldn't 
we focus our efforts on the end-of-life environmental concerns?

A3. While there is exposure to toxic substances throughout the life 
cycle of electronic products, the two most toxic phases in the life 
cycle of electronics are in the manufacturing and in recycling of the 
products. The most significant exposures to toxic chemicals occur in 
the manufacturing stage of the electronics life cycle, even more than 
in the waste disposal stages. Hundreds of thousands of people are 
involved in electronics manufacturing, far more than are involved in 
recycling, and the variety of toxic chemical exposures are also more 
extensive, since many of the chemicals used in manufacturing do not end 
up in the products but rather end up as hazardous waste or released 
into the environment. I have attached two articles that further 
elaborate on these health hazards: the ``Cancer and Reproductive Risks 
in Semiconductor Industry'' by Dr. Joseph LaDou and John Baillar and 
published in the International Journal of Occupational and 
Environmental Health (2007) and a paper that assesses the health 
hazards in the circuit board industry entitled ``Printed circuit board 
industry'' by Dr. Joseph LaDou from International Journal of 
Occupational and Environmental Health (2006). A long awaited study of 
chronic health issues among semiconductor industry workers (funded by 
the Semiconductor Industry Association) is due to be published in 2009 
by researchers at Vanderbilt University.
    In addition, recent studies have emerged indicating that people are 
being exposed to toxic chemicals during the use of these products in 
our homes and workplaces. Fire retardant chemicals that are used in 
electronics, including the outer enclosures of TVs, can migrate out of 
consumer products and find their way into our bodies. A study by Dr. 
Arlene Blum (http://greensciencepolicy.org/files/standards/
MASTERWhitepaper.pdf) revealed that fire retardants are being ``found 
in rapidly increasing levels in dust, the food chain, pets, wild 
animals, and human fat, body fluids and breast milk worldwide. The 
United States has much higher levels of fire retardant chemicals in 
dust, food, and breast milk than Europe where fire retardants are less 
used. The average U.S. woman's body and breast milk contains fire 
retardant levels approaching those that cause adverse reproductive and 
neurological health problems in animals.''
    The Boston University School of Public Health just published an 
article on April 30, 2008 showing that bromine levels in TVs can be 
related to decaBDE levels in dust in homes. Those homes with more 
occupants, and therefore presumably more TV usage, demonstrated higher 
levels of decaBDE in the dust. It is believed that as the temperature 
of the plastic TV enclosure increases due to usage, the rate at which 
the decaBDE migrates from the TV into the dust is also increased 
(http://pubs.acs.org/cgi-bin/abstract.cgi/esthag/2008/42/i11/abs/
es702964a.html). The presence of fire retardants in household dust is 
especially worrisome because children take in approximately seven times 
more pentaBDEs each day than adults (Lorber, M. 2007, Exposure of 
Americans to polybrominated diphenyl ethers. Journal of Exposure 
Science and Environmental Epidemiology, published online April 11, 
2007). Flame retardants are one example of a chemical contained within 
electronics that poses hazards throughout its entire life cycle, 
including the household and workplace use phase.

Q4.  Are worker and environmental safety protections in the U.S. 
adequate for e-waste recyclers? Would you support a system whereby U.S. 
recyclers handled only certain commodities, like CRT monitors?

A4. Worker and environmental safety regulations pertaining to this 
waste stream are patently inadequate in the U.S. In fact, many of the 
toxic materials are exempt from RCRA definitions of hazardous waste, 
such as the mercury lamps in LCD screens, circuit boards, and all e-
waste generated by households. While some recyclers have established 
state-of-the-art health and safety protections for their workers, going 
far beyond compliance, most do not. The lack of meaningful OSHA 
regulations and enforcement, or other worker health and safety 
standards for recycling workers adds to the hazards. The recycling 
industry is still relatively new and has not had (to the best of our 
knowledge) any comprehensive health assessments or industrial hygiene 
assessments done. At the same time, there have been isolated studies 
done suggesting that recycling workers are being exposed to hazardous 
materials in the processing of e-waste. One of the leading such studies 
conducted in the U.S. is entitled ``Occupational risks associated with 
electronics de-manufacturing and CRT glass processing operations and 
the impact of mitigation activities on employee safety and health'' by 
Peters-Michaud, N.; Katers, J.; Barry, J. from Cascade Asset 
Management, LLC, published in Electronics and the Environment, 2003. 
IEEE International Symposium, Volume, Issue, 19-22 May 2003 Page(s): 
323-328. For the full report which evaluates specific emphasis on the 
impact of operational and training improvements to mitigate exposure to 
potential harm from airborne contaminants and other environmental 
hazards, see http://ieeexplore.ieee.org/Xplore/login.jsp?url=/iel5/
8575/27162/01208098.pdf?arnumber=1208098. Another widely cited health 
study of e-waste recycling workers is Flame Retardant Exposure: 
Polybrominated Diphenyl Ethers in Blood from Swedish Workers by Andreas 
Sjodin, et al., Environmental Health Perspectives Volume 107, Number 8, 
August 1999, http://www.ehponline.org/docs/1999/107p643-648sjodin/
abstract.html.
    Similar health concerns have been documented at e-waste recycling 
facilities managed by UNICOR in federal prisons. See ``Corporate 
Strategies for electronics recycling: A tale of two systems'' published 
by Silicon Valley Toxics Coalition and Computer TakeBack Campaign, 
2003, http://www.etoxics.org/site/DocServer/
prison<INF>-</INF>final.pdf?docID=201. This is particularly important 
since the U.S. Government is the single largest customer for UNICOR, 
which has been investigated by the U.S. Department of Justice due to 
complaints of toxic exposure to prison guards, prison staff and 
inmates. In fact, when Leroy Smith, a safety manager for United States 
Penitentiary Atwater in California tried to address the health and 
safety hazards inside the prison where he worked, his warnings were 
ignored, he was subjected to retaliation by his superiors, and he was 
subsequently recognized by the U.S. Office of Special Counsel as a 
Public Servant for his actions as a whistleblower. For further 
information, see http://www.peer.org/news/
news<INF>-</INF>id.php?row<INF>-</INF>id=687; http://www.peer.org/news/
news<INF>-</INF>id.php?row<INF>-</INF>id=746; http://www.osc.gov/
documents/press/2006/pr06<INF>-</INF>16.htm
    We do not believe that only CRT monitors should be handled within 
the U.S. since that serves to push our problems off onto others around 
the world.

Q5.  What is an appropriate metric for recycling? Should we calculate 
by the weight of material that is recycled or should we measure by the 
number of units that are disassembled but not entirely recycled?

A5. This is an important question and one that is at the center of a 
major debate now taking place amongst the e-waste recycling 
stakeholders. Many favor using weight as the metric because of its 
relative ease in measuring and widespread usage in industry practices 
already; others favor the use of units since it is the best way of 
measuring the number of units recycled compared to the number of units 
sold as a way of measuring a company's progress toward its overall fair 
share goal. Weight is a less burdensome requirement, and the definition 
of a `unit' can get complicated with components and subassemblies 
arriving from consumers. Likewise, it is not useful to compare a large 
TV console with a small cell phone for recycling purposes, even though 
each is ``one unit.'' The other major debate at this time is whether 
``fair share'' metrics should be evaluated compared to ``market share'' 
or to ``return share.'' Companies that currently hold a small or no 
market share (such as IBM) favor a market share approach, while 
companies that hold a growing market share but a relatively small 
return share favor the alternative approach (newer market entries). 
Since a main purpose of effective metrics is to drive the development 
of a comprehensive recycling system which apportions financial 
responsibility fairly, it is important to develop metrics that can be 
used to help measure both weight and units. There is a significant need 
to improve the data collection across the board--from collection, to 
processing, to export--in order to help develop a more robust and 
effective e-waste recycling infrastructure.

Q6.  Does the Electronics Take-Back Coalition collect statistics on 
recycling by individual manufacturers? Do you know what the average 
recycle rate of manufacturers is in the U.S. for the following 
products: CRT monitors, televisions, computers, car batteries, and cell 
phones?

A6. While ETBC has attempted to collect such statistics, it is very 
difficult since only the manufacturers themselves have this data and 
until recently they have not made it public. Based on recent 
environmental reports by Hewlett-Packard and Dell, we have the 
following information available:

        <bullet>  There are low overall recycling rates when compared 
        to sales:

                --  2007--HP had reuse/recycling rate of 15 percent 
                compared to sales seven years ago (including remarketed 
                equipment). That's up from 10 percent in 2006.

                --  Dell had a reuse/recycling rate of just over 12 
                percent in 2006.

        <bullet>  Companies don't state annual goals compared to 
        sales--just overall volumes.

        <bullet>  There is no common way companies track information 
        comparing to sales.

        <bullet>  There is little transparency in reporting--it is 
        difficult to really understand how we are doing in addressing 
        this problem.

        <bullet>  There is no reliable data available by manufacturer 
        that describes the recycling rate by product such as CRT 
        monitors, TVs, computers, cell phones, etc.

        <bullet>  Dell breaks down recycling volumes by avenue of 
        return (HP does not):

                --  Asset Recovery Services End-of-lease Returns

                --  Consumer Recycling Programs and Goodwill End-of-
                life Parts

                --  Asset Recovery Business and Dell Factory

                --  Outlet--Consumer returns and exchanges less than 
                thirty days

                --  Recycling Events and Tours

    This is another area where there is a significant need for better 
data.

Q7.  Is there a full array of non-toxic substitutes currently available 
for use by electronic manufacturers?

A7. There is not a ``full array of non-toxic substitutes currently 
available'' which is one of the main reasons why we are promoting the 
National Sustainable Electronics Initiative and why we need to 
significantly increase the research and development funding for green 
engineering and green chemistry. Many currently essential compounds 
used in electronics production are toxic; they currently do not have 
readily and easily available and effective alternatives that have been 
demonstrated to be safer. There are some recent examples of success 
stories for the substitution of certain materials--such as the 
replacement of lead solder and brominated flame retardants in response 
to the RoHS directive in Europe. A small set of market leaders within 
the industry are working to establish chemical/material standards, but 
this is very difficult to do without government regulations that level 
the playing field for the entire sector. Also, there are still 
significant questions about which substitutes are the ``most'' 
sustainable, when evaluating not only toxicity but also persistence, 
bio-accumulation, greenhouse gas potential, etc. That is why we 
presented information about the ``Green Screen'' which can help 
companies make informed choices. See http://www.cleanproduction.org/
Green.Greenscreen.php for more information. It is also true that for 
many other toxic chemicals used in electronics, there has not been 
significant research done to evaluate safer alternatives--at least not 
that has been made public.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 100 million computers, TVs, and monitors are thrown away each 
year. In addition, the EPA estimates that electronic waste is growing 
two to three times faster than any other waste stream. Yet presently, 
there is no specific federal law or regulation governing the disposal 
of consumer electronic products in the U.S. Should there be?

A1. Yes. We do not believe that solid waste (non-hazardous) landfills 
and incinerators are an acceptable final disposition for known toxins, 
such as lead, mercury, cadmium, arsenic, hexavalent chromium, 
polybrominated diphenylethers, etc. In addition to questions about long 
term leaching from plastic lined landfills, solid waste officials are 
increasingly worried about future liability for allowing these immortal 
heavy metals and chemicals into non-hazardous landfills and 
incinerators. Already, studies show that 70 percent of heavy metals in 
landfills come from electronic waste.
    Several states have already banned at least some electronic 
components from disposal in solid waste facilities, frustrated that the 
Federal Government has not addressed this complex and partially toxic 
waste stream. In addition, countless cities and counties across the 
country have also banned such disposal, even ahead of their State 
legislatures. The amount of scientific literature on the toxic impacts 
of lead alone ought to be enough to convince anyone that putting them 
in landfills make no sense whatsoever.
    We believe that there is a real need to establish ground rules for 
addressing hazardous e-waste, similar to what the Europeans did with 
the WEEE directive. But we also believe that the states have an 
important role to play in serving as the incubators of effective 
policy. Thus, any federal initiative must build on the experience of 
the states rather than undermine them. In particular, we believe that 
the Federal Government should first ban the export of toxic e-waste to 
developing countries Perhaps, in the future there should be a strong 
federal solution that is modeled on the best State laws, but a weak 
federal effort that undermines the states and preempts them with weaker 
language that sets a low bar as a ceiling would be a major setback. A 
federal law that sets minimum standards and allows and encourages 
states to go beyond those standards would be a good model and one which 
works well in many other arenas. It is also important to remember that 
traditionally waste policy and practice has been the province of local 
(and State) governments that are closest to the problems, and that it 
is imperative that national legislation support this model and not 
undermine it.

Q2.  The EPA estimates that at most, only 15 percent of products at the 
end of their useful lives reach a recycling or reuse program. This does 
not come as a shock to me. In fact, it might seem a little high given 
the impediments that consumers currently face.

Q2a.  First, how are average consumers to know what to do with their e-
waste when it comes to the end of its useful life?

A2a. We need a comprehensive, well financed public education campaign 
to better inform consumers about what to do with their obsolete 
electronics--starting with the importance of reuse as a first priority. 
At the same time we need a comprehensive, convenient and accessible and 
affordable e-waste recycling and reuse infrastructure so that consumers 
who are informed will be able to access it. We need to make recycling 
of electronic products just as easy as it is to buy new products. We 
have been engaged with many companies at the highest level urging them 
to engage their customers to inform them about the importance of 
recycling--at the point of purchase, on the new products or packaging 
themselves, through utility billing, solid waste official websites, as 
well as at convenient end-of-life recycling sites. The sales and 
marketing ingenuity of companies like HP, Dell, Sony, Apple, etc. to 
educate consumers about how and why to purchase new products has been 
demonstrated conclusively. They can also use those skills to educate 
their consumers on how to properly recycle their equipment. The tobacco 
industry and the alcohol industry have invested significant amounts of 
funds in robust advertising campaigns to promote responsible consumer 
behavior; there is no reason why the electronics industry can't do the 
same. These efforts, of course, should be done in close collaboration 
with other stakeholders to help make sure that the both the messages 
and the delivery of the messages, are effective.

Q2b.  This past weekend, Washington, D.C. held an e-waste recycling 
day. Over ten times as many residents as last year showed to recycle 
their gadgets, leading to over two hours wait time. The incentives to 
recycle just don't seem to be there right now. What do you recommend be 
done to fix this problem?

A2b. This exact same phenomena has occurred in many places around the 
country for the past several years, due to the pent up demand by 
consumers to find accessible recycling options. In fact, in some cases 
the lines of cars waiting to recycle e-waste were so long that they 
created major traffic jams and had to be shut down. The solution is not 
to keep holding individual events, although they can be useful to 
initiate public discussion. What is really needed, however, is a 
permanent, ongoing, convenient system that makes it easy for consumers 
to recycle their old products so that it becomes a normal habit, much 
the same way that people now are in the habit of recycling cans, 
bottles and newspapers. Yet, because recycling electronic products is 
more complicated and potentially hazardous than these other products, a 
curb-side collection model is not favored. Likewise, there is a much 
more important reuse market and potential for electronic products, and 
putting them into curbside collection containers could undermine their 
reuse potential. Developing policies that promote a major expansion of 
e-waste recycling collection sites and methods is the real key to 
developing an effective infrastructure--a wide variety of sites and 
methods that include retail stores, charities like Goodwill, shopping 
malls, schools, offices, community centers and senior centers, 
apartment complexes, transfer stations, mail back programs, etc. Sony 
has developed a good model, for a start, by announcing that their goal 
is to establish a recycling drop off site within 20 miles of most of 
the U.S. population; ultimately we will need a model that provides for 
even closer proximity. While we are a long way from meeting that goal, 
it is important that we get there as quickly as possible and then 
improve it so that it is even more convenient. It ought to be recalled 
that when consumers had to travel five to 10 miles to drop off their 
household recycling, the participation rate was very low, but when 
collection became convenient, the rates of participation went way up. 
It ought also to be noticed that many electronic products are much 
heavier and more difficult to transport than are other household goods 
that are recycled.
    One additional development of note is that some of the producers--
such as Sony, Dell, Hewlett Packard, Apple, etc.--as well as some 
retailers--such as Best Buy--have been experimenting with incentives to 
encourage consumers to bring back their old electronics when purchasing 
new products and their experiences have been generally favorable. 
Consumers have responded well to coupons that provide discounts on 
purchases of new products when they return older ones.

Q3.  The European Union is often ahead of the United States when it 
comes to the issue of recycling. Where do U.S. capabilities stand as 
compared to Europe on the topic of e-waste?

A3. The U.S. is behind Europe in e-waste recycling in several 
significant ways:

        <bullet>  European laws have been on the books for several 
        years--at the national level going back more than 10 years, and 
        at the EU level since 2005. Electronics manufacturers, 
        governments, recyclers, and consumers have all been involved in 
        developing effective recycling systems and infrastructure for 
        many years and therefore have a big head start over the United 
        States. Many other countries in Asia and elsewhere are also 
        ahead of the U.S. in this area, having passed their own 
        versions of producer take-back laws. With the passage by some 
        states of e-waste legislation, there is a growing awareness and 
        acceptance as well as a developing infrastructure in some parts 
        of the U.S., but it is still in its infancy.

        <bullet>  In Europe, leading brand name electronics companies 
        established the European Recycling Platform several years ago 
        to get ahead of the recycling initiatives that they saw coming, 
        but many of these same companies have been slower to take such 
        a proactive stance in the U.S. in the absence of national 
        legislative leadership.

        <bullet>  The U.S. is finally beginning to develop a growing 
        recycling infrastructure, with capital venture coming into the 
        industry and therefore consolidation occurring. Some well 
        funded, large recyclers in the U.S. are currently operating 
        under capacity, and would love nothing more than to shut down 
        the mass export of this waste stream from the U.S. (The one 
        exception is that shredded e-waste goes to smelters for further 
        reclamation of materials, and the U.S. has shut down all 
        secondary smelters but one.)

        <bullet>  It is also important to note that the EU has not only 
        passed laws requiring manufacturers to collect and pay for 
        recycling of their electronic products, but the EU has also 
        ratified and enforced a UN treaty (the Basel Convention and the 
        Amendment to the Convention) making it illegal for EU countries 
        to ship toxic waste to any developing country for recycling or 
        disposal. Keeping their e-waste within the EU not only builds 
        their businesses, but provides an incentive for the EU to find 
        safer alternatives to toxins they must manage themselves, 
        unlike the U.S.

        <bullet>  The political climate in Europe is also quite 
        different from that in the U.S. Whereas the U.S. was the global 
        environmental leader several decades ago, that mantle of 
        leadership has been assumed by the EU which has now become the 
        global environmental leader, as evidenced by the passage of the 
        WEEE directive, RoHS directive, the REACH directive, etc. 
        Consumers as well as companies have come to accept that 
        leadership in Europe while we are still trying to develop that 
        culture within the U.S.

Q4.  As the country transitions to digital television next year, I am 
concerned that this will divert potentially millions of old analog TVs 
into the waste stream. Are we prepared for this wave of old technology? 
Should a system be put in place to educate consumers on how to dispose 
of their TVs, especially our seniors who will be most impacted by this 
change and probably least likely to know how to recycle?

A4. We agree that this is one of the most pressing issues that we face 
as the digital transition will greatly exacerbate what is already a 
major environmental crisis. The U.S. does not have in place anything 
remotely needed to meet this impending deadline--either in terms of the 
capacity to properly collect and responsibly recycle the millions of 
old TVs that will be discarded or in terms of the public education 
necessary to inform people about what to do. Again, it is a two fold 
issue--the need for appropriate and convenient infrastructure combined 
with massive public education to help people better understand what 
their options are. Education with out accessible infrastructure is just 
as frustrating and ineffective as infrastructure without public 
education.
    We believe that there needs to be a substantial effort to reach out 
to seniors who are disproportionally linked to the older, analog TVs 
and who seem to be less likely to be connected to cable or satellite 
TV. They are also less likely to be comfortable with purchasing and 
installing a new digital converter box and more likely to be 
intimidated by the prospect of having to do so. This seems to be an 
area that is ripe for a major new initiative by the industry in 
conjunction with the FCC. We urge Congress to prod the Consumer 
Electronics Association to work with the FCC to help avert a major 
injustice to seniors to make sure that they do not end up as collateral 
damage of the digital conversion.
    In addition, we are also very concerned that with the anticipated 
increase of older televisions being discarded due to the digital 
television conversion, there will be a significant increase in the 
amount of lead coming into the waste stream, which will have several 
significant impacts. First and foremost, the increased environmental 
loading of lead to the environment for older CRT televisions that end 
up in waste sites will result in millions of pounds of lead being added 
to the environment. Since older CRT televisions contain several pounds 
of lead--estimates range from four to eight pounds an up, depending on 
the size of the unit--and since current projections estimate that tens 
of millions of televisions will be discarded, the environmental loading 
will be enormous. All of this will be happening without proper 
governmental oversight, since in most states it is still legal to 
simply discard old electronic products into landfills.
    In addition, for those CRT televisions that do get recycled, the 
amount of lead recovered will also be so substantial that it will 
likely cause a significant decrease in the price of lead when it is 
recycled. This will likely increase the amount of lead that is used in 
making new, cheap consumer products. Thus, another unintended 
consequence of the digital conversion will likely be the increase in 
dangerous materials in cheap consumer goods that will be imported into 
the U.S. and potentially harm the children who will be exposed to them. 
This problem will continue to grow until the Federal Government gets 
firm control over the lead and other toxic materials contained in 
obsolete electronic products.
    For all of these reasons, we urge Congress to adopt a comprehensive 
ban on the export of hazardous e-waste, including lead, and applaud the 
House for passing H.R. 1534, the Mercury Export Ban Act (Rep. Allen (D) 
ME and 14 co-sponsors) which is an important step in the right 
direction.

Q5.  In your testimony, you address the EPEAT program, which I think 
sounds like a great idea in the wake of the Energy Star Program's 
success. Can you tell us a little bit more about this program? Why has 
the EPEAT board postponed plans to develop standards for televisions? 
Energy Star has been immensely successful and I would predict EPEAT 
could be equally successful by providing a viable rating tool for 
consumers.

A5. We agree that EPEAT has the potential to match the success of the 
Energy Star program. For computers alone, EPEAT has already influenced 
over a billion dollars worth of purchasing decisions. Expanding EPEAT 
to include other product categories has been met with staunch 
resistance from television manufacturers, however. We believe that this 
is because EPEAT has a provision that encourages company-side product 
take-back programs, and with the important exception of Sony, the rest 
of the TV industry has not developed comprehensive national take back 
programs, unlike many of the computer companies. ETBC has urged EPA and 
others to move forward with EPEAT for TVs and attended the recent 
scoping meeting in Washington, DC to urge them to do so. We made the 
point that this is of paramount importance given the impending digital 
deadline for conversion, but the decision to develop standards for TVs 
was postponed due to lack of support from the TV companies as well as 
due to the lack of full financial support from EPA, which would have 
only required $115,000. There have also been efforts to restrict the 
scope of EPEAT to apply only to institutional purchasers. By not 
targeting the consumer market, we are fail to address a large part of 
the e-waste problem. This important purchasing tool should be expanded 
to cover consumer products, particularly in the case of TVs.
    We would like to see the EPA fully fund to the development of this 
standard. Right now they partially fund it and have to raise remaining 
resources from whatever product sector is affected by the developing 
standard.

Questions submitted by Representative Phil Gingrey

Q1.  In September of 2007 the House passed H.R. 2850, the Green 
Chemistry Research and Development Act of 2007, which undertakes many 
of the recommendations in your testimony. Does the Electronics Take-
Back Coalition agree with the goals and policies in H.R. 2850 and have 
you supported passage of the companion bill, S. 2669, in the Senate?

A1. The Electronics Take Back Coalition supports green chemistry 
application in the electronic sector and believes it is one of the most 
promising ways to green the supply chain of the electronics industry. 
One of ETBC's coalition partners, Clean Production Action has actively 
worked to build support for the legislation. With that said, this 
legislation has an indirect influence on the electronic sector. 
Authorizing $84 million is a small investment compared to other major 
government research and development programs such as the National 
Nanotechnology Initiative worth more than a billion dollars. ETBC will 
continue to leverage support for Green Chemistry application in the 
electronic sector, but the scale of investment for new research and 
development will need to meet the scale of production of electronic 
products.
                   Answers to Post-Hearing Questions
Responses by Michael T. Williams, Executive Vice President and General 
        Counsel, Sony Electronics Inc.

Questions submitted by Chairman Bart Gordon

Q1.  You state in your testimony that Sony has long been an industry 
leader in environmentally friendly design. What are some of the design 
changes Sony has made that have resulted in greener products? Have any 
of these increased either the recyclability of the product or the use 
of recycled materials in the product?

A1. (a). ENVIRONMENTAL DESIGN: Sony has pioneered the elimination of 
hazardous materials in its products and the creation of more energy 
efficient devices. We have, among other things: (1) eliminated the use 
of lead in solder; (2) eliminated the use of brominated flame 
retardants; (3) developed numerous products that use less energy and/or 
can be powered by rechargeable batteries; (4) created new lithium-ion, 
rechargeable battery technology that eliminated the need for nickel or 
cadmium in most batteries; (5) led the change in display technology 
from cathode ray picture tube (CRT) televisions that used lead to 
liquid crystal display (LCD) displays that use no lead; (6) developed 
the organic light-emitting diode (OLED) television which can result in 
reduced power consumption of up to 40 percent per panel square inch as 
compared to other television technologies. In addition, Sony has 
reduced the types of plastic we use and reduced the amount of packaging 
materials, thus, substantially eliminated the need or use of ozone 
depleting chemicals. And finally, by reducing the number of screws that 
hold the products together and the other non-recyclable or incompatible 
materials in our products, Sony has developed products specifically 
designed to make it easier to recycle.

    (b). USE OF POST-CONSUMER MATERIALS: In the long-term, the 
elimination of hazardous materials in covered products will make 
recycling easier and more cost-effective, consequently, making more 
post-consumer material available for new products. In the short-term, 
it is difficult to reuse old post-consumer recycled material in new 
products, because of concerns about incidental contamination of toxic 
metals and flame retardants in the recycled material.

Q2.  How does Sony advertise its take-back program? You state in your 
testimony that Sony's goal is to increase the amount of products 
collected through your take-back program to 600 million pounds per year 
within five years. Since the program started in September of 2007, you 
report that Sony has collected seven million pounds. How does Sony plan 
to increase the amount collected so substantially? How much does Sony's 
recycling program currently cost?

A2. (a). CONSUMER EDUCATION: Sony is using a wide range of methods to 
promote its Take Back program, including the use of print, television, 
and radio media. We also use our 50 regional ``recycling events'' to 
educate consumers and retailers about our program as well as our many 
fixed recycling locations. Sony is also committed to cross-marketing 
and promotion with our national Take Back partner, Waste Management, 
Inc. (``WMI''), and various government and nongovernmental 
organizations.

    (b). SONY'S PROGRAM GOALS: Presently, Sony has, in conjunction with 
WMI, almost 150 locations in which a consumer can drop off a product. 
To achieve our goal of recycling 600 million pounds per year, we will 
need to establish roughly 10,000 drop off locations that would feed 
into the WMI recycling network. Candidly, we cannot reach this 
benchmark without the active participation of other e-waste 
stakeholders. We are, therefore, actively seeking the participation of 
retailers, other manufacturers, and non-profits. Indeed, as a direct 
result of the Committee's e-waste hearing, Sony has entered into 
discussions with Goodwill Industries. And by way of example, we have 
worked to help create a similar successful program for rechargeable 
battery collections. Through the non-profit ``Rechargeable Battery 
Recycling Corporation'' (of which Sony is a part owner and present 
Chairman of the Board) we have established 50,000 locations in the 
United States that will accept batteries for recycling.

    (c). PROGRAM COSTS: Sony treats the cost of its Take Back program 
as a confidential trade secret.

Q3.  You state in your testimony that some recycled plastics will be 
purchased and used to make new electronics products. Approximately how 
much post-consumer recycled plastic does Sony use in its products now? 
How much of that is plastic recovered from electronic waste?

A3. USE OF POST-CONSUMER MATERIALS: Sony products manufactured in the 
United States use approximately five percent post-consumer recycled 
plastics. At this point, little of those plastics come from recovered 
electronic waste because of some of the concerns identified above in 
1(b). We do expect, however, that both the amount of post-consumer 
material Sony uses and the amount of such material related to waste 
electronics will increase dramatically as our program achieves even 
greater success.

Q4.  In your testimony you mention `` `no name' brands (that) are made 
of lower quality materials, which can contain higher levels of toxic 
chemicals and may be more difficult to recycle.'' You also mention the 
need for consumer education about recycling. Would an eco-ranking 
system for consumer electronic products help educate consumers about 
the environmental impacts of these products?

A4. ECO-RANKING SYSTEM: An ``eco-ranking system'' for consumer 
electronic products would be a good idea. To be helpful to consumers, 
however, it would have to employ clearly understandable criteria and be 
consistently administered by the Federal Government. Presently, there 
are many ranking systems from various organizations and countries which 
employ different criteria. The end result of this patchwork of ranking 
systems is largely only consumer confusion.

Questions submitted by Representative Ralph M. Hall

Q1.  What is the total life cycle energy cost of Sony's e-Reader? What 
is the equivalent to this energy usage in pages printed from a typical 
printer? Does Sony currently publish the life cycle energy costs for 
all your products? If not, would you consider providing such 
information to consumers in the future?

A1. LIFE CYCLE COSTS: Sony does not currently publish the life cycle 
energy costs for its products but would be willing to do so provided 
that the proper metrics for such a measurement can be developed and 
standardized.

Q2.  What are the liability concerns for companies that take-back 
electronics and reuse or recycle them? Does liability for damages to 
workers from exposure during recycling or liability for harm caused by 
refurbished equipment limit the growth of take-back programs?

A2. LIABILITY ISSUES: Sony cannot comment on liability issues related 
to recycling of waste electronics since we do not handle the actual 
recycling, but rather, use the country's leading recycler, WMI, to 
manage that part of our Take Back program. Please note, however, that 
Sony firmly believes and supports stringent worker and environmental 
protection requirements for the recycling industry. Indeed, to the best 
of our knowledge, Sony is the only electronics manufacturer to sign the 
Electronics Take Back Coalition's ``Pledge of True Stewardship'' (the 
``Pledge'') which prescribes strict, environmentally- and socially-
conscious limitations on how and where electronics waste can be 
recycled.

Q3.  Most major manufacturers claim that they do not ship e-waste 
overseas for recycling. Where does the e-waste found in environmentally 
unsound recycling operations originate?

A3. OVERSEAS RECYCLING: Sony has no direct knowledge about the products 
that are recycled overseas. But as noted above, as a signatory to the 
Pledge, we have committed that all products that are collected through 
the Sony Take Back program will be recycled using the strictest and 
highest environmental standards. Moreover, we provide full, public 
accountability of how and where our products are recycled.

Q4.  How does Sony treat products from other manufacturers at your 
recycling centers in terms of cost to the consumer and disposal?

A4. SONY PRODUCTS VS. OTHER PRODUCTS: Sony pays for the recycling of 
all Sony-branded products, but the consumer must pay the cost to 
recycle any other brands.

Q5.  Can you give us some examples of how Sony has had to tailor its 
recycling programs to meet different State requirements? Considering 
that e-waste recycling already occurs under a variety of legal 
frameworks in the U.S., why should federal legislation preempt States 
from experimenting with different collection systems or fees?

A5. (a). STATE PREEMPTION: State preemption is necessary to create a 
single, consistent e-waste recycling program that will develop the 
economies of scale required to make recycling cost-effective and to 
create enough recycled material to make re-using large quantities of 
such material in new products realistic. The recycling of e-waste is 
not a traditional local or State issue that can or should be treated 
differently based on the particularities of each jurisdiction. Rather, 
e-waste is exactly the opposite. That is, the same products that are 
sold in Tennessee are sold in Texas and the means to recycle those 
products are the same across jurisdictions. Society will not benefit 
from the traditional notion of allowing the states to serve as 
incubators of new and novel approaches. And even if this were the case, 
there have certainly already been enough states that have enacted 
different e-waste laws that Congress can benefit from any and all 
available ``lessons'' learned from these various State ``experiments.''

    (b). THE CONTRADICTORY STATE LAWS: The disparity between the 
starkly differing State e-waste laws inherently creates inefficiencies 
and complications in how Sony runs its Take Back program. For example, 
we cannot operate our program in the State of Maine; that state chooses 
the recyclers to be used and charges manufacturers a tax based upon the 
amount of products collected. In contrast, Minnesota and Washington 
have identified the number of manufacturers that must have programs 
and/or pay fees, even though manufacturers sell consumer electronics in 
every state. Indeed, to operate a recycling program in the State of 
Washington, we must have fixed collection locations in each of the 80 
counties.

Q6.  How would you describe the influence of other countries' recycling 
and waste laws--such as Japan--on your Take Back and Recycle programs? 
Do these laws affect your global operations?

A6. (a). OTHER COUNTRIES: The recycling laws of other countries have a 
limited impact on what Sony is doing in the United States. Our Take 
Back program is the result of over 15 years of experimenting and 
testing by Sony's U.S. operations.

    (b). SONY'S GLOBAL RECYCLING GOAL: Sony is a global company, and as 
such, all laws affect our global operations. Sony has as a goal to 
globally conform to the most stringent environmental regulations world-
wide. In the case of our U.S. Take Back recycling program, Sony 
believes that we are well ahead of that goal.

Q7.  You argue that e-waste legislation should cover all products with 
certain components or chemicals. How do the recycling processes differ 
between a Sony laptop and a Sony LCD or plasma television?

A7. RECYCLING OF VARIOUS PRODUCTS: The actual recycling of various 
electronic products does not differ much. When recycling our products 
we look at three components: glass, metal, and plastics. It matters 
little what type of products these components come from. Indeed, it is 
not the actual recycling of different types of products that creates 
issues, but rather the logistics and costs associated in the collection 
and management of products as these can vary substantially as to weight 
and size.

Q8.  How much does it cost Sony to collect and recycle all their legacy 
waste? What are the benefits--other than the obvious environmental 
ones--to your company? How has the program impacted your ability to 
compete within the global marketplace?

A8. COSTS AND GLOBAL COMPETITION: Sony treats the cost of its Take Back 
program as a confidential trade secret. The goal of the program, 
however, is to make electronics recycling a cost-effective, profitable 
business. If Sony succeeds in our efforts, we will have created a low-
cost, efficient source of post-consumer plastic and metals for our new 
products, thus making Sony more competitive in the global marketplace.

Questions submitted by Representative Daniel Lipinski

Q1.  In 2006, the Government Accountability Office estimated that more 
than 900 million computers, TVs, and monitors are thrown away each 
year. In addition, the EPA estimates that electronic waste is growing 
two to three times faster than any other waste stream. Yet presently, 
there is no specific federal law or regulation governing the disposal 
of consumer electronic products in the U.S. Should there be?

A1. A FEDERAL LAW. Sony urges you to adopt legislation that supports 
our existing efforts and extends the environmental stewardship we have 
demonstrated to all electronics manufacturers and retailers. While we 
are confident that Sony's voluntary e-waste recycling program will make 
great strides forward, only a truly comprehensive and consistent 
program will allow all interested parties to achieve our shared 
recycling goals. Sony, therefore, respectfully requests that any 
legislation reflect the following:

        <bullet>  Preemption

           Although it is of course a significant event when Congress 
        preempts State regulation on a particular point, Sony believes 
        that electronics recycling is an issue on which State 
        preemption is essential. We and other stakeholders already have 
        to comply with numerous, and sometimes contradictory, State and 
        local e-waste laws. The inconsistency between these programs 
        inevitably creates inefficiencies in the system and minimizes 
        any economies of scale that could be achieved. And since Sony 
        (and likely no other manufacturer) does not build products to 
        be sold in a particular state, adding a federal bill without 
        State preemption merely adds more complexity rather than 
        simplifying and streamlining the process. In the end, a 
        patchwork quilt of different and ultimately contradictory State 
        and municipal laws will only serve to undermine everyone's 
        shared goal of recycling as much electronic waste as 
        efficiently and cheaply as possible.

        <bullet>  Producer Responsibility

           Sony believes that it is the individual manufacturer's 
        responsibility to assure that any product that bears its name 
        is properly recycled using the highest standards possible at 
        the end of the product's life. That said, other stakeholders 
        who directly benefit from the sale or enjoyment of electronic 
        products must also bear some responsibility. More specifically, 
        retailers--at the very least--must take an active role in the 
        collection of e-waste and consumers must be encouraged to take 
        the extra step necessary to properly dispose of their products.

        <bullet>  Market Share

           In order to create a level playing field, any manufacturer 
        obligation should be based upon present market share and not on 
        historical activities or waste collected. Systems based upon 
        the amount of waste collected will give a cost advantage to 
        those companies that are new to the market. Such companies can 
        avoid any recycling cost by simply staying in business and 
        changing their brand or company name every year. Many of these 
        ``no name'' brands are made of lower quality materials, which 
        can contain higher levels of toxic chemicals and may be more 
        difficult to recycle. Any mandate not based upon today's market 
        share will give those companies a ``free ride'' on recycling. 
        This will lower their costs when compared to responsible 
        companies by rewarding manufacturers who avoid their 
        environmental obligations and penalizing responsible companies 
        by putting environmentally-advanced products at a competitive 
        cost disadvantage.

        <bullet>  Products Covered

           Our recycling program covers all of our branded products 
        from movies (i.e., DVDs), to professional equipment used to 
        project movies in theaters, to laptops or televisions used to 
        watch movies at home.

           Sony, therefore, respectfully urges you to adopt one program 
        with one set of requirements which will require full producer 
        responsibility for all products manufactured. The advancement 
        of technology has enabled manufacturers to create an array of 
        products using the same chemicals and metals that are used in 
        the products commonly covered in e-waste recycling mandates. 
        Given this, Sony suggests adopting legislation to target all 
        products that contain these same internal and external 
        components and chemicals.

        <bullet>  Cost

           Sony internalizes the cost of recycling and requests that 
        any mandate require the same. Currently, Sony pays to recycle 
        our old products. While there are several financing mechanisms 
        that allow for recovery of this cost, Sony believes that 
        internalizing the cost is the most effective and fair method 
        for funding a comprehensive electronics recycling program. Such 
        funding mechanisms create market incentives for manufacturers 
        to ex ante design and produce the most environmentally-friendly 
        products possible. In addition, it encourages manufacturers to 
        develop and implement the most efficient and cost-effective 
        recycling procedures. Indeed, it is Sony's ultimate goal 
        through design improvements, the growth of the recycling 
        industry, and economies of scale to drive these recycling costs 
        down, thus making recycling cost effective. Until that time, 
        Sony considers the cost of recycling as part of the cost of 
        doing business.

Q2.  The EPA estimates that at most, only 15 percent of products at the 
end of their useful lives each a recycling or reuse program. This does 
not come as a shock to me. In fact, it might seem a little high given 
the impediments that consumers currently face.

Q2a.  First, how are average consumers to know what to do with their e-
waste when it comes to the end of its useful life?

A2a. CONSUMER EDUCATION: Consumer education is a necessary component of 
any successful e-waste program, and that is why Sony uses, as noted 
above, a wide range of methods to promote its take back program, 
including the use of print, television, and radio media. We also use 
our 50 regional ``recycling events'' to educate consumers and retailers 
about our program and our various fixed recycling locations. Sony is 
also committed to cross-marketing and promotion with our national take 
back partner, WMI and various government and non-governmental 
organizations.

Q2b.  This past weekend, Washington, D.C. held an e-waste recycling 
day. Over ten times as many residents as last year showed to recycle 
their gadgets, leading to over two hours wait time. The incentives to 
recycle just don't seem to be there right now. What do you recommend be 
done to fix this problem?

A2b. OPTIMIZING RECYCLING: Sony's goal is to make it as easy to recycle 
our products as it is for our consumers to purchase them. Indeed, we 
want to make recycling as effortless as throwing a product away. Simply 
stated, every additional step that we require the consumer to take will 
result in a decrease in the recycling rate. To optimize consumer 
recycling, we need curb-side collection of electronic waste just as we 
do with other types of waste. This collection should be incorporated 
seamlessly into the existing municipal waste collection system. Once 
collected and consolidated, recyclers can efficiently process this 
electronics waste, thus creating a stream of post-consumer material for 
reuse by manufacturers.

Q3.  The European Union is often ahead of the United States when it 
comes to the issue of recycling. Where do U.S. capabilities stand as 
compared to Europe on the topic of e-waste?

A3. THE UNITED STATES VS. EUROPE: The United States has a greater 
capability to handle e-waste than does Europe. The issue is in the 
collection of electronics waste, not in the processing.

Q4.  You mentioned in your testimony that Sony teamed up with Waste 
Management to implement a national recycling initiative in the U.S. for 
e-waste. Many waste companies out there have been caught throwing away 
recyclables in the past. What guarantees do you have from the company 
that the waste is actually being recycled?

A4. PERCENT OF MATERIAL RECYCLED: As part of its contract with Sony, 
WMI guarantees that at least 95 percent of the material collected will 
be recycled. Sony also has the right to audit WMI's physical locations 
and WMI's books to ensure that this goal is achieved. Lastly, as noted 
above, Sony will make the results of its recycling effort fully 
transparent to the public.

Questions submitted by Representative Bob Inglis

Q1.  Many manufacturers support a national solution to deal with e-
waste; a federal law that would preempt the patchwork of State and 
local laws that are beginning to crop up. Are there any aspects of 
those State laws that would/should be expanded to the national level? 
What provisions of State laws in place now would be detrimental to 
efforts dealing with e-waste if ramped up to a national scale? Can you 
give an example or two of each?

A1. (a). SONY'S FUNDAMENTAL RECYCLING PRINCIPLE: Sony believes in 
``full producer responsibility'' in which a producer takes the 
responsibility for the recycling of all the products that bear its 
brand name. Full producer responsibility, however, must be augmented by 
participation in the process by other stakeholders and by reasoned 
application of the law. More specifically:

        <bullet>  Since manufacturers do not in most cases directly 
        sell their products to consumers, the collection of waste 
        products is often best served by those who initially distribute 
        the products (i.e., retailers).

        <bullet>  The recycling responsibility must be forward-looking 
        rather than backward-looking, and as such, any obligation must 
        be based upon a manufacturer's present market share. As 
        explained above, collection requirements based upon return 
        share would give a significant advantage to those companies 
        that are new to the business.

    (b). POSITIVE LESSONS LEARNED FROM THE STATES: Sony generally 
supports the recycling performance standards provisions that are 
incorporated in the Minnesota and Washington State laws. More 
specifically, Sony believes that performance standards should be based 
upon actual past performance instead of an arbitrarily selected 
percentage. We feel that, similar to the Energy Star program, 
performance standards should reflect the best of what the industry is 
actually doing. Although we do not support advanced recovery fees, we 
do believe that much can be learned from the California State law. It 
has resulted in the development of one of the most mature recycling and 
collection infrastructures in the United States and has identified a 
role and responsibility for retailers which many of the other State 
laws tend to omit.

    (c). NEGATIVE LESSONS LEARNED FROM THE STATES: At least two aspects 
of the Maine law should not be replicated in a federal bill. Maine 
bases the collection responsibility on return share, thereby giving the 
new ``no name'' brands that flood the market an advantage over 
companies like Sony who were in business 40 years ago and who plan to 
stay in business for at (Past another 40 years. Maine also runs the 
program as a tax on manufacturers who have no say in how or who 
recycles our products; we simply get invoices from recyclers selected 
by the State which we must pay in order to sell products in that state.

Q2.  You state in your written testimony that Sony believes that 
internalizing the cost of recycling in the price of your products is 
the most effective mechanism for recycling electronics. Am I correct to 
say that this means that a small amount of the cost to consumers would 
be directly related to your recycling efforts? If this is the case, how 
much does this internalization cost your customers?

A2. THE COST OF RECYCLING: The cost of electronics recycling and 
collection today generally ranges from 25 to 50 cents per pound. Sony 
believes, however, that if a single, consistent national e-waste 
program is created electronics recycling can become profitable. That 
is, a uniform program will establish economies of scale that will 
dramatically improve the efficiency of e-waste recycling. This, 
combined with the rise in the price of commodities, likely means cost 
internalization--and thus the need to pass any such costs along to 
consumers--will be a short-term issue.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                     Statement of Parker E. Brugge
               Vice President, Environmental Affairs and
                        Corporate Sustainability
                  The Consumer Electronics Association

Introduction

Mr. Gordon, Mr. Hall and Members of the Committee:

    My name is Parker Brugge and I am the Vice President, Environmental 
Affairs and Corporate Sustainability for the Consumer Electronics 
Association (CEA). CEA is the preeminent trade association promoting 
growth in the $161 billion U.S. consumer electronics industry. CEA 
sponsors and manages the International CES--the Nation's largest annual 
trade event. More than 2,200 companies enjoy the benefits of CEA 
membership, including legislative advocacy, market research, technical 
training and education, industry promotion and the fostering of 
business and strategic relationships. Moreover, CEA's members include 
manufacturers of consumer electronics products, as well as many of the 
largest retailers. CEA commends the Committee for holding this hearing 
on the important issue of electronics recycling and we appreciate the 
opportunity to provide the views of our membership.
    By extending information and entertainment to everyone--regardless 
of income or geographic location--our members' products have improved 
lives and changed the world. Meanwhile, America stands as the global 
leader in innovation, ingenuity and creativity. In addition, the 
competition and falling prices characteristic of our industry continue 
to confer benefits to consumers. As our products become increasingly 
affordable, it is often more economical for consumers to replace a 
product with a new one rather than repair older equipment.

Electronics Recycling is Primarily a Resource Recovery and Management 
                    Issue

    CEA concurs with the longstanding view of U.S. EPA officials that 
electronics recycling is primarily a resource issue, not a toxicity 
issue. At a 2005 conference EPA's Director of the Office of Solid Waste 
said it succinctly:

         EPA is confident that properly managed, modern landfills are 
        safe for disposal of electronics, but there are a couple of 
        problems: electronics waste doesn't always make it to safely 
        run disposal sites, and more important, we don't simply believe 
        it makes good sense to landfill or throw away these materials. 
        Certainly, there are different views on the risks of 
        electronics (or in the municipal solid waste stream)--but why 
        would we want to bury heavy metals like lead or cadmium in 
        landfills, where they will remain forever, at the same time as 
        we unearth these materials elsewhere in the world? We don't 
        have to agree how imminent the hazards are from our landfills 
        here in the U.S. to agree that this practice just doesn't make 
        sense in the long-term.

         Instead this is an issue of resource conservation. We need to 
        capture valuable materials to use them again, and to reduce the 
        upstream environmental impacts of extracting and refining 
        virgin materials. . .\1\
---------------------------------------------------------------------------
    \1\ Address by Matt Hale to RECCON 05: Global Electronic Recycling 
Solutions, November 29, 2005, Radisson Hotel and Conference Center, 
Morgantown, West Virginia.

    CEA's view of electronics recycling as a resource concern in no way 
diminishes our call for good public policies to facilitate recycling of 
used electronics. But recognizing this point does shed light on what 
policy approaches are most suitable to address this problem. Existing 
regulatory command and control programs such as RCRA Subtitle C are not 
appropriate for facilitating the collection and recovery of used 
electronics, and the components therein, for which we are advocating 
today.

CEA Supports Shared Responsibility for Recycling

    CEA advocates strongly for a shared financial responsibility among 
all stakeholders--manufacturers, retailers, consumers and local, State 
and Federal governments--for electronics recycling at all levels of 
government. Placing the financial burden entirely on any one 
stakeholder is contrary to the concept of shared responsibility which 
CEA believes is the best option for recycling financing.
    A primary responsibility of manufacturers lies in product design. 
Most consumer electronics manufacturers have reduced and, in most 
cases, greatly minimized the use of potentially hazardous substances in 
their products. Additionally, manufacturers have developed new ways to 
incorporate recycled components and design for responsible end-of-life. 
CEA supports market-driven environmental design initiatives, including 
Federal and State government programs that give preference towards 
purchasing of environmentally preferable technology products.

CEA's Members Are Committed to Electronics Recycling

    CEA and its member companies have been and will continue to be 
fully supportive of the safe and appropriate recycling and reuse of 
consumer electronics products. A number of our member companies, both 
manufacturers and retailers, have initiated voluntary take-back 
activities to collect and recycle televisions, computers, monitors and 
other consumer electronics.

CEA Supports Responsible Free Trade of Used Electronics

    CEA also concurs with conclusions of U.S. EPA officials regarding 
the export of used electronics, electronic parts and materials. First, 
CEA concurs that most reuse markets are export markets--that is where 
most of the demand for used electronic products resides, not in the 
United States. Similarly, CEA concurs that many recycling markets are 
also located primarily abroad for a variety of economic and logistical 
reasons, including strong foreign demand for raw materials and the lack 
of U.S. smelting and glass furnace capacity.
    Rather than cutting off the export of used electronics, CEA 
supports the development of responsible reuse and recycling systems 
both domestically and abroad. Used consumer electronics, even scrap 
electronics, are not the industrial wastes for which the Basel 
Convention was created. Used consumer electronics are old household 
appliances that consumers no longer use in their homes. These are not 
wastewater treatment sludges or distillation bottoms that are 
appropriately regulated by RCRA, Basel Convention and similar command 
and control systems. Rather they are remnants of past consumer 
technology breakthroughs made up primarily of aluminum, steel, silicon, 
copper, plastic and glass. Whether that used product is a waste or a 
bargain-priced product depends on the individual consumer. Common sense 
suggests that addressing the e-waste problem calls for a different 
approach that acknowledges these facts and facilitates responsible 
commerce.
    CEA also concurs with U.S. EPA's conclusion that as collection of 
used electronics in the U.S. increases, exports will increase on 
several levels: export of intact units for reuse, used parts for reuse, 
used equipment for refurbishment, intact equipment for dismantling, 
partially processed materials for further processing, and fully 
processed materials for use as raw materials in manufacturing. To 
ensure proper reuse and recycling of used electronics here and abroad, 
CEA supports efforts to increase the monitoring of environmental 
performance at reuse/recycling facilities to increase the transparency 
of used electronics management. CEA looks forward to working with other 
interested stakeholders in developing environmentally responsible 
systems for the export of used electronics for reuse and recycling. CEA 
does not support, whether in the U.S. or abroad, any electronics 
recycling that presents unacceptable risks to human health or the 
environment.

Impact of DTV Transition

    With the DTV cut-off date fast approaching (February 17, 2009), the 
topic of its impact on televisions entering or leaving the home has 
been on the mind of many. First, it's worth a broad look at consumer 
expectations for removing TVs from their home over the next few years. 
Results from CEA's recent consumer survey ``Trends in CE Reuse, Recycle 
and Removal'' published earlier this month are illuminating.
    In 2008, consumers expect to remove 43.5 million televisions from 
their home. Based on consumer reported plans, the removal will take 
place in the following way: 56 percent of the TVs will be given away/
donated, 25 percent will be recycled, 13 percent will be sold and six 
percent will be thrown in the trash. The expected behavior follows the 
very encouraging trend of fewer units trashed and more units recycled.
    Beyond 2008, consumers expect to remove 41.9 million TVs in 2009 
and 34.3 million 2010. These figures are significantly lower than the 
2005 and 2007 aggregates (64.6 million and 72.2 million respectively). 
Two factors may help explain this downward trend. With a large 
percentage of consumers already making the transition from analog to 
digital, it may suggest a large volume of unwanted TVs have already 
been removed from homes and we are now settling into an equilibrium 
period where the number of TVs entering and leaving the home is roughly 
balanced. The other possible explanation centers around the difficulty 
consumers have in predicting their behavior over an extended time 
frame. It's not so much that consumers know whether or not they will 
remove a TV from their home, but rather the timing of the removal.
    Finally, CEA research underscores that the DTV cut-off will impact 
a relatively small portion of the U.S. population--the 11 percent of 
households that rely exclusively on over-the-air television reception. 
Most households subscribe to cable or satellite, so the DTV cut-off is 
not really an issue for this segment (although some may have secondary 
sets in their home that rely on over-the-air that will require some 
action to be taken).
    With consumers projecting fewer televisions to remove during the 
next two years compared with previous calendar years, and with earlier 
CEA research showing that the DTV cut-off will directly affect only a 
small fraction of U.S. households, the logical conclusion is that the 
DTV cut-off will have little impact on the waste stream.

CEA Supports Consumer Education Initiatives

    Consumers need reliable, up-to-date information to make the right 
environmental choices about electronics. And, industry has a role to 
play in providing such information.
    CEA recognizes that the recycling of electronics products is 
essential as we work to do our part to contribute to a more sustainable 
world. Recycling must be made convenient, cost-effective and easy for 
individuals, businesses, community centers, schools and government 
agencies to participate. In order to educate consumers about options 
for electronics products at the end-of-life, CEA launched 
myGreenElectronics.org at the 2007 International CES. 
MyGreenElectronics.org empowers consumers by providing online resources 
regarding responsible use, reuse, and recycling of electronics with the 
use of an online searchable database of electronics recyclers, a 
database of green products and tips for saving energy with electronics. 
CEA works with our members to make these resources available and 
transparent to all interested stakeholders. We will continue to buoy 
our education effort and have plans to expand upon this website 
throughout 2008.

CEA Supports a National Approach to Electronics Recycling

    CEA strongly believes that a national solution is the most 
appropriate means to addressing this significant public policy 
challenge, primarily as a means to provide consistency in recycling 
opportunities to consumers and for uniform requirements for 
manufacturers along with other key stakeholders. Without a uniform 
national requirement, an ad-hoc array of State regulation imposes 
unnecessary financial and administrative burdens on global technology 
companies, which will ultimately increase costs to consumers. Each 
state and municipality that creates a new authority with a new 
governing body, or creates a new administrative or enforcement 
structure, is duplicating many of the implementation struggles already 
underway in other states around the country. Electronics recycling is a 
national issue that warrants a national solution.
    A national end-of-use framework should apportion responsibility 
among all of the stakeholders and ensure a level playing field, while 
promoting a widespread and adequately financed electronics recycling 
solution.

Conclusion

    Finding a solution to this public policy challenge is a priority 
for CEA. As we continue to make strides in eco-friendly design 
initiatives, lead the consumer electronics industry on environmental 
issues and be a part of the effort to educate consumers about 
electronics recycling, CEA stands ready to work with Congress and all 
interested parties to reach a common-sense, national solution that 
makes recycling as convenient as possible for all Americans.
    Thank you again for the opportunity to share CEA's position on this 
important public policy issue.
                      Statement of Meggan L. Ehret
                      Senior Counsel and Secretary
                              Thomson Inc.
    Thank you Mr. Chairman and distinguished Members of the Committee 
for inviting me to testify today. I am Meggan Ehret and I am Senior 
Counsel and Secretary of Thomson Inc. Thomson Inc. is committed to 
developing a workable and environmentally sustainable solution for 
electronic recycling, which, according to the EPA, is the fastest 
growing portion of the municipal solid waste stream. We applaud this 
committee for holding this hearing to explore the appropriate treatment 
for electronic recycling and to ensure that the solution is a workable 
one that accomplishes the goal. We appreciate the opportunity to 
participate in this discussion.
    Thomson is committed to complying with all environmental, health, 
and safety laws and regulations applicable to our business activities. 
We are equally committed to preventing deterioration of the environment 
and minimizing the impact of our operations on the land, air, and 
water. These commitments can only be met through the awareness and 
cooperation of all stakeholders. Today, Thomson is a world leader in 
digital video technologies. Thomson provides technology, services, and 
systems and equipment to help its Media & Entertainment clients--
content creators, content distributors, and users of its technology--
realize their business goals and optimize their performance in a 
rapidly-changing technology environment. The Group is the preferred 
partner to the media and entertainment Industries through its 
Technicolor, Grass Valley, RCA, and Thomson brands. As background, 
RCA's stock was acquired by General Electric in 1986, and shortly 
thereafter Thomson bought certain consumer electronics assets from GE 
and eventually acquired the RCA trademark (in most classifications) and 
today licenses the trademark to a number of different companies that 
make RCA televisions and other RCA-branded products. In 2004, Thomson 
sold its television manufacturing assets and now licenses the RCA 
trademark to a television manufacturer.
    When considering the appropriate approach to electronic recycling, 
we ask the Committee to recognize and implement two key and important 
principles: first, computers and televisions warrant different 
treatment and, second, financing the costs associated with recycling 
televisions based on market share is the only approach that levels the 
playing field for television manufacturers.
    First, based on our experience, we have learned that each product 
is different and, of direct relevance here, there are the differences 
between televisions and computers. The different product life 
expectancies, market economics, residual values, and product 
portability necessitate different approaches to recycling to each 
product.

        <bullet>  Different Product Life Expectancy--Televisions have 
        an average useful life of 15 to 17 years and have been 
        available on the market since the late 1920's. Computers, on 
        the other hand, have only been widely available to consumers 
        since the 1980's and have an average life expectancy of at 
        least 10 years less than the average television. Because 
        televisions have been in existence much longer and have a much 
        longer life, many of the manufacturers of the televisions 
        entering the waste stream are either no longer in business or 
        are no longer manufacturing televisions.

        <bullet>  Different Market Economics--It is estimated that over 
        30 million TVs will be sold in 2008 (U.S. News & World Report, 
        12/31/07). Of these, many will be sold by value brands that 
        have only been established in the past few years. (``Flat 
        Panels Have Poor Fundamentals,'' 03/26/2007 stating ``The 
        rampant competition from value brands like Vizio and 
        Westinghouse has undercut prices of brand names like Sony, 
        Philips and Panasonic by as much as 40 percent. . .Sustaining 
        healthy returns on capital in such an environment is almost 
        impossible.'') Far East manufacturers are flooding the market. 
        ``China. . .has emerged to build consumer electronics. . .as a 
        new manufacturer. Any company with the resources and a market 
        entry point can deliver product relatively quickly by 
        contracting with the original design manufacturers.'' (The 
        Consumer Electronics Industry in Flux, Gartner Inc. Research 
        Report, November 16, 2005.). According to an article in Smart 
        Money Magazine (``Behind the Glass,'' March 2005), 70 percent 
        of the television manufacturers were not in business ten years 
        ago. By the time a new market entrant must pay to recycle its 
        products (approximately 15 years from today), it is likely no 
        longer in business. Thus, requiring present-day TV 
        manufacturers to fund a TV recycling program based on their 
        current market share ensures they are not given a free pass 
        until their branded products begin to appear in volume in the 
        State's recycling stream more than 15 years later and, in some 
        instances, at a time they are no longer in business.

        <bullet>  Different Residual Value--A computer's residual value 
        is much greater than the typical cathode ray tube television. 
        Computers contain precious metals and other valuable and easily 
        recycled or reused materials. This significantly impacts the 
        economics of recycling a television versus recycling a 
        computer. A recent study demonstrates that computer recycling 
        creates profit or costs a few cents per pound while televisions 
        require thirteen to sixteen cents a pound to process (not 
        including costs of collection or transportation). (NERIC 2008 
        Recycler Pricing Study, www.ecyclingresource.org).

        <bullet>  Different Product Portability--Computers are lighter 
        and easier to handle, thus different opportunities exist for 
        collection and recycling. Those opportunities do not exist for 
        television manufacturers. Thus, ``take-back'' programs that 
        require consumers to send equipment to a manufacturer is more 
        workable for computers than televisions.

    These important differences support separate approaches to 
recycling programs for each product. Many computer manufacturers have 
already implemented ``take-back'' programs and thus requiring take-back 
programs is the most logical and workable approach for computer 
products. For televisions, which is my focus today, the only approach 
that levels the playing field and maintains the competitive marketplace 
is allocating the costs of a recycling program to the present day 
manufacturers based on each manufacturer's respective current share of 
the market. It is a fairer approach for the following reasons:

        <bullet>  The television market is an easy-entry and easy-exit 
        industry, making short-term competitive advantages the rule. 
        According to an article in Smart Money Magazine (``Behind the 
        Glass,'' March 2005), 70 percent of the television 
        manufacturers were not in business ten years ago. By the time a 
        new market entrant must pay to recycle its products 
        (approximately 15 years from today), it is likely no longer in 
        business.

        <bullet>  Far East manufacturers are flooding the market. 
        ``China. . .has emerged to build consumer electronics. . .as a 
        new manufacturer. Any company with the resources and a market 
        entry point can deliver product relatively quickly by 
        contracting with the original design manufacturers.'' (The 
        Consumer Electronics Industry in Flux, Gartner Inc. Research 
        Report, November 16, 2005.). History has proven that they will 
        not be in business by the time televisions they sold/
        manufactured enter the waste stream and, given their location, 
        enforcement or collection (particularly after they are out of 
        business) will be difficult if not impossible, unless a barrier 
        to entry to the market is contributing to the costs of 
        recycling televisions now.

        <bullet>  It is difficult--if not impossible--to estimate today 
        the costs associated with recycling televisions 15 years from 
        now (e.g., collection, transportation and recycling) and market 
        share allocation ameliorates this concern. Thus, allocating the 
        actual costs to recycle products today among today's market 
        participants is fair and permits today's market participants to 
        plan accordingly.

    A market share approach requires each current manufacturer to pay 
for a share of the recycling of discarded televisions based on its 
respective share of the market and account for these costs in the price 
of their product. Any other alternative will give a free ride to new 
market entrants as they will not be required to pay any costs for 
recycling today and history has demonstrated that they will be out of 
business in 15 years (which is when their products enter the waste 
stream). Thus, new market entrants will likely never pay for recycling 
electronics. Importantly, as a result of not having to factor in the 
cost of electronic recycling, they are able to price their products 
lower than the long standing market participants and increase their 
share of the market. This is the same conclusion reached by the Council 
of State Governments NE region, Minnesota, New Jersey, and Oregon. (See 
http://www.csgeast.org/pdfs/RegionalDraft7-06<INF>-</INF>--
revised.pdf). In fact, to date, there are only two states that have 
adopted electronic recycling laws that allocate the costs of recycling 
televisions based entirely on return share. Those are Connecticut and 
Maine. Connecticut's Senate and House recently passed an amendment to 
change the financing for the costs associated with recycling television 
to market share and the bill awaits the Governor's signature.
    In summary, Thomson respectfully asks that this committee consider 
allocating the costs of recycling televisions to the current market 
participants based on their respective share of the market, thereby 
leveling the playing field for all television manufacturers and 
maintaining the competitive marketplace for television manufacturers. 
Thank you for allowing me the opportunity to provide my comments to 
you.
                 Statement of the Office of Solid Waste
                         and Emergency Response
                  U.S. Environmental Protection Agency
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to provide testimony on electronics and the U.S. 
Environmental Protection Agency's (EPA's) efforts to encourage more 
environmentally preferable electronics product design and recycling.
    EPA's Resource Conservation Challenge (RCC) seeks to renew the 
emphasis on resource conservation under the Resource Conservation and 
Recovery Act (RCRA) and the emphasis on preventing pollution and 
conserving natural resources under the Pollution Prevention Act. The 
RCC brings greater urgency to EPA's message of reducing, reusing, and 
recycling valuable materials habitually discarded by American industry 
and the general public by linking the importance of these activities to 
energy conservation and greenhouse gas (GHG) reductions. One key area 
of focus under the RCC is electronics.

WHY WE CARE ABOUT ELECTRONICS AT EPA

    EPA has been actively helping to improve the design and recovery of 
electronics for more than ten years. Our interest in electronics stems 
from four primary concerns:

        1)  rapid growth and change in this product sector, leading to 
        a constant stream of new product offerings and a wide array of 
        obsolete products needing appropriate management;

        2)  energy consumption by these products (the Energy 
        Information Agency's Annual Energy Outlook 2006 projects that 
        electronics will a count for 19 percent of residential energy 
        use by 2020, compared with 14 percent of home energy 
        consumption in 2006);

        3)  the presence of toxic substances in many products which can 
        cause problematic exposures during manufacturing, recycling or 
        disposal, if not properly managed--the presence of these 
        constituents has sparked the search for workable substitutes 
        and development of better management practices; and

        4)  the need to ensure widespread, convenient and affordable 
        reuse/recycling infrastructure for electronics (with initial 
        emphasis on TVs, PCs and cell phones) and, in doing so, to 
        conserve and recover the large amount of embodied energy and 
        valuable materials inherent in used electronics.

THE CHANGE IN TV TECHNOLOGY AND TRANSMISSION

    Change is about to happen in the TV world. First, as prices come 
down for newer models, consumers are upgrading from the old cathode ray 
tube style of TV to newer, flat screen, high definition models (such as 
LCD and plasma). In addition, the ``Digital Transition'' is around the 
corner. On February 17, 2009, all full-power television stations will 
broadcast only in digital.\1\ Nielsen estimates that more than 13 
million households have TV sets that only receive over the air (OTA) 
analog broadcasts and an additional six million households have at 
least one OTA analog television set.\2\ Households that receive free 
over the air television broadcasts on analog TVs must take action by 
connecting their TV to a digital-to-analog converter box, purchasing a 
digital television, or subscribing to a paid TV service.
---------------------------------------------------------------------------
    \1\ See 47 U.S.C.  309(j)(14)(A), 337(e).
    \2\ The Nielsen Company. Press Release ``13 Million U.S. Households 
Not Yet Ready for Digital Television Conversion, Nielsen Says.'' 
February 15, 2008.
---------------------------------------------------------------------------
    Both of these changes are raising questions about how many old TVs 
will find their way to the recycling/disposal path in the near future. 
Some are predicting a ``tidal wave'' from the digital transition. More 
likely, however, the increase will be gradual over a several year time 
frame as consumers take advantage of falling prices for new TV 
technologies. The digital transition, by itself, is unlikely to cause a 
large spike in TV disposal. This is because fifty percent of homes 
already have digital TV so will receive programming after the 
changeover, without doing anything additional.\3\ In addition, those 
that have analog TV only, or other analog TVs in the home, can either 
obtain digital-to-analog converters or cable service to extend the life 
of their analog TVs. Furthermore, some homes will keep analog TVs to 
use for gaming or movies, or hand them off to someone else who may want 
to use them this way. There are many options, and it is unlikely that a 
sudden wave of TVs will find their way to the recycling/disposal path 
due primarily to the digital transition in February 2009. Still the 
digital transition, plus the move to adopt new TV products, will mean 
that greater collection and recycling infrastructure will be needed to 
properly handle these TVs as they emerge from homes over the next few 
years.
---------------------------------------------------------------------------
    \3\ Consumer Electronics Association. Market Research Report: 
Trends in CE Reuse, Recycle and Removal. April 2008.
---------------------------------------------------------------------------

WHAT ARE WE DOING ABOUT ELECTRONICS?

    EPA is engaged in several broad scale partnerships with 
manufacturers, retailers, other federal agencies, State and local 
governments, recyclers, non-government organizations (NGOs) and others 
to encourage and reward greener design of electronic products, to help 
develop the infrastructure for collection and reuse/recycling of 
discarded electronics, and to promote environmentally safe recycling of 
used electronics. More detail about each of these efforts is provided 
below.

1) GREENING DESIGN OF ELECTRONICS

EPEAT: EPA funded and participated in a multi-stakeholder and 
consensus-based process, involving electronics manufacturers, large 
government IT purchasers, NGOs and others, to develop the Electronics 
Product Environmental Assessment Tool (EPEAT). Now codified as IEEE 
Standard 1680, EPEAT was launched in 2006 to meet growing demand by 
large institutional purchasers for a means to readily distinguish 
environmentally-preferable desktop and laptop computers and monitors in 
the marketplace. Modeled on other environmental rating tools like the 
Leadership in Energy and Environmental Design's (LEED's) Green Building 
Rating system, EPEAT includes environmental criteria encompassing the 
product life cycle. EPEAT also provides a system for registering and 
verifying equipment that meets its criteria. EPEAT-registered computers 
and monitors have reduced levels of toxics, are more energy efficient, 
easier to upgrade and recycle, and use more sustainable packaging than 
conventional equipment. EPA supported the development of EPEAT, and it 
is now a self-sustaining system operated by the Green Electronics 
Council.
    EPEAT has been a tremendous success. Even with recent upgrades to 
the EPEAT criteria, there are more than 550 products from 26 
manufacturers registered to the EPEAT standard. In the first six months 
the system was in place, manufacturers reported selling more than 36 
million EPEAT-registered products. EPEAT is now the official 
environmental standard for electronics in all federal purchasing. More 
than six states and many other public and private purchasers are 
specifying EPEAT equipment.
    There is increasing demand for EPEAT to expand to additional 
products. This year, EPA is funding a neutral organization to convene 
stakeholders to develop standards for additional electronic products, 
including possibly TVs. EPA has committed resources to help develop 
four new standards. Interest is growing in using EPEAT to promote 
greener electronics purchases by consumers.

ENERGY STAR: Starting as early as summer 2008, consumers will be able 
to purchase ENERGY STAR qualified TVs covering all of today's screen 
technologies, in all sizes. The ENERGY STAR label will mean these 
products are up to 30 percent more energy efficient in both standby and 
active (when they are on) modes than conventional models. The 
approximately 275 million TVs currently in use in the U.S. consume over 
50 billion kWh/year--or four percent of all households' electricity 
use. When coupled with digital video recorders, they account for about 
13 percent of an individual household's electricity bill.
    Energy consumption can vary greatly among different models. In 
general, the larger the TV, the more energy it will consume. However, 
when similarly sized products are compared, projection units use the 
least energy, followed by LCD products, with plasma products using the 
most energy. EPA will make available on the ENERGY STAR Web site an 
estimate of the annual kilowatt-hours (kWh) for all qualified TVs, so 
consumers are aware of the amount of energy the TV they are considering 
for purchase will use each year. On average, under the new 
requirements, an ENERGY STAR qualified TV will save $35 off a 
consumer's utility bills over the life of the TV. If each TV purchased 
in the U.S. in one year were ENERGY STAR qualified, we would prevent 
more than three billion pounds of greenhouse gas emissions per year. 
This equals a savings of over two billion kWh and $250 million in 
energy costs and reduces greenhouse gas emissions equal to taking about 
300,000 vehicles off the road annually.\4\
---------------------------------------------------------------------------
    \4\ Energy Star uses standard assumptions for converting energy 
savings to greenhouse gas (GHG) reductions and dollars saved. For GHG 
conversions used by the Energy Star program, please see http://
www.epa.gov/cleanenergy/energy-resources/refs.html
---------------------------------------------------------------------------
    On April 24, 2008, EPA announced a new specification for ``boxes'' 
that deliver television and video content, also called set-top boxes. 
Effective January 1, 2009, new cable, satellite, and telecom set-top 
boxes that carry the ENERGY STAR will be at least 30 percent more 
energy efficient than conventional models. If, after this new 
specification goes into effect, all set-top boxes sold in the United 
States meet the Energy Star requirements, the savings in energy costs 
will grow to about $2 billion each year and greenhouse gas emissions 
will be reduced by the equivalent of taking about 2.5 million vehicles 
off the road annually.
    Furthermore, EPA recently made the ENERGY STAR available for 
digital-to-analog converter boxes (DTA's). ENERGY STAR qualified DTAs 
are eligible for purchase under the National Telecommunications and 
Information Agency's TV Converter Box Coupon Program. This program 
provides consumers coupons to save on the purchase of DTA's so older 
TVs can continue to receive over-the-air broadcasting after February 
17, 2009. Consumers are encouraged to check that a product is both a 
coupon-eligible converter box and ENERGY STAR qualified model prior to 
purchasing. Savings from an ENERGY STAR qualified DTA over a 
conventional model are estimated to be up to 37 kWh annually or $4.

DESIGN FOR THE ENVIRONMENT (DfE): Over the years, EPA's DfE Program has 
worked with the electronics industry to help green the manufacturing of 
electronics, as well as electronics products themselves. DfE has worked 
with the industry on ways to green the manufacture of printed wiring 
boards, assess the life cycle impacts of CRTs and flat panel displays, 
and assess substitutes for tin-lead solder that have acceptable 
engineering performance yet are less toxic, and pose the fewest risks 
over their life cycle. The solder life cycle assessment generated data 
to help manufacturers, users, and suppliers incorporate environmental 
considerations when choosing replacements for the 176 million pounds of 
leaded solder used annually in the United States.
    DfE also recently completed a life cycle assessment for various 
kinds of wire and cable products (including network and low voltage 
cables). The study results will help companies make environmentally-
informed product and material choices and will identify the relative 
contributions of various processes and materials to the overall impacts 
of the wire and cable products.

2) ENCOURAGING MORE REUSE AND RECYCLING

PLUG-IN TO eCYCLING: Plug-In to eCycling is working, through 
partnerships, to expand infrastructure for collection and safe 
recycling of e-waste nationwide. In 2007, EPA's Plug-In partners 
collected more than 47 million pounds of electronics. The energy 
conserved through these recycling efforts is equivalent to the annual 
GHG emissions of taking nearly 24,000 cars off the road annually.\5\ 
Since the partnership began in 2003, Plug-In partners have recycled 
more than 142 million pounds of unwanted consumer electronics. All 
Plug-In partners, whether they recycle electronics directly or contract 
with others for recycling services, are required to abide by the Plug-
In Guidelines for Materials Management. These Guidelines spell out 
preferred recycling practices for used electronic products.
---------------------------------------------------------------------------
    \5\ EPA calculates these greenhouse gas (GHG) equivalent emissions 
reductions based on the WARM model (Waste Reduction Model), following a 
life cycle assessment methodology using estimation techniques developed 
for national inventories of GHG emissions. See Solid Waste Management 
and Greenhouse Gases: A Life-Cycle Assessment of Emissions and Sinks 
(EPA530-R-06-004). To convert GHG equivalent emissions to more easily 
understood metrics, such as cars off the road, gallons of gasoline, 
etc., EPA uses the Greenhouse Gas Equivalencies Calculator developed by 
the U.S. Climate Technology Cooperative.
---------------------------------------------------------------------------
    Plug-In partners continue to demonstrate innovation and creativity 
in sponsoring collection events and take-back programs and reaching out 
to consumers. As an example, Dell has expanded its Reconnect 
partnership with Goodwill Industries to include select cities in six 
states. Reconnect, a comprehensive electronics recovery, reuse, and 
environmentally responsible recycling opportunity for consumers, is now 
providing electronics donation opportunities to several million 
households. Dell also has a free, online computer recycling program for 
consumers who own Dell computers.
    In 2007, Staples, Office Depot, Hewlett Packard, and Sony also 
launched nationwide eCycling efforts. The Staples program, launched in 
May, lets consumers drop off their computers and other electronic 
office equipment at any of the company's 1,400 U.S. retail locations. 
Sony's Take Back Recycling program, launched in September 2007, allows 
consumers to take, free of charge, their unwanted Sony-branded 
electronic products at 138 drop-off centers across the country run by 
Waste Management eCycle America.
    As part of its Plug-In to eCycling program, EPA teamed up with cell 
phone manufacturers, service providers, and retailers in 2007 to 
increase America's cell phone recycling and donation rate. EPA 
distributed public service announcements and podcasts and increased 
publicity about available partner recycling programs.
    These and other initiatives sponsored by industry, states, and 
recyclers are generating critical data which will inform policy-making 
on electronics recycling. These innovations are crucial to learning 
what works, what does not, where collaboration is possible and where it 
is not, what kinds of opportunities really get the attention of the 
consumer and what kind of material the consumer wants to recycle. And 
very importantly, these projects clarify what it costs to get 
electronics from the consumer into responsible recycling under varying 
circumstances.

FEDERAL ELECTRONICS CHALLENGE: The Federal Government is a very large 
purchaser of IT products. To help the Federal Government lead by 
example in buying green electronics and managing them appropriately at 
the end of their useful life, the Federal Environmental Executive and 
the EPA launched the Federal Electronics Challenge (FEC) in 2004. The 
FEC is a voluntary partnership program designed to help federal 
agencies become leaders in promoting sustainable environmental 
stewardship of their electronic assets. As FEC Partners, federal 
agencies work towards goals in all three of the electronics life cycle 
phases--acquisition & procurement; operations & maintenance; and end-
of-life management.
    In 2007, the President signed Executive Order (E.O.) 13423, 
``Strengthening Federal Environmental, Energy, and Transportation 
Management.'' E.O. 13423 consolidates and strengthens five executive 
orders and two memorandums of understanding related to Federal 
Government environmental, energy, and transportation performance and 
accountability, including electronics stewardship by federal agencies. 
CEQ and OMB implementing instructions for the E.O. were issued later in 
2007 requiring that all federal agencies and their facilities 
participate in the FEC, or an equivalent program.
    Today, the FEC has 16 federal agency partners and 184 facility 
partners. Facility partners reported many successes in 2007. These 
included 1) 80 percent of computer desktops, laptops and monitors 
purchased or leased were EPEAT registered,\6\ 2) 86 percent of monitors 
and 69 percent of computers had ENERGY STAR features enabled, and 3) 99 
percent of non-reusable computers were recycled in an environmentally-
sound manner.
---------------------------------------------------------------------------
    \6\ The Federal Acquisition Regulations requirement that 95 percent 
of applicable federal information technology purchases meet the EPEAT 
took effect in December of 2007. As a result, it is anticipated that 
more federal purchases will be EPEAT-compliant in FY 2008.
---------------------------------------------------------------------------
    The Recycling Electronics and Asset Disposition (READ) services 
program assists Federal agencies in assuring environmentally sound 
management of their electronic discards. Managed by EPA, the READ 
program offers federal agencies access to recycling and asset 
disposition services providers that have been evaluated to ensure that 
they recycle and properly dispose of excess or obsolete electronics in 
an environmentally responsible manner.

3) WORKING TO IMPROVE ELECTRONICS RECYCLING

RESPONSIBLE ELECTRONICS RECYCLING PRACTICES: A broad group of 
stakeholders, including states, electronics manufacturers, electronics 
recyclers, trade associations and public interest groups, have been 
convened to develop voluntary ``responsible recycling'' (R2) practices 
for electronics recyclers, and a process for assessing conformity of 
recyclers with these practices. We expect that these practices will be 
implemented by private organizations, and not EPA. The dialogue began 
in 2006 and has resulted in a set of draft practices that has been 
reviewed by experienced facility auditors and will be undergoing field 
testing in the next few months. However, it should be noted that these 
draft practices have not been agreed to by the stakeholders and are 
likely to be further modified after field testing and further 
discussions.
    The current draft includes provisions for recyclers to 1) comply 
with all applicable environmental, health, and safety legal 
requirements, 2) manage used and end-of-life electronic equipment based 
on a ``reuse, recover, dispose'' hierarchy of responsible management 
strategies, 3) utilize practices at their facilities that protect 
worker health and safety and the environment, 4) manage the R2 ``focus 
materials'' that pass through their facilities or under their control 
in a manner protective of worker health and safety, public health, and 
the environment, and 5) perform due diligence on downstream vendors to 
which it ships these materials, including those that are exported from 
the United States. ``R2 focus materials'' are materials in end-of-life 
electronics equipment that warrant greater care because of potential 
hazards during recycling, refurbishing, materials recovery, energy 
recovery, incineration, and/or disposal.
    After the practices have been field tested, the stakeholder group 
expects to revisit and revise the practices based on information and 
recommendations gathered during the field testing process, and to make 
other changes as appropriate. EPA is also conducting research on 
electronics recycling that includes environmental sampling and 
characterization of an electronics recycling facility. Data from this 
testing will assist the stakeholders in adopting practices to comply 
with applicable environmental requirements.

EXPORTS MANAGEMENT: It is well known that electronics material 
collected in the United States and other developed countries is 
exported to foreign countries. Some are concerned that this amounts to 
``exporting harm,'' because electronics materials have been mishandled 
in some of the receiving locations. Those that object to exports of 
used electronics point to the coming digital transition and consumer 
upgrading to new TV technologies (e.g., LCD, plasma, flat screens) and 
the insufficient infrastructure in the U.S. to process these materials 
as evidence that abuses abroad will only worsen. However, it must be 
recognized that while there have been demonstrated problems, export of 
electronics collected is a necessary and useful function, and important 
work is underway to ensure that these exports are managed appropriately 
at their destination. Also, it should be understood that without export 
of electronics as an option, most of the electronics in the United 
States would be disposed.
    Used electronics can be exported to other countries for the purpose 
of continued use or recycling. It is difficult to generate good 
estimates of how much used and scrap electronics are exported for reuse 
and recycling, because data on export volumes is not always required to 
be reported. However, EPA has attempted to quantify the amount of CRT 
TVs and monitors that are exported for reuse or recycling. We estimate 
that more than 80 percent of CRT devices (including materials such as 
processed glass resulting from processing CRTs in the U.S.) that are 
collected for reuse or recycling are sent to foreign markets.
    Given the concerns expressed by some about improper handling of 
electronics abroad, should there be any export at all? There are 
examples of unsafe recycling practices in some areas of the world where 
dismantling occurs in unregulated and uncontrolled cottage industry 
conditions. However, there are also benefits associated with export of 
this material. Much of what goes abroad is whole equipment or 
components for reuse. This reuse avails many people in developing 
countries with information technology that would otherwise be 
unaffordable for them. Materials such as plastics or metals derived 
from electronics and processed in the United States make up another 
large portion of the amount exported. These ``scrap'' commodities are 
in high demand overseas as raw materials for manufacturing. Because 
most electronics are manufactured abroad, using materials from 
discarded electronics in the manufacture of new electronics cannot 
occur unless the raw materials are sent back to where the products are 
manufactured.
    Without international markets, many of the efforts currently 
underway in the United States to divert obsolete electronics away from 
disposal and toward reuse and recycling could not be sustained. For 
example: 1) there are no smelters/refiners in the United States to 
convert copper and precious metal (gold, silver, palladium) bearing 
electronics into metals that are pure enough for use; 2) there are no 
longer any cathode ray tube (CRT) glass furnaces in the Western 
Hemisphere for use of recycled CRT glass; 3) nearly all markets for 
plastics from electronics are overseas, primarily in Asia; and 4) the 
major markets for reuse (of both whole equipment and components) are 
outside the United States, mostly in developing countries.
    At the same time, EPA is taking steps to improve the management of 
electronics sent abroad for management. This is particularly relevant 
to concerns that evolution to new TV technologies which will increase 
the number of old TVs available for end-of-life management. EPA's new 
CRT rule requires exporters of CRTs for reuse to file a one-time 
notification with EPA stating that they plan to export CRTs for reuse. 
The rule also requires persons who export CRTs for reuse to keep, for 
not less than three years, copies of business records demonstrating 
that each shipment of exported CRTs will be reused. This requirement 
provides United States regulatory authorities the opportunity to 
inspect these records in order to verify that the CRTs were actually 
sent to legitimate reuse or refurbishment entities. For export of CRTs 
and unprocessed CRT glass for recycling (as opposed to reuse), the rule 
requires both notification to EPA of the intended export and consent by 
the receiving country. These regulations are relatively new, and we are 
still in the process of implementing the requirements. These new 
requirements promise to ensure significantly better control over CRTs 
exported for recycling.
    We also have several initiatives that promote safe management of 
used electronics exported for recycling, including the Plug-In 
guidelines for sound reuse and recycling of electronic products and the 
multi-stakeholder dialogue to issue ``responsible recycling'' practices 
for incorporation into a certification program for e-waste recyclers, 
both of which have previously been discussed in the testimony. EPA also 
led the development of international guidelines on the sound use and 
recycling of personal computers by the Organization for Economic 
Cooperation and Development (OECD). We participated in a Basel 
Convention partnership effort with industry that is developing 
guidelines for the safe reuse, recycling and transboundary movement of 
used and scrap mobile phones. Finally, we are a participant in a 
working group of international stakeholders of academia, trade 
associations, industry and governments--called the StEP initiative--to 
identify voluntary activities that promote sound reuse and safe 
recycling, especially concerning the transboundary flows of 
electronics.
    With global markets being essential to sustainable and sound 
management of electronics, the key is to continue to work towards 
assuring that management of electronics at their end-of-life is 
protective of human health and the environment whenever and wherever it 
takes place. EPA is committed to continuing its ongoing efforts in this 
regard.

Conclusion

    EPA appreciates the Committee's interest in this issue and the 
opportunity to discuss the Agency's electronics goals, what efforts are 
currently underway, and how EPA works with partners throughout the 
product chain to achieve shared responsibility for a greener, recovery-
oriented product cycle.
               Follow-up Questions for Written Submission
              by the Environmental Protection Agency (EPA)

Questions submitted by Chairman Bart Gordon

Q1.  How much funding has EPA allocated for the development of the 
Electronics Product Environmental Assessment Tool (EPEAT) standards for 
televisions and when will this funding be given to the Green 
Electronics Council to develop these standards?

A1. The Green Electronics Council is not the developer of EPEAT 
standards. The Council maintains the EPEAT Product Registry and 
conducts verification to help ensure products meet the EPEAT Standard 
criteria and markets EPEAT to purchasers. Rather, EPA will be awarding 
a $300,000 four year cooperative agreement, which will pay for 50 
percent of the costs of managing the process of developing four new 
product standards--imaging equipment, televisions, servers, and cell 
phones/PDAs: The recipient of this cooperative agreement will 
facilitate the development of these new standards through a multi-
stakeholder voluntary consensus process. EPA provided partial funding 
under the Pollution Prevention Program/Project (502C95) in EPA's 
Environmental Programs Management appropriation for this work due to 
limited resources and a belief that other stakeholders needed to 
jointly-fund the development of standards which meet their needs. The 
EPA cooperative agreement is in the final stages of obtaining Agency 
approval, and is scheduled to be awarded in the summer of 2008.

Q2.  EPA states in its testimony that ``starting as early as 2008, 
consumers will be able to purchase ENERGY STAR qualified TVs.'' Is 
ENERGY STAR available now for televisions?

        <bullet>  EPA states in its testimony that ``. . . they [TVs 
        and digital recording devices] account for about 13 percent of 
        an individual household's electricity bill.'' Given this high 
        energy usage, why has the ENERGY STAR program been so slow to 
        expand the program to televisions?

        <bullet>  The Committee heard testimony at the hearing, that 
        the production of an electronics product uses considerably more 
        energy than the energy use over the product's lifetime. Why 
        hasn't EPA added a provision to ENERGY STAR that would help 
        consumers assess and compare the embodied energy of electronics 
        products?

Q2a.  Is ENERGY STAR available now for televisions?

A2a. EPA has had ENERGY STAR requirements for TVs since 1998. Version 
2.2 of these requirements is in place now and more than 2,200 TV models 
have earned the ENERGY STAR label. In November 2008, EPA's new Version 
3.0 requirements for TVs will go into effect. These new requirements 
ensure that TVs are more energy efficient in all modes of operation. In 
order to qualify for ENERGY STAR, TVs must be tested using the 
internationally vetted and supported On Mode test procedure for TVs 
(IEC 62087).

Q2b.  EPA states in its testimony that ``. . . they [TVs and digital 
recording devices] account for about 13 percent of an individual 
household's electricity bill.'' Given this high energy usage, why has 
the ENERGY STAR program been so slow to expand the program to 
televisions?

A2b. ENERGY STAR has addressed what was the significant contribution 
TVs historically made to a household's electricity bill (i.e., standby 
power consumption). As TV technology and usage patterns have changed, 
EPA contributed to the development of an internationally accepted ``On 
Mode'' test procedure and incorporated requirements into ENERGY STAR to 
address power consumption across all modes of TV operation. With these 
new requirements, if all TVs sold in the United States met ENERGY STAR 
requirements,\1\ the savings in energy costs would grow to about $1 
billion annually.
---------------------------------------------------------------------------
    \1\ As of 2015 and thereafter.
---------------------------------------------------------------------------
    Standby power consumption remains a focus of the ENERGY STAR 
program as U.S. households spend $100 per year to power devices while 
they are in a standby power mode--roughly eight percent of household 
electricity costs. Consumer electronics, including audio, video and 
telephone products account for 40 percent of low power mode consumption 
(roughly $40 per household per year).

Q2c.  The Committee heard testimony at the hearing that the production 
of an electronics product uses considerably more energy than the energy 
use over the product's lifetime. Why hasn't EPA added a provision to 
ENERGY STAR that would help consumers assess and compare the embodied 
energy of electronics products?

A2c. EPA has, to date, focused on the savings available to consumers by 
reducing the power draw of products they use in their homes and 
workplaces. Through this focus, Americans, with the help of ENERGY 
STAR, prevented 40 million metric tons of greenhouse gas emissions in 
2007 alone and saved more than $16 billion on their utility bills.
    The program is committed, however, to achieving additional savings. 
For example, ENERGY STAR initially focused on achieving greater 
efficiency while products were in low power mode as there was an 
opportunity to deliver significant savings in a cost effective manner. 
In recent years, EPA has turned its attention to On Mode power 
consumption for many product categories as their power consumption in 
this mode has become a more significant portion of the products' 
overall consumption and meaningful savings were measurable and 
achievable. A sister program to ENERGY STAR, EPA's Climate Leaders 
program, has challenged partners to reduce their carbon footprint, 
including that which is associated with the manufacture of products 
like TVs.
    EPA is considering how the Agency can weigh products' embodied 
energy, as well as the product's in-use performance against a range of 
other environmental criteria when recognizing products as 
environmentally preferable. This effort, underway now, will align with 
ENERGY STAR's guiding principles--engaging key stakeholders, and 
building on existing data.

Q3.  When did EPA begin its Design for the Environment (DfE) program? 
How much funding has gone to the initiative since its inception (by 
year) and how much has been specifically devoted to electronics 
products (by year)? How much funding did EPA request for these 
activities in FY 2008 and FY 2009?

        <bullet>  Please list the electronics producers EPA has worked 
        with through the DfE program. How has EPA worked with 
        electronics recyclers or facilitated dialogue between 
        electronics producers and electronics recyclers through the DfE 
        program?

        <bullet>  How are tools like the solder life cycle assessment 
        and the wire and cable life cycle assessment used by 
        manufacturers? Can you please provide us with some specific 
        success stories from the WE program?

Q3a.  When did EPA begin its Design for the Environment (DfE) Program?

A3a. The Office of Pollution Prevention and Toxics' Design for the 
Environment (DfE) Program was established in 1992. More information on 
the DfE Program is available at www.epa.gov/dfe.

Q3b.  How much funding has gone to the initiative since its inception 
(by year) and how much has been specifically devoted to electronics 
projects (by year)? How much funding did EPA request for these 
activities in FY 2008 and FY 2009?

A3b. Year-by-year funding for DfE and for DfE electronics projects is 
provided in Attachment A. The attachment also provides the President's 
budget request for DfE for fiscal years 2008 and 2009. All DfE 
resources are housed in the Pollution Prevention Program/Project 
(502C95) in EPA's Environmental Programs Management appropriation.

Q3c.  Please list the electronics producers EPA has worked with through 
the DfE Program.

A3c. Attachment B includes the electronics manufacturers who have 
played a significant role in DfE partnerships. Also in this list are 
suppliers to electronic manufacturers who have provided input in the 
dialogue. These include manufacturers of printed circuit boards, flame 
retardants, and resins. After the industry partners, we list other 
significant participants.

Q3d.  How has EPA worked with electronics recyclers or facilitated 
dialogue between electronics producers and electronics recyclers 
through the DfE Program?

A3d. Multi-stakeholder engagement is central to DfE's approach; DfE 
engages industry, environmentalists, and others. These stakeholders 
help EPA to define project goals and scope, and enable EPA to 
understand and account for the broad range of concerns and issues 
associated with exploring alternative, safer chemicals, more efficient 
processes, and preferable product end-of-life scenarios.
    Recyclers have shown great interest in DfE projects. For example, 
in the case of the ongoing EPA Flame Retardants in Printed Circuit 
Boards Partnership, copper smelters participated in scoping and design 
of the partnership and are now working with us to conduct the work. 
Copper smelters have helped DfE and the full stakeholder group to 
understand how the smelting process works, and the printed circuit 
board constituents that may cause concern for the industry. The 
smelters have been very helpful in designing a study to understand the 
unintended byproducts that may result from combustion.
    Based on our partnership work involving their industry, the 
Institute of Scrap Recycling Industries, Inc., gave DfE their Design 
for Recycling Award in 2007.

Q3e.  How are tools like the solder life cycle assessment and the wire 
and cable life cycle assessment used by manufacturers?

A3e. DfE Lead-Free Solder Partnership

    The study results have provided the industry with an objective 
analysis of the life cycle environmental impacts of leading candidate 
alternative lead-free solders, and have allowed the industry to 
redirect efforts towards products and processes that reduce solders' 
environmental footprint. The electronics industry has substantially 
reduced the use of lead in electronics since this study began. More 
information can be found at www.epa.gov/dfe/pubs/projects/solder/
index.htm.

DfE Wire & Cable Partnership
    Opportunities for improvement of environmental performance in wire 
and cable products were identified in the Life Cycle Assessment, 
focusing primarily on energy efficiency, and recycling of chopped cable 
resin. For example, electricity generation for raw material production 
and cable extrusion were a large part of the environmental burden of 
wire and cable products. Finding opportunities to reduce energy inputs 
would likely have a large effect on the overall environmental burden of 
wire and cable products. Also, increased recycling of chopped cable 
resin, although an energy-intensive process, would decrease the 
potential impacts associated with land-filling and incineration. The 
draft final LCA is now posted on the DfE web site for public comment. 
Please see: www.epa.gov/dfe.

Q3f.  Can you please provide us with some specific success stories from 
the WE Program?

A3f. Below are success stories from the DfE Program.

Informed Substitution: Safer Flame Retardants for Furniture and Printed 
        Circuit Boards
    DfE's Furniture Flame Retardancy Partnership was initiated in 
response to stakeholder concerns with the occurrence of 
pentabromodiphenyl ether (pentaBDE) in the environment and human 
tissues. PentaBDE was the primary flame retardant in the manufacture of 
low-density, flexible polyurethane foam for furniture, with production 
levels of approximately 19 million pounds per year.
    To ensure that decisions were made based on the best information 
available, and to minimize the chance of unintended consequences, DfE 
brought together a multi-stakeholder group to consider the move to 
alternative chemicals. In consultation with this group, DfE developed 
an alternatives assessment methodology for evaluating alternative flame 
retardants based on the tools and expertise of the Office of Pollution 
Prevention and Toxics.
    DfE evaluated 14 commercially-available alternative flame retardant 
formulations. The outcome of the partnership was a move to alternative 
flame retardant formulations. The results from this partnership were 
used by foam manufacturers, in the period leading up to the voluntary 
December?2004 phase-out of production of pentaBDE, in choosing 
alternative flame retardants. These efforts complemented an EPA 
Significant New Use Rule (SNUB) under the Toxic Substances Control 
Act--a regulatory backstop to require notification to EPA before 
restart of U.S. manufacture or import of pentaBDE for any use.
    Please see: http://www.epa.gov/dfe/pubs/projects/flameret/index.htm 
for more information.

DfE's Printed Circuit Board Partnership
    DfE is now working with the electronics industry, the chemical 
industry, and environmental groups to adapt the technical methodology 
described above to electronics applications. The Printed Circuit Board 
Flame Retardancy Partnership was convened to better understand the 
environmental health and safety aspects of commercially available flame 
retardants that can be used to meet fire safety requirements for the 
type of printed circuit board that dominates the industry.
    A draft report for public comment will be available later in 2008. 
Please see: http://www.epa.gov/oppt/dfe/pubs/projects/pcb/index.htm for 
more information.

DfE Formulator Safer Product Recognition Program
    EPA allows safer products to carry the Design for the Environment 
(DfE) label. This mark allows consumers to quickly identify and choose 
products that can help protect the environment and are safer for 
families. When you see the DfE logo on a product it means that the DfE 
scientific review team has screened each ingredient for potential human 
health and environmental effects and that--based on currently available 
information, EPA predictive models, and expert judgment--the product 
contains only those ingredients that pose the least concern among 
chemicals in their class.
    Product manufacturers who become DfE partners, and earn the right 
to display the DfE logo on recognized products, have invested heavily 
in research, development and reformulation, to ensure that their 
ingredients and finished product line up on the green end of the health 
and environmental spectrum, while maintaining or improving product 
performance.
    More than 100 manufacturers have met DfE's criteria for displaying 
the logo on more than 500 products, including: Clorox, Method, SC 
Johnson and Son, Colgate Palmolive, Dial Corporation, SYSCO, and 
Corporate Express. Additionally, retailers such as WalMart and Home 
Depot ask their suppliers to work with DfE. Visit http://www.epa.gov/
oppt/dfe/pubs/projects/formulat/label.htm for more information and a 
listing of safer products.
    Please also see Design for the Environment Partnership Highlights 
at http://www.epa.gov/dfe/pubs/about/index.htm.

Q4.  When did EPA begin its Plug-In To eCycling program? Since its 
inception, how much funding has EPA requested for this program (by 
year) and how much has been allocated (by year)? What specific 
activities are funded under this program, and what activities does EPA 
carry out?

        <bullet>  In its testimony, EPA states that these ``initiatives 
        sponsored by industry, states, and recyclers are generating 
        critical data which will inform policy-making on electronics 
        recycling.'' Please provide some examples of the critical data 
        generated and how it will inform policy-makers. What is EPA's 
        role in collecting and processing this information?

A4. In 2003, EPA launched the Plug-In To eCycling partnership program 
to work with electronics manufacturers and retailers to offer consumers 
increased opportunities to donate or recycle--``eCycle''--their used 
electronics. The program's initiatives are intended to reflect shared 
responsibility among manufacturers, retailers, governments and 
consumers. These initiatives seek to demonstrate how voluntary, 
industry-led models or public-private partnerships can complement 
existing state or municipality-led collection and recycling efforts. 
Plug-in initiatives also inform policy-making on electronics recycling 
by demonstrating what works and what does not (e.g., how best to 
encourage consumer participation, what various approaches cost). Over 
the past five years, the Plug-In program has grown to include 25 
industry partners. Through their collective, voluntary efforts, 
partners have recycled more than 142 million pounds of unwanted 
consumer electronics.
    Since its inception, Plug-In To eCycling has been allocated 
approximately $742,000\2\ in funding ($207,000, $125,000, $100,000*, 
$100,000*, $100,000, and $110,000 for fiscal years 2003-2008, 
respectively).\3\ The Plug-In program is not included as a separate 
item in our program budget requests, but it is one of the many 
activities over the years that we implement during the budget year to 
foster improved end-of-life management of electronics, as described in 
our Congressional Justifications.
---------------------------------------------------------------------------
    \2\ In FY07 and FY08 we funded this out of 301DA2--Waste 
Minimization and Recyling funds.
    \3\ For FY 2005 and 2006, Plug-In was not itemized in the operating 
plan budget. It was included within the $275,000 allocated to the 
Office of Solid Waste's activities on management of end-of-life 
electronics and received an estimated $100,000 in both FY05 and FY06.
---------------------------------------------------------------------------
    With these funds, Plug-In To eCycling carries out the following 
functions: 1) providing information to educate and encourage the public 
to increase participation in electronics recycling, 2) facilitating 
partnerships to increase opportunities for consumers to recycle their 
used electronics; 3) researching ways that manufacturers can 
collaborate to help manage collection and recycling of e-waste; and 4) 
supporting efforts to quantify the environmental benefits of 
electronics recycling. Specific activities that have been undertaken 
include:

        <bullet>  To increase public awareness of the opportunities to 
        donate and recycle used electronics and the environmental 
        benefits of doing so, Plug-In has created a variety of outreach 
        tools, including: an eCycling event toolkit, brochures, flyers, 
        web pages, public service announcements, podcasts, and a short 
        video promoting computer reuse. Earlier this year, Plug-In 
        launched the Recycle Your Cell Phone. It's an Easy Call. 
        campaign to highlight the many opportunities for consumers to 
        recycle their cell phones. In just two weeks, the campaign 
        received over 10,000,000 media impressions from national 
        outlets, such as AP, the New York Times, NPR and Reuters and 
        this earned media valued at over half a million dollars. 
        Outreach activities help to raise public awareness of the 
        importance of electronics recycling and stimulate participation 
        in existing recycling programs.

        <bullet>  Plug-In has supported the development, 
        implementation, and evaluation of four pilot projects to assess 
        different approaches to effective collection techniques for 
        end-of-life electronics. These pilots included retail take-back 
        pilots involving Staples, Good Guys, Office Depot, and Best Buy 
        and researched the creation of manufacturer-led third party 
        organizations to coordinate collection and recycling. The 
        lessons learned and data collected from participating in the 
        pilot projects enabled the retail partners to test the 
        feasibility of collecting used electronics in a retail setting 
        and understand the degree to which the reverse distribution 
        collection approach could be part of the company's sustainable 
        business model. For example, based on the experience gained and 
        the success of its pilot project, Staples has since expanded 
        their program nationwide. The retail pilots have demonstrated 
        that retailers are potent partners in educating and 
        incentivizing consumers to recycle by providing them with 
        convenient drop-off outlets and offering them attractive 
        rebates and discounts on the purchase of new products when they 
        bring in an old product for recycling. The research on 
        manufacturer-led third party organizations illustrates how 
        consortia of manufacturers can pool their resources and 
        business expertise to provide efficient and effective take-back 
        services. These lessons are being applied in such states as 
        Washington and Minnesota, two states that are encouraging 
        manufacturer collaborations on take-back. All of these pilots 
        have helped to expand collection and recycling not only in 
        states that have electronics recycling requirements, but states 
        that do not.

        <bullet>  EPA created the Plug-In To eCycling Guidelines for 
        Materials Management, which serves as national guidance for the 
        safe management of used electronics. These Guidelines have 
        allowed EPA and Plug-In partners to gain experience and 
        information about what practices, will most effectively protect 
        human health and the environment, while at the same time 
        enabling practicable programs for the management of used 
        electronics. The Guidelines have also served as a basis for the 
        development of the ongoing effort to formulate consensus 
        ``Responsible Recyclers Practices.'' \4\
---------------------------------------------------------------------------
    \4\ EPA is working with stakeholders (i.e., states, electronic 
manufacturers, recyclers, trade associations and public interest 
groups) to develop one agreed upon set of practices that can be used in 
a voluntary certification program which assures the environmental 
performance of electronic recyclers. This certification program is 
expected to be run by private organizations, not EPA.

        <bullet>  EPA has collaborated with the National Center for 
        Electronics Recycling (NCER) to help populate NCER's database 
        on electronics collection. Plug-In To eCycling partners are 
        being asked to share their data with NCER. The centralized 
        database, designed by a range of key stakeholders in 
        conjunction with the NCER and EPA, is intended to provide 
        recycling program designers and managers, as well as policy-
        makers, with information on electronics recycling program 
---------------------------------------------------------------------------
        structure, costs, and results.

        <bullet>  Plug-In has contributed to the broader EPA effort to 
        develop the Electronics Environmental Benefits Calculator 
        (EEBC). The Calculator estimates the benefits of 
        environmentally sound management of electronic equipment from 
        purchase to use to end-of-life management. With this tool, a 
        user can quantify and articulate the environmental benefits of 
        their electronics recycling activities in terms of greenhouse 
        gas reductions and energy savings.

Q5.  Regarding the export of used electronics, EPA's testimony states, 
``. . . it should be understood that without export of electronics as 
an option, most of the electronics in the United States would be 
disposed.'' Does this mean disposed of in a landfill, incinerated; or 
by some other means? Is the recycling infrastructure in the U.S. 
sufficiently robust to handle the volume of used electronics generated 
in this country?

        <bullet>  EPA also states in its testimony that ``important 
        work is underway to ensure that these exports are managed 
        appropriately at their destination.'' What are the specifics of 
        this work and who is responsible?

        <bullet>  Lastly, EPA's testimony describes the Cathode Ray 
        Tube (CRT) Export for Re-Use Notification Rule that went into 
        affect in January of 2007 and states that the ``new 
        requirements promise to ensure significantly better control 
        over CRTs exported for recycling.'' How much funding has EPA 
        requested for the oversight and enforcement of this rule, and 
        how much has been allocated, for FY 2007, FY 2008, and FY 2009 
        (requested)? How will this new rule ensure better control of 
        the export of CRT televisions and monitors? Will this rule be 
        expanded to cover other electronic devices, like computers, 
        cell phones, and flat panel displays?

A5. When we say that without export most electronics discarded in the 
U.S. would be disposed, it refers to the limited U.S. markets for reuse 
of this equipment, as well as for use of recycled raw materials in 
manufacturing. Thus, without international markets, many of the efforts 
currently underway in the U.S. to divert used electronics away from 
disposal (land-filling and/or incineration) and toward reuse and 
recycling could not be sustained.
    Our study on electronics management in the U.S. estimates that 
between 15-20 percent of used electronics collected in the U.S. are 
reused or recycled--with much of this material exported as described 
below. The remaining 80-85, percent are disposed of domestically. We 
estimate that most of the disposal is in landfills, based on the fact 
that the vast majority of waste disposed of in the U.S. is managed in 
landfills, as opposed to incinerators or waste-to-energy facilities (80 
percent land-filled, versus less than 20 percent in incinerators or WM 
facilities).\5\ We hope that the amount of electronics destined for 
reuse and recycling will grow as a percentage, but this will 
necessarily mean that more electronics will be destined for reuse or 
recycling abroad for the reasons discussed below.
---------------------------------------------------------------------------
    \5\ U.S. EPA, Office of Solid Waste. Electronics Waste Management 
in the United States: Fact Sheet, Management of Electronic Waste in the 
United States. April 2007. EPA530-R-07-004a. www.epa.gov/ecycling/
manage.htm
---------------------------------------------------------------------------
    The worldwide demand for used electronic equipment and components 
is both very high and extensive. Many used electronic components are 
marketed globally, with the highest demand in Asia, where these 
components are often used in the production of refurbished or 
remanufactured electronics. Although there are some U.S. markets for 
used electronic components and whole equipment, these are limited 
compared to export markets, where these materials generally have a much 
higher value. U.S. consumers also are much less likely to purchase used 
electronic goods than consumers in poorer countries.
    Although hundreds of recyclers dismantle and process used 
electronics in the U.S., the primary markets for many of the derived 
materials are foreign ones. For example, because there no U.S. smelters 
equipped to recover copper and precious metals from circuit boards, all 
circuit boards must be exported. Likewise, all CRT glass furnaces are 
outside the U.S., primarily in Asia. Thus, most CRT glass is exported 
to glass manufacturing furnaces in Asia, where new CRTs are made using 
recycled glass. Virtually all plastics derived from processing used 
electronics in the U.S. are exported to Asia.
    In general, the recycling infrastructure in the U.S. is adequate 
for the preliminary processing of electronics (e.g., separating out 
parts and some of the material streams, such as metals, plastics and 
glass). Numerous recyclers have positioned themselves to provide even 
greater U.S. processing capacity as an increasing number of state 
recycling mandates take effect. However, many factors affect where 
processing, and recycling will ultimately occur--that is, whether 
certain stages of processing are performed in the U.S. or outside the 
U.S. These factors include, among others, proximity to markets and 
manufacturing, labor rates and regulation.
    With regard to our statement that ``important work is underway to 
ensure that these exports are managed appropriately at their 
destination,'' we were referring to: 1) developing responsible recycler 
practices; and 2) actively participating in international dialogues 
focused on developing international guidelines for the sound management 
of e-waste. We are also implementing the new CRT rule which is intended 
to provide better control over CRTs exported for reuse and 
recycling.\6\
---------------------------------------------------------------------------
    \6\ The new CRT rule requires exporters of CRTs for reuse to file a 
one-time notification with EPA stating that they plan to export CRTs 
for reuse. The rule also requires persons who export CRTs for reuse to 
keep, for not less than three years, copies of business records 
demonstrating that each shipment of exported CRTs will be reused. This 
requirement provides U.S. regulatory authorities the opportunity to 
inspect these records in order to verify that the CRTs were actually 
sent to legitimate reuse or refurbishment entities. For export of CRTs 
and unprocessed CRT glass for recycling (as opposed to reuse), the rule 
requires both notification to EPA of the intended export and consent by 
the receiving country.
---------------------------------------------------------------------------
    For implementation of the CRT rule, EPA's Office of Solid Waste 
expended 0.4 FTE in FY 2007 and 0.3 FTE in FY 2008. We project a need 
of 0.3 FTE in FY 2009. No extramural funds were used by OSW during this 
time period. We do not have plans to expand the coverage of the CRT 
rule to the export of other forms of used and scrap electronics. EPA's 
Office of Enforcement and Compliance Assistance has not specifically 
requested any funding for enforcement of the CRT rule and has no plans 
to do so for 2009. As with other rules, this office will devote 
resources as necessary to address identified cases of noncompliance, 
but will not request resources specifically for that purpose.
    To enable businesses and organizations to verify that electronic 
recyclers are employing environmentally responsible practices, we are 
working with stakeholders (i.e., states, manufacturers, recyclers, 
trade associations and public interest groups) to develop an agreed 
upon set of practices that can be used in a voluntary certification 
program to assure responsible environmental performance by electronic 
recyclers. Draft recycling guidelines have been reviewed by experienced 
facility auditors, and field testing of these guidelines is now 
underway. The draft certification guidelines place a great deal of 
emphasis on ``downstream due diligence'' to assure that e-waste is 
handled properly in the U.S., as well as outside the U.S., and 
specifically address the need to ensure that exported equipment and 
materials comply with the requirements of importing and transit 
countries.
    Also, as we mentioned in our testimony, we have led the development 
of international guidelines on the sound use and recycling of personal 
computers by the Organization for Economic Cooperation and Development 
(OECD). We participated in a Basel Convention partnership effort with 
industry that is developing guidelines for the safe reuse, recycling 
and trans-boundary movement of used and scrap mobile phones. We are 
also involved in the early stages of a similar Basel partnership 
regarding personal computers. Finally, we are a participant in a 
working group of international stakeholders of academia, trade 
associations, industry and governments--called the StEP initiative--to 
identify voluntary activities that promote sound reuse and safe 
recycling, especially concerning the trans-boundary flows of 
electronics.

Questions submitted by Representative Ralph M. Hall

Q1.  How have electronics in the waste stream changed over the past 
decade and what predictions can we make about changes in the coming 
years? How do these changes affect our ability to safely and 
efficiently recycle or reuse these devices?

A1. Over the past 10 years, both the quantity and composition of 
electronics in the waste stream have changed dramatically. From 1997 to 
2007, the number of TVs, computers, keyboards, hard copy devices, and 
cell phones that Americans generate increased by 220 percent,\7\ 
although the percentage of end-of-life electronics compared to 
municipal solid waste is still relatively low--less than two 
percent.\8\ There have been many changes in the types of products 
entering the market and subsequently the waste stream. Portable 
computers now comprise over a quarter of the, computers generated for 
end-of-life management, whereas a decade ago they were only beginning 
to take a stronghold in the market.\9\ The number of cell phones that 
were generated in 2007 increased by nearly 20 fold compared to 
1997.<SUP>7</SUP> Additionally, cell phones have continued to become 
smaller and lighter. Flat screen monitors and TVs (featuring liquid 
crystal displays or plasma screens) are displacing cathode ray tubes 
(CRTs).<SUP>7</SUP> Sales of flat panel TVs outstripped CRTs in 
2007.<SUP>7
---------------------------------------------------------------------------
    </SUP>\7\ Preliminary results from our analysis Electronics Waste 
Management in the United States: Approach 1. Updated May 2008.
    \8\ U.S. EPA. Municipal Solid Waste Generation, Recycling and 
Disposal in the United States: Facts and Figures for 2006. EPA-530-F-
07-030.
    \9\ The new CRT rule requires exporters of CRTs for reuse to file a 
one-time notification with EPA stating that they plan to export CRTs 
for reuse. The rule also requires persons who export CRTs for reuse to 
keep, for not less than three years, copies of business records 
demonstrating that each shipment of exported CRTs will be reused. This 
requirement provides U.S. regulatory authorities the opportunity to 
inspect these records in order to verify that the CRTs were actually 
sent to legitimate reuse or refurbishment entities. For export of CRTs 
and unprocessed CRT glass for recycling (as opposed to reuse), the rule 
requires both notification to EPA of the intended export and consent by 
the receiving country.
---------------------------------------------------------------------------
    These changes in the composition of the electronics waste stream 
have implications for recycling markets. For example, as more and more 
CRTs are returned for recycling, but, fewer CRTs are produced, new 
markets for leaded CRT glass will be needed. While there continue to be 
markets for reusable/refurbishable CRTs and CRT glass in developing 
countries (where CRT glass recycling capability is available), this 
will only last until the markets in those locales change too. Then, 
alternative uses for CRT glass will be necessary, as old CRTs will 
still be disposed of even after new CRTs are no longer made.
    Some of the newer products entering the market are smaller and 
serve multi-functions. For example, the new cell phones are lighter and 
more compact than earlier models, reducing the amount of packaging and 
the number of trucks needed to transport the finished product. On the 
other hand, some new products are significantly larger, such as new TVs 
which are significantly larger than the TVs they are replacing, 
suggesting that there will be more material to manage when these 
products reach the end of their useful life. There has been relatively 
little focus on how to recycle these new products (e.g., LCDs and 
plasma screens), suggesting a need for more information on how to 
manage these products properly.
    It also is likely that rapid innovation and product convergence 
will continue. Many ``stand-alone'' products, such as PDAs, cell 
phones, MP3 players, and digital cameras, are merging into single 
multi-function products, in some cases rendering the single function 
products less desirable, although there still seem to be markets for 
stand-alone products. Many products will be capable of doing more in 
smaller sizes. As a result, they will be made of less material that 
needs recycling. Recyclers will be faced with continually changing 
streams of materials and configurations to deal with.
    Worldwide, there has been increasing pressure for the electronics 
industry to adhere to stricter materials restrictions, such as the 
Reduction of Hazardous Substances (RoHS) Directive in the European 
Union, California's version of RoHS and EPEAT (which incorporates the 
RoHS requirements into its standards). New generations of electronics 
(including TVs, computers and mobile phones/PDAs) are being designed to 
meet these requirements through use of fewer toxic inputs and greater 
use of recyclable materials. These requirements will reduce certain 
substances of concern and substitute new constituents and materials not 
used before in electronics. More research will be needed on new 
constituents and additives to replace banned substances to make sure 
that the substitutes will both ensure product performance integrity 
without introducing new environmental problems.
    Demand is increasing on the part of the electronics industry for 
more secondary materials (e.g., plastics, metals) to use in new 
products. However, bans on certain chemicals and constituents in 
electronics are making it harder to do this. This is because many 
materials recovered from older electronics contain banned constituents 
(e.g., plastics impregnated with certain brominated flame retardants, 
lead). As a result, new sources of secondary materials will be needed 
for the electronics industry as well as ways to remove banned 
substances from the materials currently being recovered from 
electronics so that they can be used in the manufacture of new 
electronics.
    Finally, as electronic products continue to change and evolve, it 
will be necessary to support continuing research on how to make 
recycling of these products more cost-effective and safe. Research will 
be necessary on how best to design products to facilitate dismantling, 
how to identify toxic components for separation and safe processing, as 
well as methods to minimize worker exposures during recycling.

Q2.  Dr. Williams suggests that some take-back programs have an adverse 
effect on reuse. Do you agree with this assessment? What effect does 
EPA see on reuse of commodities like cell phones due to the increase in 
take-back campaigns?

A2. Generally speaking, reuse occurs for products that have a reuse 
market. The strength of the reuse market depends on a number of 
factors, such as the quality and age of the product in question and 
demand for the product. For example, there is a strong reuse market for 
working CRT tubes to be used intact in new TVs or computer monitors in 
developing country markets, where consumers cannot afford the newer 
flat panel screens. EPA's Office of Solid Waste estimates CRTs that can 
be reused or refurbished are worth $4-$10 apiece. In addition, there is 
a strong demand for working CPUs in these same regions. However, as 
prices for shipping a container to China rise dramatically (up from 
$400 in 2004 to $1,850 as estimated by American Retroworks, Inc.), 
exports of electronics need to be valuable enough to cover this cost, 
meaning that products sent abroad are more likely now to be reusable or 
refurbishable or mined for working parts. This means that most 
recyclers (with the exception of recyclers that shred exclusively) have 
incorporated reuse into their business model. There is a whole 
community of ``refurbishers'' whose business model is based on reuse of 
the electronic equipment.
    Another example is cell phones, which currently has a strong reuse 
market. While some manufacturers of cell phones do not include reuse in 
their take-back programs (due to competition from used equipment and 
concerns about the standards used for ``refurbishing'' phones affecting 
their reputation), most cell phone retailers, carriers, and private 
recyclers, as well as charities, schools and other public interest 
organizations have a strong reuse component in their take-back 
programs. This is because there is still a greater economic return for 
resale of used phones than can be earned from recycling them. Even 
companies that do not resell or refurbish recovered phones, are likely 
to break-down the phone into its parts and recover items, such as LCD 
screens, speakers, and other parts that are in good working order.
    It is true that some take-back programs have had the effect of 
discouraging or preventing reuse of some kinds of products. One example 
has been seen in California, not because the State's law explicitly 
requires recycling over reuse, but because California offers 
electronics recyclers a per-pound reimbursement for recycling covered 
electronics. This gives recyclers a choice: if they can earn more by 
selling discarded products for reuse, they will. Conversely, if they 
can earn more by recycling and claiming reimbursement from the State, 
they will. For a time, the recycling value paid by the state exceeded 
the reuse value of certain products. California recently reduced its 
reimbursement rate to processors who recycle, so sale for reuse may 
become more attractive for some products. Some voluntary manufacturer 
take-back programs for IT equipment do not focus on reuse, emphasizing 
instead parts recovery or recycling over reuse or refurbishment of the 
product. At least one manufacturer, Dell, however, has incorporated a 
strong reuse component into all of its voluntary take-back programs--
both in their consumer take-back program and their partnership with 
GoodWill. In Dell's recycling programs, they have determined that the 
amount of material that goes to reuse (both whole equipment and parts) 
versus the amount of material that goes to recycling stays constant, 
indicating that reuse is still a viable part of their program.

Q3.  What are the most difficult components to safely and cost-
effectively recycle? Other witnesses have raised plastics, mercury 
lamps, and lead content as having the potential to negatively affect 
environmental and public health. What is the state-of-the-art for 
recycling or reuse of these items?

A3. There are two different questions here: whether it is possible to 
cost-effectively recycle electronics and whether it is possible to 
safely recycle electronics.
    As to cost-effectiveness, it is possible to recycle many computers 
cost-effectively. Many used IT products (especially those of more 
recent vintage) can be resold as is or refurbished, at a profit (e.g., 
CRTs, CPUs). For those that cannot, there is often positive value in 
these products in the way of parts (e.g., circuit boards and disk 
drives) and recyclable materials. But there is a cost to collecting and 
transporting these products to recycling facilities. Sometimes the 
resale value of the products or the value of the materials in the 
product covers the collection and transportation costs (especially in 
the case of smaller, newer products such as laptops); sometimes it does 
not (e.g., with larger or older products, such as desktop computers). 
This is why some manufacturers and retailers that offer take-back 
programs sometimes charge a fee for some IT products.
    TVs are just the opposite. It takes more labor to dismantle TVs 
than is earned from the materials recovered. Because TVs are a net 
negative cost to recycle, many collection programs (outside of those in 
states that mandate a point of purchase fee or manufacturer 
responsibility for used electronics) charge consumers a price to manage 
discarded TVs. Also, TVs depreciate as they age. The average PC monitor 
brought in for recycling is about 10-15 years newer than the average TV 
brought in for recycling. However, the average age of TVs brought in 
for recycling is starting to decline as hotels and many Americans start 
trading-up to flat screen models. At the same time, the average weight 
of these TVs is going up (reflecting the larger TVs purchased over the 
years) and this adds to the cost of managing them. The weight of TVs 
may drop again over time as thinner ``flat'' screens displace CRTs and 
large projection TVs.
    Regarding safety issues in recycling electronics, many smaller 
products, such as cell phones, PDAs, bluetooths and cameras, contain 
batteries that may cause problems in recycling unless they can be 
readily located and removed. Some digital cameras contain mercury lamps 
that are time consuming to locate and remove. Failure to remove these 
items can contaminate the material stream if these products are crushed 
or shredded, creating the risk of employee or environmental exposure, 
as well as significantly reducing the re-sale value of the resulting 
materials.
    Looking forward, several factors will affect how safely and cost-
effectively electronics will be recycled. These factors include: 1) 
amount of electronics available for recycling; 2) innovations in 
recycling technology; 3) the degree to which products are designed to 
be more readily recyclable; and 4) the development of markets for 
materials that cannot be readily used in the making of new electronics. 
Due to State take-back requirements and the expanding use of voluntary 
industry take-back options, the volume of electronic material for 
recycling has increased. As the volume increases, economies of scale in 
collection, transportation and processing will reduce costs. New 
technologies are being developed that will make it easier and more 
lucrative to process older electronics moving through the system. New 
methods to quickly and safely dismantle CRTs are now being 
demonstrated; technologies for improving the recognition and 
segregation of the multiple plastics used in electronics are starting 
to improve. While more research is needed to perfect these new 
technologies, these improvements will increase the speed with which 
products can be processed and improve the end-markets for the materials 
recovered.
    Also, newer electronics are increasingly designed for recycling as 
a result of EPEAT, green design innovations by manufacturers, and EU 
mandates. For example, manufacturers are looking at ways to identify 
where toxic components are located inside products and make it easier 
to remove them. They are also looking for ways to mark various 
materials (e.g., plastics) so that they can be quickly identified and 
separated in the recycling process, leading to more consistent and 
valuable material streams. EPA recently approved a grant for the Green 
Electronics Council to work with recyclers to recommend design changes 
to an array of electronics that will facilitate faster and safer 
recycling.
    New markets for certain materials recovered in the recycling 
process may be necessary to help electronics recycling succeed 
economically. One example is CRT glass. While CRT glass can be used in 
lead smelting as a fluxing agent (and there is worldwide capacity for 
this use), there are also markets for CRT glass in Asia to make new 
CRTs. As CRTs are gradually replaced by other screen technologies, 
these glass-to-glass markets will decline and so other leaded glass 
markets would be good to identify. The same will be true for LCDs and 
plasma screens that may be supplanted by other technologies.
    It also is likely that many newer electronic products will contain 
less of the high value metals (precious and otherwise) that typified 
the earlier generations of these products. This will mean that the 
value to be recovered from these products will decline, unless the 
value of materials in electronics increases. This is particularly true 
of computers and TVs. Older computers, like those in the early '90s, 
were larger and with more copper wiring and steel casing (steel casing 
in the support banding of the CRT in TVs and CPUs). Now CPU casing is 
made primarily from plastics. Computers and TV housings are now 
smaller, with less metal content and snore plastics. Additionally, in 
some cases, copper wiring is being replaced by fiber optic.
    How these two conflicting trends (lower cost of recycling vs. lower 
inherent value in electronics for recovery), will affect the overall 
cost-effectiveness of electronics recycling is hard to predict. 
However, as long as the costs of recycling continue to decline and the 
value of materials and the ability to find markets for materials that 
are recovered improves (as a result of better technologies for 
separation (e.g., plastics) and new market applications for materials 
that need them (e.g., CRT glass), the economic outlook for recycling of 
electronics should improve.
    With respect to the state-of-the-art recycling methods for 
plastics, mercury lamps, and lead, the following describes those 
methodologies that are currently used:

        <bullet>  Recycling of mercury-containing devices, such as 
        mercury lamps, occurs in a number of U.S. facilities. The 
        process they follow includes recycling the glass and aluminum 
        end caps, and recovering the mercury through retorting. The 
        mercury is then used in the manufacture of new products.

        <bullet>  Lead has two primary uses in consumer electronics: 
        (1) it is used in CRTs to prevent consumer exposure to harmful 
        x-rays, and (2) its use in solder used in electronic circuitry.

                  State-of-the-art reuse and recycling of CRTs is (1) 
                reuse of the CRT for its original function--that is as 
                a video display device, (2) recycling of scrap CRT 
                glass for the purpose of producing new CRTs in a CRT 
                manufacturing furnace (glass to glass furnace), and (3) 
                placement of CRTs and CRT glass in a lead smelter. In a 
                lead smelter, not only is the lead recovered for reuse, 
                but the glass serves as a flux that is useful to the 
                smelting process.

                  State-of-the-art for the recycling of circuit boards 
                is placement in a smelter to recover copper and 
                precious metals. Depending upon the particular smelter, 
                the lead may also be recovered or it will remain in the 
                smelter slag, which is land-filled.

        <bullet>  Plastics from electronics are also recovered and 
        recycled, often involving hand separation of plastic types, 
        removal of contaminants, pelletization and then use in 
        manufacturing new plastic products. Although a great deal of 
        research has been conducted on methods for mechanical sorting 
        of mixed plastics, it is not clear that such methods have been 
        perfected to the point of being viable on a commercial scale.

Q4.  There have been claims in the testimony that most electronics 
recycling in the U.S. is collected for export to countries with less 
stringent environmental safety laws. Is there truth to this claim and 
if not where does the e-waste in other countries come from?

A4. As discussed above, most used and scrap electronics are exported 
for reuse or recycling abroad, either intact, or as parts or as pre-
processed materials that can be used directly in the manufacture of new 
products. The U.S., like other developed countries, operates in a 
global market where much of our electronic material is recycled in 
other countries based on economic drivers. Thus, Western Europe, Japan, 
South Korea, Australia and Canada all have exports of used and scrap 
electronics for reuse and recycling. These exports often go to the same 
locations as exports from the U.S.
    Used electronics are exported to many countries for the purpose of 
recycling, not just developing countries with less stringent 
environmental laws. Currently, the primary destinations for these 
materials are Canada, Belgium, Sweden, Japan, Mexico and various Asian 
countries, including China, India and Malaysia. Electronic circuitry is 
exported to smelters in Canada, Belgium, Sweden and Japan for copper 
and precious metals recovery. Materials for copper recovery are also 
exported to China. Plastics are largely sent to Asian recycling 
facilities, particularly China. Glass from cathode ray tubes is 
exported to Canada for lead smelting, Mexico for processing prior to 
shipment to Asian glass furnaces, and CRT glass furnaces in India and 
Malaysia. Whole used electronics are also exported for dismantling or 
refurbishment or remanufacturing in Canada, Mexico, and a number of 
Asian countries. EPA is aware that not all of these exports result in 
environmentally sound management. Since global markets are essential to 
sustainable and sound management of e-waste, the key is to continue to 
work towards assuring that management of e-waste is protective of human 
health and the environment wherever it takes place. We are committed to 
continuing our ongoing efforts in this regard.

Q5.  Does the EPA collect statistics on recycling by individual 
manufacturers? Do you know what the average recycle rate of 
manufacturers is in the U.S. for the following products: CRT monitors, 
televisions, computers, car batteries, and cell phones?

A5. No, we do not have information to determine an average manufacturer 
recycling rate, but we do have information on the national recycling 
rate of select electronic products. In the U.S., computer products and 
TVs are recycled at a rate of approximately 18 percent. For cell 
phones, we have published a recycling rate of less than 20 percent, but 
based on recent analyses believe it closer to 10 percent.\10\
---------------------------------------------------------------------------
    \10\ Preliminary results from our analysis Electronics Waste 
Management in the United States: Approach 1. Updated May 2008.
---------------------------------------------------------------------------
    Through the Plug-In To eCycling Program, which includes electronic 
manufacturers and retailers, partners inform EPA of their recycling 
activities. Often times the recycling data that partners provide is a 
total summation of their voluntary recycling efforts and it is not 
broken down by product.
    With respect to car batteries, they typically are managed in 
programs separate from those designed for collection of consumer 
electronics. In 2006, lead-acid car batteries were recycled at a rate 
of 99 percent.\11\
---------------------------------------------------------------------------
    \11\ U.S. EPA. Municipal Solid Waste Generation, Recycling and 
Disposal in the United States: Facts and Figures for 2006. EPA-530-F-
07-030.

Q6.  How many products require refurbishment before they can be reused? 
Where does refurbishment typically take place and are refurbished goods 
---------------------------------------------------------------------------
subject to, different trade standards?

A6. We are not able to say how many products require refurbishment 
before they can be reused. However, products which typically undergo 
some degree of refurbishment are those for which there is a reuse or 
resale market. This includes late model computers, laptops, and CRTs 
(either computer or TV CRTs) which can be used in new computers and TVs 
(typically for sale in developing countries where the market for newer 
monitor technologies is limited), and cell phones.
    Refurbishment typically takes place at the recycler, with 
refurbishment of all electronic equipment being done both domestically 
and abroad. Refurbished or remanufactured electronic goods are not 
subject to trade standards (i.e., refurbishing process standards).
    They are, however, subject to general FTC standards which require 
them to be labeled and marketed as refurbished/remanufactured to 
prevent deceptive practices. Consequently, electronic recyclers have 
developed their own individual policies for (1) what used equipment can 
be refurbished or remanufactured; and (2) to what level they will be 
refurbished (sometimes in conjunction with manufacturers and carriers).
    There is a broad spectrum of recycling programs established across 
the United States. Recycling programs may incorporate reuse and or 
refurbishment to different levels. Specifically, recyclers may:

        <bullet>  Set no criteria, other than reuse or refurbish all 
        collected material that has a viable resale market.

        <bullet>  Set minimum criteria. Criteria may be set with regard 
        to functionality, cosmetics or age of the equipment. Companies 
        have also set criteria based on the ability, or ease of 
        clearing personal data. Any or all of these criteria could be 
        part of a recyclers refurbishing policy.

        <bullet>  Set very strict criteria. Some manufacturers and 
        network carriers in both the PC and cellular industry have set 
        strict standards (called factory refurbishment standards) for 
        what is required for use in warranty exchange. These standards 
        address both the cosmetic and the functional condition. 
        Industry sources state that a large percentage of cell phones 
        that are retired when consumers upgrade to new devices are 
        fully functional and require no repair. However, these phones 
        would require cosmetic renewal to meet the strict warranty 
        exchange requirements.

        <bullet>  Engage in no refurbishment or reuse at all. Under 
        this model, all material goes directly to material recovery, 
        often shredding. Some of the original electronic manufacturers 
        have programs in this category as they express concerns with 
        competition from used equipment and the ``standards'' used for 
        refurbishing phones affecting their reputation.
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Attachment B

  List of stakeholders from the U.S. Environmental Protection Agency 
             Design for the Environment (DfE) Partnerships

Industry

        <bullet>  Acer in cooperation with ITRI (Industrial Technology 
        Research Institute)

        <bullet>  Agilent

        <bullet>  Albemarle

        <bullet>  Alcatel Telecom

        <bullet>  AlphaGary

        <bullet>  Alpha Metals

        <bullet>  Apple Computer, Inc.

        <bullet>  Chemtura

        <bullet>  Cable Components Group

        <bullet>  Celestica, Inc.

        <bullet>  Chemson

        <bullet>  Ciba Specialty Chemicals

        <bullet>  Clariant

        <bullet>  CommScope

        <bullet>  Cookson Electronics

        <bullet>  Corning Asahi

        <bullet>  Daikin America

        <bullet>  Dell Computer

        <bullet>  Delphi Delco

        <bullet>  Display Device Consultants

        <bullet>  Display Search

        <bullet>  The Dow Chemical Company

        <bullet>  DuPont

        <bullet>  Dynamic Details, Inc.

        <bullet>  Eastman Kodak Company

        <bullet>  Electronic Industries Alliance

        <bullet>  Ecolibrium

        <bullet>  Electrochemicals, Inc.

        <bullet>  Enthone-Polyclad Technologies

        <bullet>  Ferro Corporation

        <bullet>  Florida CirTech

        <bullet>  Fujitsu Siemens Computers

        <bullet>  GE Power Systems

        <bullet>  Georgia Gulf

        <bullet>  HDP User Group International, Inc. (High Density 
        Packaging)

        <bullet>  HFFREC (The Halogen-Free Flame Retardants Electronics 
        Consortium)

        <bullet>  Hitachi Chemical Company America, Ltd.

        <bullet>  HP (Hewlett-Packard Company)

        <bullet>  IBM

        <bullet>  ICL Industrial Products

        <bullet>  Intel

        <bullet>  Isola

        <bullet>  ITEQ Corporation

        <bullet>  ITI (Information Technology Industry Council)

        <bullet>  Judd Wire

        <bullet>  Lenovo

        <bullet>  Manitoba Corporation

        <bullet>  MacDermid, Inc.

        <bullet>  Matsushita Electronic Corporation of America

        <bullet>  McGean-Rohco, Inc.

        <bullet>  METSS Corp.

        <bullet>  Motorola, Inc.

        <bullet>  Nabaltec AG

        <bullet>  Nan Ya Plastics

        <bullet>  Nokia

        <bullet>  Ormet Corporation

        <bullet>  Panasonic

        <bullet>  PE International

        <bullet>  Phibro-Tech Inc.

        <bullet>  Philips Consumer Electronics

        <bullet>  Pitney Bowes

        <bullet>  Polaroid Corporation

        <bullet>  Princeton University Center for Energy & 
        Environmental Studies

        <bullet>  PWB Interconnect Solutions, Inc.

        <bullet>  Raytheon Systems Co.

        <bullet>  Rockwell Collins

        <bullet>  Rockwell International Corp.

        <bullet>  Sematech

        <bullet>  Sharp Electronics Corporation

        <bullet>  Sony Electronics Inc.

        <bullet>  Southwest Technology Consultants

        <bullet>  Southwire Company

        <bullet>  Substrate Technologies Inc.

        <bullet>  Sud-Chemie

        <bullet>  Superior Essex

        <bullet>  Supresta

        <bullet>  Technic, Inc.

        <bullet>  Teknor Apex

        <bullet>  Teradyne Inc.

        <bullet>  Thomson Multimedia

        <bullet>  Tyco Printed Circuit Group, LP

        <bullet>  United Copper Industries

        <bullet>  Universal Circuits Inc.

Associations and Consortiums

        <bullet>  BSEF (The Bromine Science and Environmental Forum)

        <bullet>  Electronic Industries Alliance, IPC--Association 
        Connecting Electronics Industries (printed circuit board trade 
        association)

        <bullet>  iNEMI (International Electronics Manufacturing 
        Initiative)

        <bullet>  National Electrical Manufacturers Associations (NEMA)

        <bullet>  Society of the Plastics Industry

        <bullet>  U.S. Display Consortium

        <bullet>  Vinyl Institute of the American Plastics Council

Environmental Groups

        <bullet>  Clean Production Action

        <bullet>  Communities for a Better Environment

        <bullet>  GreenBlue

        <bullet>  Greenpeace

        <bullet>  Silicon Valley Toxics Coalition

Universities and Other Organizations

        <bullet>  City of San Jose Environmental Services

        <bullet>  Contamination Studies Laboratory

        <bullet>  Georgia Institute of Technology Materials Science & 
        Engineering

        <bullet>  Minnesota Office of Environmental Assistance

        <bullet>  NJ Institute of Technology

        <bullet>  Purdue University

        <bullet>  The Swedish Institute for Fibre and Polymer Research 
        (IFP Research) in cooperation with KemI

        <bullet>  The SemiCycle Foundation

        <bullet>  Underwriter's Laboratories

        <bullet>  University of Massachusetts Toxics Use Reduction 
        Institute

        <bullet>  University of Tennessee--Center for Clean Products 
        and Clean Technologies

        <bullet>  University of Michigan School of Natural Resources & 
        the Environment

        <bullet>  U.S. Navy

                                   

</pre></body></html>
